No. ________
OCTOBER TERM, 2020
IN THE SUPREME COURT OF THE UNITED STATES
Joseph Weldon Smith, Petitioner,
v.
Renee Baker, Warden, et al., Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
PETITIONER’S APPENDIX
CAPITAL CASE

RENE L. VALLADARES
Federal Public Defender of Nevada
DAVID ANTHONY*
BRAD D. LEVENSON
ELLESSE HENDERSON
ROBERT FITZGERALD
Assistant Federal Public Defenders
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
(702) 388-5819 (Fax)

* Counsel of Record

APPENDIX
Appendix A

Order and Amended Opinion affirming denial of
habeas relief and petition for rehearing, Smith v.
Baker, et al., United States Court of Appeals for the
Ninth Circuit, Case No. 14-99003 (Dec 21,
2020)…………………………………………………….…. App. 001 – 055

Appendix B

Opinion affirming denial of habeas relief, Smith v.
Baker, et al., United States Court of Appeals for the
Ninth Circuit, Case No. 14-99003 (May 21,
2020)…………………………………………………….…. App. 056 – 113

Appendix C

Order denying reconsideration, Smith v. Baker, et al,
United States District Court of Nevada, Case No.
2:07-cv-00318-JCM-CWH (Nov. 5, 2014)……………. App. 114 – 127

Appendix D

Judgment in a Civil Case, Smith v. E.K. McDaniel,
et al., United States District Court of Nevada, Case
No. 2:07-cv-00318-JCM-CWH (Mar. 13, 2014)……… App. 128 – 129

Appendix E

Order denying Petitioner’s Petition for Writ of
Habeas Corpus, Smith v. Baker, et al., United
States District Court of Nevada, Case No. 2:07-cv00318-JCM-CWH (Mar. 13, 2014)…………………….. App. 130 – 162

Appendix F

Opinion affirming denial of habeas relief, Smith v.
State, Supreme Court of the State of Nevada, Case
No. 228786 (Jan. 22, 1998)……………………………..

2

App. 163 – 168

APPENDIX A
Order and Amended Opinion affirming denial of habeas
relief and petition for rehearing, Smith v. Baker, et al.,
United States Court of Appeals for the Ninth Circuit, Case
No. 14-99003 (Dec. 21, 2020)

App. 001

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 1 of 54

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

JOSEPH WELDON SMITH,
Petitioner-Appellant,
v.
RENEE BAKER, Warden; AARON D.
FORD, Attorney General of the State
of Nevada,
Respondents-Appellees.

No. 14-99003
D.C. No.
2:07-cv-00318JCM-CWH

ORDER AND
AMENDED
OPINION

Appeal from the United States District Court
for the District of Nevada
James C. Mahan, District Judge, Presiding
Argued and Submitted July 11, 2019
Seattle, Washington
Filed May 21, 2020
Amended December 21, 2020
Before: N. Randy Smith, Mary H. Murguia, and
Morgan Christen, Circuit Judges.
Order;
Opinion by Judge Christen;
Concurrence by Judge N.R. Smith

App. 002

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 2 of 54

2

SMITH V. BAKER
SUMMARY**

Habeas Corpus/Death Penalty
The panel affirmed the district court’s judgment
dismissing Joseph Weldon Smith’s habeas corpus petition
challenging his Nevada convictions for three murders and one
attempted murder, and his death sentence for one of the
murders.
The district court issued a certificate of appealability for
Smith’s argument that the procedural default of his
ineffective-of-assistance-of-counsel claim should be excused
pursuant to Martinez v. Ryan, 566 U.S. 1 (2012). The panel
held that Smith did not show that he was prejudiced by the
lack of an evidentiary hearing, and that the district court did
not abuse its discretion by dismissing the Martinez claim
without holding one. Applying Martinez and Strickland v.
Washington, 466 U.S. 668 (1984), the panel held that Smith
satisfied his burden of demonstrating a substantial argument
that the performance of his second penalty-phase counsel was
deficient for failing to investigate mental health mitigation
evidence, but that Smith did not show that he was prejudiced
by counsel’s deficient performance.
The panel certified for appeal Smith’s claim that the death
verdict violated Stromberg v. California, 283 U.S. 359
(1931). The panel held that Smith demonstrated Stromberg
error because it was impossible to tell whether the jury
unanimously found mutilation, which was the sole basis to
**

This summary constitutes no part of the opinion of the court. It has
been prepared by court staff for the convenience of the reader.

App. 003

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 3 of 54

SMITH V. BAKER

3

support the death verdict after the Nevada Supreme Court
invalidated the trial court’s depravity-of-mind jury
instruction. The panel concluded that the error was harmless
because the invalid instruction did not have a substantial and
injurious effect on the jury’s verdict.
The panel declined to certify Smith’s remaining
uncertified claims.
Concurring, Judge N.R. Smith would affirm the dismissal
of Smith’s ineffective-assistance-of-counsel claim as
procedurally barred on a different ground—that counsel’s
performance during the second penalty-phase hearing was not
deficient, and that the claim is therefore insubstantial.

COUNSEL
Robert Fitzgerald (argued), David Anthony, Heather Fraley,
Brad D. Levenson, and Ellesse Henderson, Assistant Federal
Public Defenders; Rene L. Valladares, Federal Public
Defender; Office of the Federal Public Defender, Las Vegas,
Nevada, for Petitioner-Appellant.
Jeffrey M. Conner (argued), Deputy Solicitor General;
Victor-Hugo Schulze II, Senior Deputy Attorney General;
Heidi Parry Stern, Chief Deputy Attorney General; Aaron D.
Ford, Attorney General; Office of the Attorney General,
Carson City, Nevada; for Respondents-Appellees.

App. 004

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 4 of 54

4

SMITH V. BAKER
ORDER

The opinion filed on May 21, 2020, and appearing at
960 F.3d 522, is amended as follows:
At 522 F.3d at 544, at the end of the paragraph that begins
with “Brecht’s harmlessness test asks . . . ,” add: “Here, we
see no reason to suspect that the arguments presented by the
State or the defense would have varied at all had the
narrowed instruction been given. The evidence strongly
supported a finding of ‘mutilation beyond the act of killing
itself’ and mutilation was a subset of depravity under Nevada
law at the time Smith’s case was tried.”
With this amendment, the panel unanimously votes to
deny Petitioner-Appellant’s petition for panel rehearing.
Judges Murguia and Christen have voted to deny the petition
for rehearing en banc, and Judge N. R. Smith has so
recommended.
The full court has been advised of Petitioner-Appellant’s
petition for rehearing en banc, and no judge of the court has
requested a vote on the petition for rehearing en banc. Fed.
R. App. P. 35.
The petition for rehearing and the petition for rehearing
en banc are DENIED.

App. 005

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 5 of 54

SMITH V. BAKER

5

OPINION
CHRISTEN, Circuit Judge:
In 1992, a Nevada jury convicted Joseph Weldon Smith
of three counts of first degree murder with use of a deadly
weapon for beating and strangling his wife, Judith Smith, and
his step-daughters, Wendy Jean Cox and Kristy Cox. The
women were killed in a home the Smiths were renting in
Henderson, Nevada. The jury also convicted Smith of
attempting to murder Frank Allen with use of a deadly
weapon. Allen owned the home the Cox family was renting.
For Wendy’s and Kristy’s murders, Smith was sentenced to
death. For Judith’s murder, he was sentenced to life in prison
without the possibility of parole.
Smith appealed his convictions and sentences. The
Nevada Supreme Court affirmed the convictions, but it
vacated the death sentences and remanded for a new penalty
hearing. See Smith v. State, 881 P.2d 649 (Nev. 1994) (Smith
I). After a second penalty hearing, Smith was again
sentenced to death for Wendy’s and Kristy’s murders. On
appeal, the Nevada Supreme Court vacated the death sentence
for Kristy’s murder and instead imposed a sentence of life
without the possibility of parole, but it affirmed the death
penalty for Wendy’s murder. See Smith v. State, 953 P.2d
264 (Nev. 1998) (Smith II).
Smith filed a pro per habeas petition in state district court,
which was denied, and the Nevada Supreme Court affirmed
that ruling in an unpublished order. Smith then filed a pro
per habeas petition in federal district court. That court
appointed counsel for Smith and stayed the federal
proceedings so Smith could return to state court to exhaust

App. 006

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 6 of 54

6

SMITH V. BAKER

certain claims. The state district court denied Smith’s second
state habeas petition on procedural default grounds, and the
Nevada Supreme Court affirmed that decision. Smith then
returned to federal court, where the State’s motion to dismiss
was granted in part and denied in part. The federal district
court later denied the remainder of Smith’s petition but issued
a certificate of appealability for his argument that the
procedural default of his ineffective assistance of counsel
(IAC) claim should be excused pursuant to Martinez v. Ryan,
566 U.S. 1 (2012). Smith appeals the denial of his federal
habeas petition.
We affirm the district court’s judgment dismissing
Smith’s IAC claim as procedurally barred. Although we
conclude that his counsel’s performance at the second
penalty-phase hearing was deficient, Smith has not shown
that he was prejudiced by his counsel’s performance. Smith’s
IAC claim therefore remains procedurally defaulted, and
cannot serve as a basis for federal habeas relief.
Smith also asserts nine uncertified claims on appeal. We
may issue a certificate of appealability when a petitioner
shows “that reasonable jurists could debate whether . . . the
petition should have been resolved in a different manner or
that the issues presented were ‘adequate to deserve
encouragement to proceed further.’” Miller-El v. Cockrell,
537 U.S. 322, 336 (2003) (quoting Slack v. McDaniel,
529 U.S. 473, 484 (2000)). We certify Smith’s eighth claim,
which alleges violation of the rule set out in Stromberg v.
California, 283 U.S. 359 (1931), but we ultimately conclude
that this claim does not entitle Smith to habeas relief because
the Stromberg error was harmless. The remaining uncertified
claims do not raise substantial questions of law. We decline
to certify them because we are not persuaded that “reasonable

App. 007

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 7 of 54

SMITH V. BAKER

7

jurists would find the district court’s assessment of the
constitutional claims debatable or wrong.” Miller-El,
537 U.S. at 338 (quoting Slack, 529 U.S. at 484). We
therefore affirm the district court’s order dismissing Smith’s
federal habeas petition.
I. Factual Background
The facts relating to the murders and to Smith’s first trial
and penalty-phase hearing were recounted by the Nevada
Supreme Court in Smith I, as follows:
During the trial Michael Hull, a police officer
for the City of Henderson, testified as follows:
On Saturday, October 6, 1990, at
approximately 2:29 a.m., he was dispatched to
the Fountains, a gated community in
Henderson. While on his way, Hull was
flagged down by a man who subsequently
identified himself as Frank Allen. Allen
appeared frantic and Hull observed blood on
his shirt and blood running down the left side
of his head. Allen told Hull that Smith had
attacked him with a hammer or a hatchet.
After arriving at the Smiths’ home, located at
2205 Versailles Court inside the gated
community, Hull and two other officers
observed a large broken window lying on the
front porch outside the house. Allen had
explained to the officers that he had left
through that window. The officers entered the
premises and, during a search of a bedroom,
observed what appeared to be a figure beneath

App. 008

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 8 of 54

8

SMITH V. BAKER
a blanket. After lifting the blanket, they
discovered a dead body, subsequently
identified as twelve-year-old Kristy Cox. In
an adjacent bedroom they discovered a second
body, also dead and covered with a blanket,
later identified as twenty-year-old Wendy
Cox. Under a blanket in the master bed, the
officers found a third victim, Kristy and
Wendy’s mother and Smith’s wife, Judith.
The officers also located some notes written
by Smith. The first, found inside a briefcase
in the upstairs den, and dated October 5, 1990,
read:
A triple murder was committed here this
morning. My wife, Judith Smith and my
two stepdaughters, Wendy Cox and Kristy
Cox, were assassinated. I know who did
it. I know who sent them. I had been
warned that this would happen if I did not
pay a large sum of money to certain
people. I have been owing it for a long
time and simply could not come up with
it. And I didn’t believe the threat. I don’t
need any help from the police in this
matter. I will take care of it myself. They
will have to kill me, too. When and if you
find me, I’m sure I will be dead, but that’s
okay. I already killed one of the
murderers. And I am going to get the
others and the man who I know sent them.
There were three in all. You will

App. 009

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 9 of 54

SMITH V. BAKER

9

probably find my body within a day or
two.
Thank you, Joe Smith.
P.S.: I thought I had gotten away when
we moved here, but it didn’t work. When
we moved, we were being watched. If I
am successful in my task at hand, I will
turn myself into (sic) the police.
The second letter stated, “Frank [Allen], look
in the locked room upstairs for your package.
The key is on the wet bar. Joe.” Dr. Giles
Sheldon Green, Chief Medical Examiner for
Clark County, testified that he performed the
autopsies on the bodies of the three victims.
Green stated that all three victims died from
asphyxia due to manual strangulation. He
also opined that the pattern of injuries found
on the three victims could have been inflicted
with a carpenter’s hammer. On Kristy, Green
observed three blunt lacerations to the scalp
and a lot of blood in Kristy’s hair, some
bruising and a scratch on her neck, and
substantial hemorrhaging as a result of the
trauma to her scalp.
On Wendy, Green observed several “quite
ragged, irregular, deep lacerations of the
forehead,” and at least six or seven wounds of
the face. There were a total of thirty-two head
lacerations, some of which were patterned
injuries of pairs of penetrating wounds of the

App. 010

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 10 of 54

10

SMITH V. BAKER
scalp tissue. On the left side of Wendy’s
head, a large laceration inside the ear almost
cut the outer ear in two. Green found
numerous scratches and abrasions on the front
of Wendy’s neck, as well as defensive
wounds, such as a fractured finger, bruises on
the backs of her hands and a finger with the
skin over the knuckle knocked away. Green
found areas in which the various head impacts
had created depressed fractures of the outer
and inner surfaces of the skull. There was
also a great deal of hemorrhaging and damage
to the soft tissues of Wendy’s neck.
On Judith, Green found lacerations of the
forehead and above her right eyebrow,
abrasions and scratches on the front of her
neck and a cluster of at least five lacerations
of the scalp, mainly on the right side of the
back of the head. It was Green’s opinion that
the five lacerations were inflicted after death.
Allen testified as follows: He met Smith in
September 1990, when Smith came to Allen’s
home located at 2205 Versailles Court, inside
the Fountains, wishing to purchase that home.
Although Allen first indicated that the house
was not for sale, after Smith agreed to pay
$50,000 over the appraised value of $650,000,
Allen agreed to sell him the house. Allen
subsequently gave Smith the keys to the
house, but retained one of the bedrooms for
his use when he came to Las Vegas on
weekends, until the sale was final. Smith

App. 011

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 11 of 54

SMITH V. BAKER

11

informed Allen that he was in a rush to move
into the house because he wanted to make
preparations for his step-daughter, Wendy’s,
wedding in November.
On September 21, 1990, Smith gave Allen a
personal check for $35,000 as a good faith
deposit. Approximately six days later, the
bank notified Allen that the check had been
returned because Smith had closed his
account. Smith assured Allen that he would
mail him a certified check immediately. Two
days later, having not received a check, Allen
indicated to Smith that he would be coming to
Las Vegas on Friday, October 5, 1990, and
would pick up the check then.
On Friday morning, Allen received a call from
Smith who stated, “I thought you were
coming up here this morning.” Allen told
Smith that he would be coming later in the
day. Smith stated that he and his wife were
going to California to shop for furniture that
day, so they arranged for Smith to leave two
checks, the $35,000 deposit check and a
$3,338.80 check for the October mortgage
payment, behind the wet bar in the house,
along with Allen’s mail.
Allen arrived at the house between 1:00 a.m.
and 1:30 a.m. on Saturday, October 6, 1990,
and noticed that the security system was off.
He went behind the wet bar to retrieve his
mail and found the note from Smith telling

App. 012

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 12 of 54

12

SMITH V. BAKER
him to look in the locked room upstairs for the
package. Allen went to that room and, not
finding any checks, went into the game room.
Although the light was not on in the game
room, the area was illuminated by a large
chandelier in the hallway.
In the game room, Allen saw Smith crouched
in the closet. Smith then jumped out and
began to pound Allen in the head with an
object, which Allen assumed was a hammer.
Allen asked Smith what he was trying to do,
but Smith did not say anything. Realizing that
Smith was trying to kill him, Allen said,
“You’re not going to get away with this,” and
pushed Smith backward and ran down the
stairway with Smith pursuing him. Allen tried
to figure out the best way to get out of the
house, and after realizing that he had locked
himself in, ran straight through the full-length,
leaded-glass front door. He then got into his
car and drove to the guard shack at the
entrance to the development and asked the
guard to call the police.
Eric Lau, the security guard then on duty at
the guard-gated entrance to the Fountains,
testified that at approximately 2:30 a.m. on
Saturday, October 6, 1990, Allen ran up to the
side of the guard house and pounded on the
window. Allen’s shirt was covered with
blood and he said, “He’s after me! He’s after
me!” Lau immediately called for help and

App. 013

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 13 of 54

SMITH V. BAKER

13

then saw Smith’s Lincoln automobile exit the
Fountains, with Smith behind the wheel.
Yolanda Cook, Judith’s daughter-in-law,
testified that on the morning of Friday,
October 5, 1990, at 8:00 a.m., she called the
Smiths’ house to see if someone could take
her son to school. She spoke with Smith, who
told her that he had to go to a meeting and that
Judith, Wendy and Kristy had gone shopping
for Wendy’s wedding. Between 9:00 a.m. and
3:30 p.m., Yolanda called the Smiths’ house
three more times, and each time Smith told
her that Judith and her daughters were away.
Yolanda further testified that on Saturday,
October 6, 1990, at approximately 5:00 a.m.,
Smith called her and told her of the three
murders. He told her that Allen came into the
house and bludgeoned them to death. Smith
requested that she tell all of Judith’s other
children and then go to the house and get the
letters out of his briefcase explaining what
happened. He then told her that he was going
to kill himself and hung up the phone.
William Lawrence Cook, one of Judith’s sons,
testified that Smith had expressed concern and
irritation over financial obligations such as
Wendy’s pending wedding and the new
house. William testified that Smith would
often refer to himself as the “Lone Wolf” and
say, “I gotta get outta here.” Sometimes
Smith would say that he just wanted to go

App. 014

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 14 of 54

14

SMITH V. BAKER
away and live on an island somewhere
“around no kind of family or nothing like
that.” William also remembered Smith telling
him that “the worse thing to f___ up a man
was to have a family.” Smith made these
statements during a collection of
conversations over a period of years.
Smith took the stand on his own behalf and
testified as follows: In 1986 he encountered
financial difficulties and agreed to accept a
drug dealing opportunity in Los Angeles with
an organization. That same year, Smith
moved to Las Vegas and continued working
for the organization. At some point, the
organization falsely accused Smith of stealing
cocaine and told Smith that he now owed the
organization a big debt. Smith quit working
for the organization and in 1989 Gino, a man
from the organization, found Smith and
reminded him of the debt, saying that “it had
to be paid or else they were going to give
[him] a fate worse than death.”
He resumed working for the organization, and
also began to look for a new house in a gated
community. He found the house at the
Fountains and arranged payment terms with
Allen, which included giving Allen eleven
kilograms of cocaine in exchange for the
equity in the house. The eleven kilograms
were part of a twenty kilogram shipment
which Smith had received from the
organization and had decided to keep for

App. 015

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 15 of 54

SMITH V. BAKER

15

himself. Smith gave Allen ten kilograms of
cocaine, worth approximately $200,000, on
the same day that he gave Allen the $35,000
check. He claimed that Allen knew that the
check was no good and served only to make
the transaction seem legitimate, and said he
would not deposit it.
On Thursday, October 4, 1990, Smith left the
additional kilogram of cocaine owed Allen in
Allen’s bathroom sink, upstairs where Allen
stayed when he was in town for weekends.
That same day, Smith told the organization
that he had sold twenty kilograms of cocaine
and was keeping the money because he was
“tired of working for peanuts.”
Between 2:00 a.m. and 3:00 a.m. on the
morning of Friday, October 5, while he was in
bed with Judith, he was awakened by a tap on
his toe. He then saw three men standing over
his bed, one of whom picked up a hammer
Smith had been using the previous night and
began slapping it in his hand and asking Smith
where the “stuff” was. Another man, who had
a sawed-off shotgun, forced Smith to go into
the game room and made him lay down and
stay there. Smith subsequently discovered
that his family had been killed.
On Friday, after the murders, he remembered
receiving three phone calls from Yolanda. He
stated that “I brushed her off like I had other
things to do, a meeting I had to attend . . . I

App. 016

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 16 of 54

16

SMITH V. BAKER
really needed some time to sort this out.
There was too many loose ends that I didn’t
have answers to.” Smith stated that he did not
go to the police because he would have to tell
them about the drugs and because it looked
like he committed the crime and he knew they
would put him in jail. He stated that he was
also trying to figure out if Allen might have
been involved in the murders and might have
provided the killers with keys to the house.
He called Allen that Friday morning to see if
he could find out from Allen’s voice if Allen
was involved in the murders. After the phone
call, he decided that Allen was not involved.
At approximately 4:00 p.m. on Friday, Smith
took some sleeping pills and lay down on the
game room floor by the closet. Early
Saturday morning, he awoke to the sounds of
someone coming into the game room. He
thought that the killers had returned and began
swinging the hammer at a man. He did not
know it was Allen because it was dark and
Allen did not say anything during the attack.
Six months after the murders, Smith was
arrested in California. When he was arrested,
evidence was seized which indicated that he
was attempting to change his identity. Smith
was charged with three counts of murder with

App. 017

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 17 of 54

SMITH V. BAKER

17

use of a deadly weapon and one count of
attempted murder with use of a deadly
weapon.
Id. at 650–53.
II. Procedural History
A. Trial and Direct Appeal
A Nevada jury convicted Smith of three counts of murder
and one count of attempted murder. Smith I, 881 P.2d at 653.
The State alleged a single statutory aggravator, that the
murders involved “torture [, depravity of mind] or the
mutilation of the victim.” Nev. Rev. Stat. § 200.033(8). The
jury imposed the death penalty for Kristy’s and Wendy’s
murders, life without possibility of parole for Judith’s
murder, and a twenty-year term for the attempted murder of
Frank Allen, enhanced by an additional twenty-year term for
use of a deadly weapon. Smith I, 881 P.2d at 653–54. On
direct appeal, the Nevada Supreme Court vacated the two
death sentences and ordered a new penalty hearing because it
deemed Instruction 10, which instructed the jury on
“depravity of mind,” unconstitutionally vague. The court
reasoned that this Instruction failed to properly channel the
jury’s discretion. See id. at 654–56.
At the second penalty hearing, the State again alleged a
single aggravator pursuant to Nev. Rev. Stat. § 200.033(8)
and the court again used Jury Instruction 10. But the court
also added Instruction 11 to further define “depravity of
mind.” Smith’s counsel moved to dismiss the aggravating
circumstances as to Kristy, arguing there was insufficient
evidence of torture, mutilation, or depravity of mind. Smith

App. 018

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 18 of 54

18

SMITH V. BAKER

II, 953 P.2d at 265. The trial court granted the motion in part,
ruling there was insufficient evidence of torture and
mutilation. The court allowed the jury to consider depravity
of mind as to Kristy’s murder, but the jury considered all
three theories of the aggravator for Wendy’s murder. Id. The
special verdict form shows that the second jury found
depravity of mind with respect to Kristy’s murder, and
depravity of mind and mutilation with respect to Wendy’s
murder. Id. The second jury reimposed the death penalty.
Id.
Smith appealed, and the Nevada Supreme Court again
vacated the death sentence for Kristy’s murder. Id. at 265,
267. The court ruled that the instructions for depravity-ofmind still failed to properly channel the jury’s discretion in
connection with the charges stemming from Kristy’s death.
Id. at 267. The court imposed a life sentence without the
possibility of parole for Kristy’s murder. Id. As to Wendy’s
murder, the court upheld the death sentence, concluding that
the jury instructions concerning mutilation were
constitutionally sound, and that there was sufficient evidence
from which a reasonable jury could find mutilation beyond a
reasonable doubt. Id. at 267–68.
B. State Post-Conviction Review Proceedings
Smith filed a pro per state habeas petition in August
1998. Several attorneys were sequentially appointed to
represent him—Gary Gowen, David Schieck, Karen
Connolly, Cristina Hinds, and Christopher Oram—during the
first post-conviction proceedings. An amended petition and
two supplements were filed on Smith’s behalf. The state
district court denied Smith’s post-conviction petition in 2005,

App. 019

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 19 of 54

SMITH V. BAKER

19

and the Nevada Supreme Court affirmed that decision in
2006.
In 2007, Smith filed a pro per habeas petition pursuant to
28 U.S.C. § 2254 in federal court. An attorney appointed to
represent Smith filed an amended petition several months
later. The federal district court stayed the proceedings so
Smith could return to state court to exhaust additional claims.
Back in state court, Smith’s amended habeas petition was
denied, and the Nevada Supreme Court affirmed that decision
in 2010.
Smith then resumed pursuit of his federal claims. The
district court denied his habeas petition in March 2014, but
subsequently granted a Certificate of Appealability for Claim
4 (ineffective assistance by penalty-phase counsel for failing
to investigate and present mitigation evidence of Smith’s
mental health). Smith timely filed a notice of appeal.
III. Standard of Review
We review de novo the district court’s order denying
Smith’s federal habeas petition. Rodney v. Filson, 916 F.3d
1254, 1258 (9th Cir. 2019). Pursuant to the Antiterrorism and
Effective Death Penalty Act of 1996 (AEDPA), we may grant
habeas relief on a claim adjudicated on the merits in state
court only if the state court decision “was contrary to, or
involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the
United States,” or if the decision “was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.” 28 U.S.C.
§ 2254(d)(1), (2). “[A]ny federally reviewable claims that
were not adjudicated on the merits in state court are reviewed

App. 020

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 20 of 54

20

SMITH V. BAKER

de novo.” Rodney, 916 F.3d at 1258 (citing Runningeagle v.
Ryan, 825 F.3d 970, 978 (9th Cir. 2016)).
IV. Discussion
A. Claim 4—Martinez
Smith’s federal habeas petition asserts that his second
penalty-phase lawyers were ineffective for failing to
investigate, develop, or present mitigation evidence during
the second penalty phase. Smith exhausted this claim in state
court, but the Nevada Supreme Court concluded that it had
been procedurally defaulted. The claim was first presented in
Smith’s second habeas petition and the state supreme court
ruled it was untimely pursuant to Nev. Rev. Stat. § 34.726(1),
and successive pursuant to Nev. Rev. Stat. § 34.810(2).
Smith’s federal petition argued that the procedural default of
this claim should be excused pursuant to the test set forth in
Martinez, 566 U.S. at 10–17.
Martinez allows the procedural default of a claim to be
excused under specific circumstances. Id. at 17. To show
cause for excusing a procedural default, Martinez requires
that a petitioner show that the state system in which he
initially brought his IAC claim required that the claim be
raised in initial-review collateral proceedings, and that the
state did not permit the petitioner to raise the claim on direct
appeal. Runningeagle, 825 F.3d at 973. A petitioner must
further show that the attorney who represented him in state
post-conviction proceedings performed deficiently and
thereby prejudiced his case under the standard set out in
Strickland v. Washington, 466 U.S. 668 (1984).
Runningeagle, 825 F.3d at 973.

App. 021

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 21 of 54

SMITH V. BAKER

21

In support of his federal petition, Smith argued that his
lawyers at the first state post-conviction review proceeding
were ineffective because they failed to raise an IAC-by-trialcounsel claim. Smith highlighted numerous facts available to
trial counsel that he considered to be evidence of mental
illness and argued that his penalty-phase counsel should have
raised evidence of mental illness in mitigation. Among other
things, Smith contended that his counsel should have argued
that he engaged in numerous fraudulent real estate deals over
the years leading up to the murders, that he had an outburst
during his guilt phase testimony where he threw newspaper
articles at the jury, and that he had insisted on testifying at the
trial even though his explanation of the circumstances
surrounding the murders was obviously implausible.
Smith’s counsel retained two mental health experts and
submitted their declarations in support of his federal petition.
One expert opined that Smith exhibited a “delusional disorder
of the grandiose type” since early adulthood. This expert
opined that individuals with delusional disorder “cannot
escape their delusions or acting on the delusions,” and that
the letter Smith left at the crime scene indicating that
intruders murdered his wife and step-daughters was evidence
of this, as was Smith’s persistence in relating his version of
events to the jury despite his intelligence and despite the
patent unbelievability of his story. The other expert’s
declaration agreed that Smith suffers from grandiose
delusions, and observed, “Smith suffers from clinically
significant psychiatric difficulties . . . far predat[ing] the
above described crimes for which he has been convicted and
sentenced[,] and [] these psychiatric difficulties have had and
continue to have a significant impact on Mr. Smith’s ability
to function in important areas of his life.” This expert
explained that Smith’s behavior “reflect[s] mental health

App. 022

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 22 of 54

22

SMITH V. BAKER

problems and distorted thinking,” and that when the expert
met with Smith, he “evidence[d] specific paranoid and
grandiose delusions.” Smith submitted to psychometric
testing for a pre-guilt phase competency interview in 1992,
and that evaluation was filed in support of his federal habeas
petition. The competency assessment concluded that Smith
was competent to stand trial and that Smith did not suffer
from any acute or Axis I mental disorders, although it noted
that he suffered from a mixed personality disorder and
displayed antisocial behavior, grandiosity, and histrionic
features during the competency interview.
The federal district court considered this evidence and
discussed it in an order concluding that Smith’s IAC claim
was procedurally barred by Nev. Rev. Stat. § 34.726,
Nevada’s timeliness rule, because Smith did not assert this
claim until he returned to state court to file his exhaustion
petition. The district court also determined that Smith failed
to show that habeas counsel provided ineffective assistance
for purposes of satisfying the cause and prejudice components
of Martinez because, even considering the new evidence
relating to Smith’s mental health, Smith did not show a
reasonable probability that there would have been a more
favorable outcome at the penalty phase of his trial.
On appeal, Smith argues that the record establishes cause
and prejudice to excuse the procedural default of this IAC
claim, and further argues that the district court erred by
failing to grant an evidentiary hearing before denying it. “A
claim is procedurally defaulted if it was rejected by the state
courts based on ‘independent’ and ‘adequate’ state procedural
grounds.” Rodney, 916 F.3d at 1259 (citing Coleman v.
Thompson, 501 U.S. 722, 729–32 (1991)). Because the
Nevada Supreme Court rejected Claim Four as untimely and

App. 023

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 23 of 54

SMITH V. BAKER

23

successive pursuant to state law, we may not review it unless
Smith demonstrates cause to excuse the default and actual
prejudice resulting from a violation of federal law. See id.
Specifically, Smith must show:
(1) the claim of “ineffective assistance of trial
counsel” was a “substantial” claim; (2) the
“cause” consisted of there being “no counsel”
or only “ineffective” counsel during the
state collateral review proceeding; (3) the
state collateral review proceeding was
the “initial” review proceeding in respect to
the “ineffective-assistance-of-trial-counsel
claim”; and (4) state law requires that an
“ineffective assistance of trial counsel [claim]
. . . be raised in an initial-review collateral
proceeding.
Trevino v. Thaler, 569 U.S. 413, 423 (2013) (emphasis
omitted) (quoting Martinez, 566 U.S. at 12–22).
We first address Smith’s contention that he was entitled
to an evidentiary hearing. See Tapia v. Roe, 189 F.3d 1052,
1058 (9th Cir. 1999) (reviewing a district court’s refusal to
hold an evidentiary hearing for abuse of discretion). Smith
must allege a colorable claim for relief on his IAC claim in
order to obtain a remand for an evidentiary hearing. West v.
Ryan, 608 F.3d 477, 485 (9th Cir. 2010). The district court
allowed Smith to submit the mental health declarations his
lawyers obtained in 2007 and the court explicitly considered
this extra-record evidence in its order dismissing Smith’s
Martinez claim.1
1

Cf. Cullen v. Pinholster, 563 U.S. 170, 181–82 (2011).

App. 024

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 24 of 54

24

SMITH V. BAKER

Smith fails to demonstrate what additional factual
development would be possible at an evidentiary hearing. He
argues that his experts would be allowed to further explain
their opinions at a hearing, but they would also be subject to
cross examination. Neither of his experts had an opportunity
to conduct testing and only one of them interviewed Smith.
If an evidentiary hearing were held, the State would be
permitted to cross-examine Smith’s experts and introduce
expert testimony of its own. Accordingly, we conclude that
Smith has not shown that he was prejudiced by the lack of an
evidentiary hearing, and the district court did not abuse its
discretion by dismissing the Martinez claim without holding
one.
Turning to Martinez Step One, Smith must demonstrate
that his “underlying ineffective-assistance-of-trial-counsel
claim is a substantial one, which is to say that the prisoner
must demonstrate that the claim has some merit.” Martinez,
566 U.S. at 14. Smith argues that the claim his penalty-phase
lawyers were ineffective is “substantial” because trial counsel
failed to investigate or present information regarding his
history of mental illness. Smith asserts that his lawyers’
penalty-phase investigation consisted solely of interviewing
a few family members on the day they were scheduled to
testify and presenting brief testimony regarding Smith’s good
character. He contends that no effort was taken to investigate
mental health issues, and that testimony from mental health
experts would have explained his actions. Because no
alternate defense theory was aggressively pursued, Smith
argues that the failure to provide any explanation for the
crimes gave the jury no reason to impose a life sentence.
The State responds that introducing Smith’s experts’
declarations at the penalty phase would have been tantamount

App. 025

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 25 of 54

SMITH V. BAKER

25

to ineffective assistance of counsel because it would have
painted Smith as a con man and torpedoed his defense. In the
State’s view, the 1992 competency assessment was “both
broad and deep.” It was also the only evaluation that
included psychometric testing. The State acknowledges the
competency assessment showed elevated scales for antisocial
behavior and grandiosity with manic tendencies, but stresses
that the competency assessment concluded Smith exhibited
no acute or Axis I mental disorders and had no serious
cognitive or affective psychological disorder. In short, the
State argues that Smith was not prejudiced by the failure to
present other mental health evidence.
The standard for showing a claim is “substantial” is
comparable to the standard for granting a certificate of
appealability pursuant to 28 U.S.C. § 2253(c)(2); a petitioner
“need show only that ‘jurists of reason could disagree with
the district court’s resolution of his constitutional claims
. . . .’” Runningeagle, 825 F.3d at 983 n.14 (quoting MillerEl, 537 U.S. at 327). Proving the merits of an IAC claim
requires showing that: (1) “counsel’s representation fell
below an objective standard of reasonableness . . . under
prevailing professional norms”; and (2) “there is a reasonable
probability that, but for counsel’s unprofessional errors, the
result of the proceeding would have been different.” Rodney,
916 F.3d at 1260 (quoting Strickland, 466 U.S. at 688, 694).
1. Strickland Prong One
With respect to the first Strickland prong, deficient
performance is performance that falls “below an objective
standard of reasonableness” and is outside of “the range of
competence demanded of attorneys in criminal cases.”
Strickland, 466 U.S. at 687–88 (quoting McMann v.

App. 026

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 26 of 54

26

SMITH V. BAKER

Richardson, 397 U.S. 759, 771 (1970)). The objective
measure of counsel’s performance is determined by looking
at the “reasonableness under prevailing professional norms.”
Id. at 688. Professional norms are measured at the time of
counsel’s actions rather than by reference to modern norms.
See Cullen v. Pinholster, 563 U.S. 170, 196 (2011). This
assessment is made “from counsel’s perspective at the time,”
so as “to eliminate the distorting effects of hindsight.”
Strickland, 466 U.S. at 689. We “defer to a lawyer’s strategic
trial choices, [but] those choices must have been made after
counsel [ ] conducted reasonable investigations or [made] a
reasonable decision that ma[de] particular investigations
unnecessary.” Summerlin v. Schriro, 427 F.3d 623, 630 (9th
Cir. 2005) (quoting Strickland, 466 U.S. at 691).
During the April 1996 second penalty hearing, counsel
based Smith’s sentencing argument on character evidence
very similar to the evidence presented at the first trial, and did
not arrange or request a mental health evaluation of Smith.
Smith’s first-chair counsel at the second penalty hearing,
Donald York Evans, acknowledged in a 2007 declaration
filed with Smith’s federal habeas petition that Smith was “an
interesting case, psychologically,” and that when he first met
Smith, Evans “wanted to do a complete psychological workup on him.” Evans admitted that he “did not press the issue”
because Smith declined to submit to testing and Evans
“wasn’t confident that [he] would get anything [he] could use
from an evaluation anyway.” Evans “suspected [Smith] had
schizoid tendencies and a high IQ but that was just [his] guess
and [Smith] wouldn’t participate in an evaluation.” State
habeas counsel’s 2002 interview of second-chair counsel,
Peter LaPorta, was consistent. Asked whether “there [was]
anything else that [counsel felt] should have been done for
[Smith’s] second penalty phase” LaPorta responded, “[Y]es,

App. 027

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 27 of 54

SMITH V. BAKER

27

to put it succinctly. I was very uncomfortable with the
background information that [had been] developed on the
family and the family history, military history, educational
history, any psychological history.”
We agree with Smith that the performance of his second
penalty-phase counsel was deficient. This is not a case in
which counsel chose not to pursue mental health mitigation
evidence because there were other defense theories to pursue;
indeed, the presentation made on Smith’s behalf at the second
penalty phase was exceptionally sparse. The transcript
reflects only about twenty-five pages of testimony from three
family members and three family friends who testified about
Smith’s character and his relationship with his family, even
though red flags regarding Smith’s mental health were raised
in the pre-trial competency assessment and by his behavior
before and during trial. It was incumbent upon counsel to
investigate Smith’s mental health even though Smith denied
mental illness. The record shows that Smith’s lawyers did
not conduct an investigation to ascertain the extent of any
possible mental impairment, or to determine whether mental
health could have been raised as a mitigating factor at
sentencing. Counsel concluded that any psychological
assessment performed without Smith’s cooperation would be
of little or no value, but one of the two expert declarations
filed on Smith’s behalf in 2007 was prepared solely based on
the expert’s review of the record. If nothing else, a
comparable report could have been prepared at the time of the
sentencing without Smith’s participation. The applicable
American Bar Association (ABA) guidelines made clear that
“[t]he investigation for preparation of the sentencing phase
. . . should comprise efforts to discover all reasonably
available mitigating evidence.” ABA Guidelines 11.4.1(C)
(1989). The ABA guidelines further specified that counsel

App. 028

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 28 of 54

28

SMITH V. BAKER

should collect a medical history (including “mental and
physical illness”) and investigate a defendant’s social history
in preparation for the penalty phase. Id. 11.4.1(2)(C). On the
record before us, we do not hesitate to conclude that the
failure to investigate Smith’s mental health history
contravened the ABA guidelines.
We have said that “strategic choices made after less than
complete investigation are reasonable precisely to the extent
that reasonable professional judgments support the limitations
on investigation.” Wiggins v. Smith, 539 U.S. 510, 521
(2003) (quoting Strickland, 466 U.S. at 690–91). Smith’s
counsel had good reason to be concerned about Smith’s
mental state yet they acknowledged that they did not try to
obtain a psychiatric report, apparently because Smith
objected. We do not minimize the difficulty presented by
Smith’s failure to cooperate, but Smith had no other viable
defense and his inability to recognize that and submit to a
mental health evaluation may well have been another
indicator of a mental health disorder. The failure to pursue
mental health mitigation evidence “ignored pertinent avenues
for investigation of which [counsel] should have been aware.”
Porter v. McCollum, 558 U.S. 30, 40 (2009) (per curiam).
The record does not demonstrate that counsel’s failure to
investigate was strategic. No alternate mitigation evidence or
argument was proffered to the jury, despite what appears to
be agreement among Smith’s attorneys that he may have
suffered from some sort of mental illness. See Evans v.
Lewis, 855 F.2d 631, 637 (9th Cir. 1988) (“Counsel’s failure
to investigate [a petitioner’s] mental condition[, despite prior
notice,] cannot be construed as a trial tactic.”); see also
Hendricks v. Calderon, 70 F.3d 1032, 1043 (9th Cir. 1995)
(“[W]here counsel is on notice that his client may be mentally
impaired, counsel’s failure to investigate his client’s mental

App. 029

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 29 of 54

SMITH V. BAKER

29

condition as a mitigating factor in a penalty phase hearing,
without a supporting strategic reason, constitutes deficient
performance.”).
Our concurring colleague concludes that Smith’s
counsel’s performance was not deficient, cautioning that
counsel’s performance must not be judged with hindsight.
Concurrence at 47–48. We do not doubt this rule, but in our
view it is the concurrence that misapplies it. By conflating
Strickland’s prongs one and two, the concurring opinion
decides that it was permissible to forgo a psychological
evaluation because, without Smith’s cooperation, his lawyers
guessed that a psychological assessment would be of “no
value.” Concurrence at 50–52. There is no question that
Smith’s failure to cooperate with a psychological evaluation
would have hindered any effort to muster persuasive
mitigating evidence for the second penalty phase, but this
comes into play at Strickland step two, when we consider
whether counsel’s deficient performance resulted in
prejudice. At step one, we consider whether Smith’s lawyers’
performance fell below an objectively reasonable standard,
and that question is largely a function of the choices that were
available to counsel. Here, we consider the questions raised
by Smith’s pre-trial competency evaluation and by counsel’s
own observations of Smith’s behavior; Smith’s persistent
failure to recognize the implausibility of his trial testimony;
his concerning trial conduct; and the fact that there was
almost nothing else to offer in defense of the death penalty.
On this record, it was unreasonable to forgo a psychological
evaluation merely because Smith had confidence in his own
mental health and counsel assumed an assessment would be
of little value. Indeed, it is easy to imagine that a defendant’s
insistence that he is not ill may be a symptom of mental
illness. The out-of-circuit cases the concurring opinion cites

App. 030

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 30 of 54

30

SMITH V. BAKER

are not to the contrary. See, e.g., Coleman v. Mitchell,
244 F.3d 533, 544–46 (6th Cir. 2001) (distinguishing cases in
which the failure to investigate and present mitigating
evidence constituted ineffective assistance, because defendant
served as co-counsel and instructed counsel to pursue an
alternate strategy); Johnston v. Singletary, 162 F.3d 630, 642
(11th Cir. 1998) (per curiam) (concluding that counsel’s
decision to forgo psychiatric testimony was strategic where
defendant refused to cooperate and his medical records
contained substantial data regarding his criminal history).
We conclude that Smith satisfied his burden of
demonstrating a “substantial” argument that his second
penalty-phase counsel’s performance was deficient.
2. Strickland Prong Two
The second Strickland prong requires that Smith show “a
reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different.” Strickland, 466 U.S. at 694. The State argues that
even if Smith had presented evidence to the jury showing he
suffered from grandiose delusions as a result of his mixed
personality disorder, this mitigation evidence would have
paled in comparison to his vicious attack on his wife and
step-daughters. The Supreme Court has cautioned that this
type of evidence “is [] by no means clearly mitigating, as the
jury might have concluded that [the defendant] was simply
beyond rehabilitation.” Cullen, 563 U.S. at 201. Moreover,
in this case, testimony from a mental health expert would
have opened the door to rebuttal from a State expert witness.
See id. In light of the extraordinarily brutal nature of the
murders, Smith has not shown that reasonable jurists would

App. 031

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 31 of 54

SMITH V. BAKER

31

debate whether the result of Smith’s proceeding would have
been different if mitigation evidence had been pursued.
Our conclusion on this point is heavily influenced by
Smith’s failure to submit to a psychiatric evaluation at the
time of the penalty phase, and by the fact that only limited
evaluations could have been prepared without Smith’s
cooperation. Without the ability to conduct psychometric
testing and prepare detailed in-depth personal interviews with
Smith, any expert’s opinion would have been compromised
and necessarily vulnerable to cross examination.
To support his federal petition, Smith relies on the
opinions of Dr. Paula Lundberg-Love and Dr. Richard
Dudley to argue that counsel failed to investigate, develop,
and present mitigating mental health evidence. These experts
connected Smith’s “delusional thinking” with his long history
of get-rich-quick schemes and fraudulent dealings. For
example, Dr. Lundberg-Love attributed Smith’s extensive
history of fraudulent schemes to his delusions and “inflated
sense of self-worth.” She also juxtaposed Smith’s numerous
fraudulent schemes, ranging from real estate deals to
gemstone trading to check fraud, with his incredulous
protestations of innocence and claims that he had been set up
at every turn. Dr. Lundberg-Love noted that despite Smith’s
obviously precarious financial situation, he negotiated a
contract for the home in which the murders took place.
Among her conclusions, Dr. Lundberg-Love determined that
Smith had “persistent false beliefs” relating to these schemes,
and that he had “exclusive insight or interpretation[s] of the
facts that will free him from his predicament.” Dr. LundbergLove concluded that Smith’s schemes and plans, in light of
the clear facts that he “never had sufficient resources to

App. 032

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 32 of 54

32

SMITH V. BAKER

execute” them, “support[] the diagnosis of delusional
disorder.”
Dr. Dudley, who examined Smith in prison, reached
similar conclusions. Dr. Dudley explained that, when he met
Smith, “it was clear that he is extremely bright,” but he
“evidenced both a level of paranoid thinking and grandiosity
that compromised his . . . decision-making capabilities and
judgment.” He determined that Smith’s “grandiosity”
included “pursuing big real estate deals while he had no
assets, and he apparently did not succeed in any legitimate
deals.” Like Dr. Lundberg-Love, Dr. Dudley connected
Smith’s grandiose thinking to his decision to move his family
into a mansion “despite the fact that his checking account had
been closed for too many overdrafts, and despite him not
having any means to pay the pending mortgage debt against
the house.”
Contrary to Smith’s protestations that the information
related to his mental health has “long [been] recognized as
mitigating,” this evidence is not “clearly mitigating.” First,
though it demonstrates Smith’s grandiosity, it focuses
extensively on Smith’s unlawful schemes. For example, in
one fraud detailed in Dr. Lundberg-Love’s report, Smith
offered handyman and remodeling services for a fee to
homeowners, then disappeared after receiving money for the
services. When confronted, Smith represented to the
homeowners that “the freight lines stole the cabinets he
ordered, and he [had to] travel[] to try to obtain the cabinets.”
Ultimately, Smith never returned to finish the remodel, and
the homeowners lost the money they entrusted to Smith. In
another scheme, Smith and his brother, Harold, “fronted
money to homeowners in foreclosure,” and, in return,
“required that the homeowners provide . . . their deed as

App. 033

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 33 of 54

SMITH V. BAKER

33

security.” Smith and his brother then pocketed the
homeowners’ mortgage payments, never applied the
payments to the mortgage, and sold the property to third
parties. Dr. Lundberg-Love’s and Dr. Dudley’s reports
detailed other schemes in which Smith attempted to obtain
loans on real property with forged deeds, attempted to sell
property with forged deeds, and attempted to trade “valuable”
amethysts (which were of little value) for real estate in Texas.
Thus, while there is a chance the evidence “may have served
to evoke sympathy for Smith or cast his culpability for the
murders in a different light,” there is an equal chance the jury
would have decided that this evidence confirmed that Smith
was a habitual fraudster who “was simply beyond
rehabilitation.” Cullen, 563 U.S. at 201.
The experts focused on Smith’s delusional protestations
of innocence, but these statements were not “clearly
mitigating” because they underscored that Smith was willing
to relate utterly implausible tales, as he did before the jury at
trial. For example, Dr. Lundberg-Love attested, “In this case
Mr. Smith’s note indicated several intruders murdered his
wife and stepchildren and that he killed one of the intruders.
The only bodies found were those of his wife and stepchildren. As unbelievable as this recitation appeared, Mr.
Smith persisted in relating these facts to the jury. . . . His
delusional disorder compelled him to go forward as he did in
his testimony, even though part of his story was contradicted
by reality.” We cannot conclude there is a reasonable
probability that the expert declarations, prepared with little or
no cooperation from Smith, and without the benefit of
thorough testing and an opportunity for full evaluation, would
have changed the outcome of Smith’s penalty phase. See id.
at 202.

App. 034

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 34 of 54

34

SMITH V. BAKER

Smith also argues that counsel spent only a few minutes
preparing his mitigation witnesses prior to their testimony.
But Smith glosses over the fact that Evans traveled to Los
Angeles prior to trial and attempted to meet with Smith’s
brother. Smith’s brother did not appear at the meeting and
later refused to meet with Evans. Additionally, Smith’s
brother, mother, and father “were scheduled to testify at the
penalty hearing, but on the day of their scheduled testimony,”
they did not appear. After a number of “frantic calls to the
family, they appeared at court the next morning.” As a result,
Evans “did not get to meet with [Smith’s] mom and dad until
just before they testified.” Finally, Smith fails to identify any
additional mitigation evidence that could or would have been
provided by family members if additional time had been
invested. Because Smith did not meet his burden at
Strickland Step Two, the district court did not err by ruling
that Smith’s ineffective assistance of counsel claim was
procedurally defaulted.
B. Claim Eight—Stromberg Error
Smith’s § 2254 petition argues that because the Nevada
Supreme Court invalidated the trial court’s depravity of mind
instructions in Smith I and Smith II, Smith II’s affirmance of
the death penalty for Wendy’s murder was contrary to the
clearly established federal law set forth in Stromberg v.
California, 283 U.S. 359 (1931). Stromberg held that a
verdict is subject to challenge if a jury, presented with
alternative theories of guilt, may have relied on an
unconstitutional theory to reach its verdict. Id. at 367–68.
Smith argues that it is unclear whether twelve jurors
unanimously found “mutilation” to support the statutory
aggravator because some of them may have relied solely on

App. 035

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 35 of 54

SMITH V. BAKER

35

the invalid depravity-of-mind theory. If so, Smith argues, his
death sentence contravenes Stromberg.
The State argued in federal court that Smith’s Stromberg
claim was procedurally defaulted. The district court
disagreed, but it denied this claim on its merits. The district
court concluded that any error in the depravity jury
instruction was harmless because there was “strong
indication” the jury unanimously agreed on the mutilation
theory. On appeal to our court, the State abandoned its
procedural default argument. The State conceded this waiver
in its argument before our court, so we address the merits of
Smith’s Stromberg claim. See United States v. Pridgette,
831 F.3d 1253, 1259 (9th Cir. 2016).
To be eligible for the death penalty, Nevada law required
Smith’s second penalty-phase jury to find at least one
aggravating circumstance that was not outweighed by any
mitigating circumstances. Nev. Rev. Stat. § 175.554. The
single aggravating circumstance alleged in Smith’s case was
that “the murder involved torture, depravity of mind or the
mutilation of the victim.” See Nev. Rev. Stat. § 200.033(8).
The trial court instructed the first penalty jury that depravity
of mind required:
an inherent deficiency of moral sense and
rectitude. It consists of evil, corrupt and
perverted intent which is devoid of regard for
human dignity and which is indifferent to
human life. It is a state of mind outrageously,
wantonly vile, horrible or inhuman.
In Smith I, the Nevada Supreme Court concluded that this
depravity instruction was unconstitutionally vague. 881 P.2d

App. 036

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 36 of 54

36

SMITH V. BAKER

at 655–56. The court explained that its opinion in Robins v.
State, 798 P.2d 558 (Nev. 1990) had addressed the
constitutionality of the very same depravity-of-mind
instruction, and found it deficient. Robins relied on Godfrey
v. Georgia, 446 U.S. 420 (1980) to rule that the depravity
instruction required “torture, mutilation or other serious and
depraved physical abuse beyond the act of killing itself, as a
qualifying requirement to an aggravating circumstance based
in part upon depravity of mind.” Robins, 798 P.2d at 629.
The Nevada Supreme Court reiterated the same requirement
in Libby v. State, 859 P.2d 1050, 1058 (Nev. 1993).
Smith I concluded that the depravity instruction given in
Smith’s first penalty hearing was unconstitutionally vague
because “the jury was not instructed that depravity of mind
must include torture, mutilation or other serious and depraved
physical abuse beyond the act of killing itself.” 881 P.2d
at 655. Smith I also acknowledged a unanimity problem was
presented by the possibility that some of Smith’s jurors may
have relied on the infirm instruction to impose the death
penalty. Id. Because the special verdict form did not require
that the jury separately consider depravity, or torture, or
mutilation; the court observed, “the jury in the instant case
found in the disjunctive torture, depravity of mind, or
mutilation and did not specify which of the three it found. It
therefore might well have based its finding of the aggravating
circumstance on depravity of mind.” Id. The court further
observed that because the jury found no other aggravating
circumstances, it could not “reweigh the aggravating and
mitigating evidence” to determine whether this error was
harmless. Id at 656. The court vacated the two death
sentences and remanded for a second penalty-phase hearing.
Id.

App. 037

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 37 of 54

SMITH V. BAKER

37

The second jury was instructed:
You are instructed that the following factors
are circumstances by which Murder of the
First Degree may be aggravated:
The murder involved torture, depravity of
mind or the mutilation of the victim.
The State is alleging depravity of mind in the
murder of Kristy Cox [the twelve-year-old].
The State is alleging torture or depravity of
mind or mutilation in the murder of Wendy
Cox [the twenty-year-old].
The trial court gave the second jury the same depravity-ofmind instruction that Smith I had declared unconstitutionally
vague, Instruction 10, and added Instruction 11 to further
define depravity of mind. Instruction 11 premised depravity
of mind on the undefined phrase, “serious and depraved
physical abuse”:
In order to find either torture or mutilation of
a victim you must find that there was torture
or mutilation beyond the act of killing itself.
In order to find depravity of mind you must
find serious and depraved physical abuse
beyond the act of killing itself.
The court separately defined “torture” and “mutilate” in
Instructions 9 and 12, but it did not further define the “serious
and depraved physical abuse” required for depravity of mind.

App. 038

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 38 of 54

38

SMITH V. BAKER

The trial court instructed the second jury: “you must be
unanimous in your finding as to the aggravating
circumstance,” but it did not instruct the jury that it had to be
unanimous as to the underlying theory supporting the
aggravating circumstance (torture, mutilation, or depravity of
mind). During defense counsel’s closing argument, the trial
court interrupted counsel to stress that there was only one
statutory aggravating circumstance alleged, and that it had
three subparts:
to the extent that Mr. Evans is saying that
there may be some confusion as to whether
there is one aggravating circumstance or more
than one, he’s absolutely correct; there is only
one aggravating circumstance that is alleged
by the State in this case, and that is composed
of the subparts mutilation, torture or depravity
of mind. I’m going to correct what is a fairly
broad instruction, which is Instruction
Number 7, to specifically say, “The State has
alleged that an aggravating circumstance is
present in this case,” so there can be no doubt
that it is one aggravating circumstance with
three subparts. One of those subparts is
related to one of the victims or is alleged by
the State with reference to one of the victims,
all three of the subparts are alleged with
reference to the other victim; but it is only one
total aggravating circumstance.
Smith II, 953 P.2d at 266 n.4. In its closing, the prosecution
argued to the second jury that “if . . . you are satisfied beyond
a reasonable doubt that an aggravating factor exists, and it
doesn’t have to be all of the parts of the circumstance, it can

App. 039

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 39 of 54

SMITH V. BAKER

39

be one, in the case of Kristy, or one or two or three in the case
of Wendy[.]” The second jury found “depravity of mind” as
to Kristy’s murder, and “depravity of mind” and “mutilation”
for Wendy’s murder, and it reimposed the death penalty for
both murders.
Smith challenged Instructions 10 and 11 on direct appeal
from the second sentencing hearing, and Smith II invalidated
the depravity instructions again. The Nevada Supreme Court
observed “[s]ince Robins, this court has upheld sentences of
death based on depravity of mind only where there has been
evidence of mutilation or of torture.” Id. at 266. The court
explained that to the extent “Smith I may have created some
confusion on the issue, depravity of mind, as an aggravator,
may only be relied upon where evidence of torture or
mutilation exists.” Id. at 266 n.3. Smith II held that “jury
instruction [11] is a departure from what this court has
previously determined is constitutionally acceptable,” i.e., it
did not conform to the standard the Nevada Supreme Court
adopted in Robins. Id. at 267.
Because the second jury had “no guidance” as to what
constituted “serious and depraved physical abuse,” Smith II
concluded “the jury instruction on depravity of mind failed to
properly channel the jury’s discretion in connection with the
charges [] stemming from Kristy’s death. An aggravating
circumstance based on depravity of mind must include torture
or mutilation beyond the act of killing itself.” Id. at 267
(citations omitted). For Kristy’s murder, depravity of mind
was the State’s sole theory supporting a death-eligible
aggravator. Accordingly, the Nevada Supreme Court
reversed the death sentence imposed for Kristy’s murder and
imposed a sentence of life imprisonment without the
possibility of parole. Id.

App. 040

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 40 of 54

40

SMITH V. BAKER

This ruling left the aggravating circumstance in Wendy’s
murder as the sole support for the death penalty. The second
jury checked boxes next to “depravity of mind” and
“mutilation” for Wendy’s murder, and the Nevada Supreme
Court affirmed the death penalty based on the jury’s finding
of mutilation in Wendy’s case. The court concluded that the
instructions for mutilation were constitutionally sound and
that sufficient evidence supported the finding, beyond a
reasonable doubt, that Wendy’s murder involved mutilation.
Id. at 267–68. The court did not address whether there was
indication that the jury unanimously decided upon mutilation.
C. Stromberg Error
Smith argues that the Nevada Supreme Court’s decision
to uphold the death verdict for Wendy’s murder was contrary
to clearly established federal law because it was impossible
to tell whether the jury unanimously found mutilation. Nev.
Rev. Stat. § 200.033(8). The State responds that the
depravity instruction was constitutionally sound under federal
law, and that the rule the Nevada Supreme Court set forth in
Robins is a state law requirement that is immaterial to relief
under § 2254(d).
A conviction is subject to challenge where a jury was
instructed on alternative theories of guilt and it may have
relied on an invalid one. Hedgpeth v. Pulido, 555 U.S. 57, 58
(2008) (per curiam) (citing Stromberg v. California, 283 U.S.
359 (1931)). In Hedgpeth, the Supreme Court observed that
Yates v. United States, 354 U.S. 298 (1957) extended
Stromberg’s rule to convictions based on multiple theories of
guilt where it is shown that one of the prosecution’s theories
was not unconstitutional but was legally flawed. See
Hedgpeth, 555 U.S. at 60. Such is the case here. In Smith II,

App. 041

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 41 of 54

SMITH V. BAKER

41

the Nevada Supreme Court invalidated the depravity-of-mind
instructions used at Smith’s second penalty hearing, and we
do not second-guess that determination. Smith II, 953 P.2d at
267; see Estelle v. McGuire, 502 U.S. 62, 68 (1991)
(observing “it is not the province of a federal habeas court to
reexamine state-court determinations on state-law
questions”). The State’s argument that the depravity-of-mind
instructions comported with federal law amounts to
disagreement with the degree of specificity the Nevada
Supreme Court requires for its statutory aggravator. The
State fails to explain why we would question the Nevada
Supreme Court’s state law requirement.
The jury was not instructed that it must agree on which of
the three underlying theories supported the statutory
aggravator, or that, per Robins, it must find evidence of
mutilation or torture to find depravity of mind. We can see
no other clues in the record—such as jury polling—indicating
whether the jury unanimously agreed on mutilation. From the
jury’s check marks next to “depravity” and “mutilation” on
the special verdict form pertaining to Wendy’s murder, it is
impossible to tell whether the jury split their votes between
the invalid depravity theory and the valid mutilation theory.
We therefore conclude that Smith demonstrated Stromberg
error. See Hedgpeth, 555 U.S. at 58.
In Valerio v. Crawford, an en banc panel of our court
reviewed a jury’s death verdict premised on two statutory
aggravators, one unconstitutionally vague and one
permissible. 306 F.3d 742, 759 (9th Cir. 2002) (en banc).
Our en banc court ruled that “[a] state appellate court cannot
‘affirm a [trial] court without a thorough analysis of the role
an invalid aggravating factor played in the sentencing
process.’” Id. (quoting Stringer v. Black, 503 U.S. 222, 230

App. 042

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 42 of 54

42

SMITH V. BAKER

(1992)). The court announced three avenues by which a state
appellate court can engage in close appellate scrutiny of an
invalid aggravator and affirm imposition of the death penalty.
Id. First, a state appellate court may affirm by finding the
error harmless under the standard set forth in Chapman v.
California, 386 U.S. 18 (1967). Valerio, 306 F.3d at 756. To
do so, the state appellate court must conclude, beyond a
reasonable doubt, that the same result would have been
obtained without relying on the invalid aggravator. Id. Here,
the State conceded at oral argument before our court, that
Smith II did not engage in a Chapman harmless error
analysis.
Valerio’s second method for affirming a death verdict
where a jury may have relied on an invalid aggravator
instruction is to re-weigh the aggravating and mitigating
evidence pursuant to Clemons v. Mississippi, 494 U.S. 738
(1990). Valerio, 306 F.3d at 757. Clemons described that a
state appellate court may set aside an invalid aggravator and
re-weigh the remaining aggravating and mitigating factors to
determine whether an invalid instruction was harmless. Id.
But it is clear the Smith II court did not re-weigh aggravating
and mitigating evidence because Nev. Rev. Stat. § 200.033(8)
was the single aggravating circumstance alleged in Smith’s
case.
Valerio’s third proffered method is a Walton analysis, see
Walton v. Arizona, 497 U.S. 639 (1990), in which a state
appellate court “act[s] as a primary factfinder” by applying a
corrected instruction to the evidence and determining de novo
whether the state’s evidence satisfied the aggravator. Valerio,
306 F.3d at 757. This option was also unavailable in Smith’s
case because, as we explained in Valerio, a state appellate

App. 043

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 43 of 54

SMITH V. BAKER

43

court may not undertake a Walton analysis if the penaltyphase factfinder was a jury. Id. at 758.
The Nevada Supreme Court failed to undertake any of the
options explained in Valerio, so there is no question that it did
not engage in close appellate scrutiny of the invalid depravity
instructions used at Smith’s second penalty hearing. Instead,
the state court relied on its conclusion that the evidence was
sufficient to support the mutilation theory. Smith II, 953 P.2d
at 267–68. But as the court recognized in Smith I, 881 P.2d
at 655, sufficiency of the evidence is not the issue; Smith’s
argument is that the jury may not have been unanimous.
Valerio held that the resulting Stromberg error is not
structural, so we do not assume prejudice. Rather, we assess
the effect of the invalid depravity instructions and resulting
Stromberg error under the harmless error standard set forth in
Brecht v. Abrahamson, 507 U.S. 619 (1993). See Hedgpeth,
555 U.S. at 61–62 (concluding that a Brecht harmless error
analysis is appropriate where the jury was instructed on
alternative theories of guilt and may have relied on an invalid
one); Valerio, 306 F.3d at 760–61.
Brecht’s harmlessness test asks whether we are left with
“grave doubt” about whether “the actual instruction had a
‘substantial and injurious effect or influence’ on the jury’s
verdict, in comparison to what the verdict would have been
if the narrowed instruction had been given.” Valerio,
306 F.3d at 762; see also Hedgpeth, 555 U.S. at 58. As the
Nevada Supreme Court stated in Smith II, the narrowed
construction of depravity of mind based on Nev. Rev. Stat.
§ 200.033(8) “requir[es] torture, mutilation or other serious
and depraved physical abuse beyond the act of killing itself,
as a qualifying requirement to an aggravating circumstance

App. 044

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 44 of 54

44

SMITH V. BAKER

based in part upon depravity of mind.” Smith II, 953 P.2d
at 266 (quoting Robins, 798 P.2d at 570). We therefore
compare the result obtained with Instructions 10 and 11
against “what the verdict would have been if the [Robins]
instruction had been given.” Valerio, 306 F.3d at 762. Here,
we see no reason to suspect that the arguments presented by
the State or the defense would have varied at all had the
narrowed instruction been given. The evidence strongly
supported a finding of ‘mutilation beyond the act of killing
itself’ and mutilation was a subset of depravity under Nevada
law at the time Smith’s case was tried.
The juxtaposition of the evidence pertaining to Kristy’s
murder and the evidence pertaining to Wendy’s murder leads
us to conclude that the invalid instruction did not have a
substantial and injurious effect on the jury’s verdict. The
second jury heard the medical examiner’s testimony about the
extent of both of the murdered step-daughters’ wounds. The
medical examiner explained that Kristy, age twelve, suffered
four wounds—three to the head, and one to the neck—and
that there was a laceration on her finger. The medical
examiner then moved on to Wendy’s much more substantial
injuries, and told the jury that Wendy suffered thirty-two
blunt-force wounds to her head (including skull fractures),
and that the extensive wounds Wendy suffered demonstrated
that she fought for her life. The examiner testified that
Wendy’s wounds appeared to have been inflicted with the
claw end of a hammer, and that her left ear was nearly cut in
two. The examiner found prominent abrasions on Wendy’s
neck, and that she had defensive wounds on her hands.
Despite these brutal injuries, the actual cause of Wendy’s
death was strangulation. The medical examiner opined that

App. 045

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 45 of 54

SMITH V. BAKER

45

Smith likely used hammer blows to subdue his victims and
then strangled them to death.2
The numerous blunt-force wounds that fractured Wendy’s
skull, coupled with the medical examiner’s testimony that a
large laceration inside her ear almost cut her outer ear in two,
do not leave us with grave doubt about whether the jury
would have unanimously found mutilation. Photos and the
medical examiner’s testimony graphically illustrated that the
wounds Wendy suffered radically altered essential parts of
her body, and we are confident the invalid instruction did not
have a substantial and injurious effect on the jury’s verdict.
V. Conclusion
Smith persuasively argued that the performance of his
second penalty-phase counsel was deficient for failing to
investigate mental health mitigation evidence, but he has not
shown that he was prejudiced. This claim was defaulted.
Separately, we conclude that the Stromberg error in Smith’s
jury instructions was harmless under Brecht. We decline to
grant a Certificate of Appealability for any of the other claims
Smith briefed, and affirm the district court’s judgment.
AFFIRMED.

2

On appeal, the State argued there was “overwhelming evidence” of
mutilation because Wendy was attacked with the claw end of a hammer.
The State overlooks that the jury was instructed that, under Nevada law,
mutilate “means to cut off or permanently destroy a limb or essential part
of the body or to cut off or alter radically so as to make imperfect,” and
that “to find . . . mutilation of a victim you must find that there was . . .
mutilation beyond the act of killing itself.” In other words, it was the
extent of Wendy’s injuries that determined whether mutilation applied, not
the means used to injure her.

App. 046

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 46 of 54

46

SMITH V. BAKER

N.R. SMITH, Circuit Judge, concurring:
The district court’s order dismissing Joseph Smith’s
federal habeas petition should be affirmed. The majority got
it right in: (1) finding that Smith failed to show he was
prejudiced by the lack of an evidentiary hearing, and
concluding that the district court did not abuse its discretion
by dismissing his Martinez1 claim without holding an
evidentiary hearing; (2) certifying Smith’s eighth claim,
which alleges a violation of the rule set out in Stromberg v.
California, 283 U.S. 359 (1931), and concluding that the
Stromberg error in Smith’s jury instruction was harmless; and
(3) declining to certify Smith’s remaining uncertified claims.
The district court’s judgment dismissing Smith’s
ineffective assistance of counsel (“IAC”) claim as
procedurally barred should also be affirmed. However, I
arrive at that conclusion via a different route than the
majority. Unlike the majority, I believe Smith’s counsel’s
performance during the second penalty-phase hearing was not
deficient under the first prong of Strickland v. Washington,
466 U.S. 668 (1984), and therefore find his IAC claim
insubstantial. I write separately to address this point.
To establish cause and prejudice to excuse the procedural
default of his IAC claim, Smith must show, inter alia, that:
“(1) the claim of ‘ineffective assistance of trial counsel’ was
a ‘substantial’ claim; [and] (2) the ‘cause’ consisted of there
being ‘no counsel’ or only ‘ineffective’ counsel during the
state collateral review proceeding.” Trevino v. Thaler,
569 U.S. 413, 423 (2013) (quoting Martinez, 566 U.S.
at 13–18).
1

Martinez v. Ryan, 566 U.S. 1 (2012).

App. 047

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 47 of 54

SMITH V. BAKER

47

With respect to Martinez Step One, Smith must
“demonstrate that the underlying ineffective-assistance-oftrial-counsel claim is a substantial one, which is to say that
the prisoner must demonstrate that the claim has some merit.”
Martinez, 566 U.S. at 14. To establish the merits of an IAC
claim, “[t]he Strickland standard requires a showing of both
deficient performance and prejudice.” Rodney v. Filson,
916 F.3d 1254, 1260 (9th Cir. 2019) (citing Strickland,
466 U.S. at 687).
A.
Deficient performance under Strickland is performance
that falls “below an objective standard of reasonableness.”
466 U.S. at 688. “In any case presenting an ineffectiveness
claim, the performance inquiry must be whether counsel’s
assistance was reasonable considering all the circumstances.”
Id. (emphasis added). Although “[p]revailing norms of
practice as reflected in American Bar Association standards”
may serve as “guides to determining what is reasonable, . . .
they are only guides.” Id. This is so, because no standards or
set of rules “can satisfactorily take account of the variety of
circumstances faced by defense counsel or the range of
legitimate decisions regarding how best to represent a
criminal defendant.” Id. at 688–89.
Our “scrutiny of counsel’s performance must be highly
deferential,” because “[i]t is all too tempting for a defendant
to second-guess counsel’s assistance after . . . [an] adverse
sentence, and it is all too easy for a court, examining
counsel’s defense after it has proved unsuccessful, to
conclude that a particular act or omission of counsel was
unreasonable.” Id. at 689. Thus, “[a] fair assessment of
attorney performance requires that every effort be made to

App. 048

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 48 of 54

48

SMITH V. BAKER

eliminate the distorting effects of hindsight, to reconstruct the
circumstances of counsel’s challenged conduct, and to
evaluate the conduct from counsel’s perspective at the time.”
Id. Because of the difficulty in conducting this evaluation, we
“must indulge a strong presumption that counsel’s conduct
falls within the wide range of reasonable professional
assistance.” Id.; see Cullen v. Pinholster, 563 U.S. 170, 196
(2011) (noting that “Strickland specifically commands that a
court ‘must indulge [the] strong presumption’ that counsel
‘made all significant decisions in the exercise of reasonable
professional judgment’” (alteration in original) (quoting
Strickland, 466 U.S. at 689–90)).
Smith argues, and the majority agrees, that Smith’s
counsel’s performance during the second penalty-phase
hearing was deficient, because counsel failed to investigate
Smith’s mental health and retain an expert to opine thereon.
Opinion at 27–30. I disagree.
The majority correctly notes that counsel’s argument at
the April 1996 penalty hearing was predicated on character
evidence similar to that presented at the first trial, and counsel
did not arrange or request a mental health evaluation of
Smith. Id. at 26. However, the reason no mental health
evaluation was arranged or requested is because Smith
refused to cooperate with, or submit to, any mental health
evaluation. Indeed, Donald York Evans, Smith’s first-chair
counsel at the second penalty hearing, stated:
When I first was appointed to represent Joe, I
wanted to do a complete psychological workup on him. I discussed the idea with Joe, and
he refused to submit to any testing. He
insisted he was not crazy. Joe would have

App. 049

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 49 of 54

SMITH V. BAKER

49

none of it, and so I did not press the issue.
There was no value in getting a mental health
expert if Joe was not going to participate. I
wasn’t confident that I would get anything I
could use from an evaluation anyway. I
suspected he had schizoid tendencies and a
high IQ but that was just my guess and he
wouldn’t participate in an evaluation.
In Strickland, the Supreme Court recognized that “[t]he
reasonableness of counsel’s actions may be determined or
substantially influenced by the defendant’s own statements or
actions. Counsel’s actions are usually based, quite properly,
on informed strategic choices made by the defendant and on
information supplied by the defendant.” 466 U.S. at 691
(emphasis added).
In Campbell v. Kincheloe, we applied the above-stated
principle in a habeas action brought by an inmate convicted
of three counts of aggravated murder and sentenced to death.
829 F.2d 1453, 1456–57, 1463 (9th Cir. 1987). There, the
defendant argued that his attorneys’ performance was
deficient, because they “fail[ed] to interview his family and
childhood friends, classmates, and teachers.” Id. at 1463.
However, the defendant had “specifically requested his
attorneys not to contact members of his family.” Id. Drawing
on the Supreme Court’s statement that “[t]he reasonableness
of counsel’s actions may be determined or substantially
influenced by the defendant’s own statements or actions,”
Strickland, 466 U.S. at 691, we held that trial counsels’
performance was not deficient, because they abided by the
defendant’s wishes and the defendant’s wishes were
consistent with “the professional judgment of his attorneys
that such interviews were unnecessary and would not have

App. 050

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 50 of 54

50

SMITH V. BAKER

made any difference in the context of the case.” Campbell,
829 F.2d at 1463–64.
Relying on the principle discussed in Strickland and
Campbell, other courts have declined to find counsel’s
performance deficient where a defendant refuses to cooperate
with a certain line of investigation and subsequently alleges
error based on the attorney’s incomplete investigation into the
frustrated line of inquiry. See, e.g., Coleman v. Mitchell,
244 F.3d 533, 545–56 (6th Cir. 2001) (finding counsel’s
performance not deficient where, inter alia, the defendant
“did not cooperate with counsel . . . and refused to submit to
further psychological or psychiatric testing”); Owens v.
Guida, 549 F.3d 399, 405–06, 411–12 (6th Cir. 2008)
(finding counsel’s performance not deficient where
“[c]ounsel could have reasoned that additional investigation
would be of little use because [the defendant’s] own actions
[(e.g., refusing to cooperate with mental health examiners)]
shut off avenues for mitigation”); Johnston v. Singletary,
162 F.3d 630, 642 (11th Cir. 1998) (per curiam) (finding
counsels’ performance not deficient where, “despite his
lawyers’ efforts to have [the defendant] evaluated by a . . .
mental health expert[, the defendant] was steadfast in his
resistance to meeting with this expert”); Thompson v.
Wainwright, 784 F.2d 1103, 1106 (11th Cir. 1986)
(recognizing that a defendant “cannot blame the lack of
additional psychiatric examinations on incompetent counsel”
where the defendant refused to “cooperate” with the previous
psychiatrist).
The reasonableness of Smith’s penalty-phase counsel’s
decision not to retain a mental health expert is “substantially
influenced by [Smith’s] own statements [and] actions.”

App. 051

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 51 of 54

SMITH V. BAKER

51

Strickland, 466 U.S. at 691.2 Evans discussed the possibility
of obtaining a psychological evaluation of Smith, but Smith
refused to submit to any such examination and adamantly
insisted that he had no mental health issues. Smith’s
actions—i.e., his refusal to cooperate with, and submit to, any
mental health evaluation—provided “counsel reason to
believe that pursuing [a mental health] investigation[ ] would
be fruitless,” because any expert report prepared without
Smith’s participation would, in counsel’s own words, be of
little or “no value.” See Strickland, 466 U.S. at 691; see also
Johnston, 162 F.3d at 642 (“[W]hen the strategy an attorney
might otherwise pursue is virtually foreclosed by his client’s
unwillingness to facilitate that strategic option, it is difficult
for [a] court, in a collateral proceeding, to characterize as
‘unreasonable’ counsel’s decision to abandon that otherwise
preferable strategy.”). Smith cannot now complain that his
counsel acted unreasonably by failing to investigate and
present mental health evidence at his sentencing when it was

2

The majority argues that I conflate Strickland’s prongs one and two,
but I consider Smith’s “own statements [and] actions” in determining
whether Smith’s counsel’s performance was deficient. Strickland,
466 U.S. at 691. Indeed, the majority contends that, “[a]t step one, we
consider whether Smith’s lawyers’ performance fell below an objectively
reasonable standard, and that question is largely a function of the choices
that were available to counsel.” Opinion at 29.
Contrary to the majority’s argument, that is precisely what I have
done here. Put simply, Smith’s refusal to cooperate with, and submit to,
any mental health evaluation presented counsel with two choices. Counsel
could either retain a mental health expert to prepare an evaluation based
entirely on the record—which counsel recognized would be of little or no
value—or, considering Smith’s refusal, counsel could reasonably choose
not to retain a mental health expert to render a “compromised” opinion
that would “necessarily [be] vulnerable to cross examination.” Opinion
at 31.

App. 052

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 52 of 54

52

SMITH V. BAKER

Smith’s own actions that effectively rendered any such
evidence of “no value.” See Strickland, 466 U.S. at 691;
Johnston, 162 F.3d at 642.
Both Smith and the majority argue that an expert could
have prepared a report without Smith’s participation based
solely on the expert’s review of the record—a report similar
to that prepared by Dr. Lundberg-Love in 2007. But, as
discussed, Smith’s counsel recognized that a report prepared
without Smith’s participation and based solely on a review of
the record would be of “no value.” The majority apparently
reaches the same conclusion, stating that “any expert’s
opinion [prepared without Smith’s cooperation] would have
been compromised and necessarily vulnerable to cross
examination.” Opinion at 31 (emphasis added). Thus, counsel
exercised reasonable professional judgment in declining to
retain an expert to render a compromised opinion that would
have been of little or no value. See Owens, 549 F.3d at 412
(finding counsel’s performance not deficient where
“[c]ounsel could have reasoned that additional investigation
would be of little use because [the defendant’s] own actions
[(e.g., refusing to cooperate with mental health examiners)]
shut off avenues for mitigation”); cf. Jeffries v. Blodgett,
5 F.3d 1180, 1198 (9th Cir. 1993) (recognizing that where “a
defendant preempts his attorney’s strategy” with his or her
actions or statements, “no claim for ineffectiveness can be
made” (quoting Mitchell v. Kemp, 762 F.2d 886, 889 (11th
Cir. 1985))).
Moreover, even assuming Smith would have participated
in an evaluation, counsel was not “confident that [he] would
get anything [he] could use from [the] evaluation.” This
judgment is reasonable in light of the 1992 competency
report, which was based on a two-day evaluation of Smith

App. 053

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 53 of 54

SMITH V. BAKER

53

and several psychometric tests and found that, despite a
potential mixed personality disorder, Smith was “an
intelligent individual without any serious cognitive or
affective psychological disorder[s]” and exhibited no “acute
or Axis I mental disorders.” The report concluded that Smith
was competent to stand trial and “competent at the time of the
alleged offense.”
Smith and the majority also rely on certain American Bar
Association (“ABA”) standards to show counsel acted
unreasonably. Those standards require counsel to investigate
“all reasonably available mitigating evidence,” ABA
Guidelines 11.4.1(C) (1989), including any evidence of a
defendant’s mental illness, see id. at 11.4.1(D)(2)(C).
However, although the ABA standards may “guide[]” the
inquiry into whether Smith’s counsel’s performance was
reasonable, “they are only guides.” Strickland, 466 U.S. at
688 (emphasis added). As noted above, “[t]he reasonableness
of counsel’s actions may be determined or substantially
influenced by the defendant’s own statements or actions.” Id.
at 691 (emphasis added). That is precisely what happened
here. Smith’s actions “substantially influenced” the
reasonableness of his counsel’s decision not to conduct a
more in-depth investigation into Smith’s mental health and
mitigated any guidance gleaned from the ABA standards. See
id.; see also Jeffries, 5 F.3d at 1197–98 (finding counsel’s
performance not deficient where counsel acquiesced in the
defendant’s decision “not to present any witnesses in
mitigation,” which contravened ABA standards).
Considering “all of the circumstances” and indulging “a
strong presumption that counsel’s conduct falls within the
wide range of reasonable professional assistance,” Strickland,
466 U.S. at 689, 691, Smith’s second penalty-phase counsel’s

App. 054

Case: 14-99003, 12/21/2020, ID: 11934117, DktEntry: 89, Page 54 of 54

54

SMITH V. BAKER

judgment not to engage an expert to opine on Smith’s mental
health is reasonable in light of Smith’s refusal to cooperate
with any mental health expert. See Owens, 549 F.3d at 406,
411–12 (finding counsel’s performance not deficient where
“[c]ounsel could have reasoned that additional investigation
would be of little use because [the defendant’s] own actions
[(e.g., refusing to cooperate with mental health examiners)]
shut off avenues for mitigation”); Johnston, 162 F.3d 642
(finding counsel’s performance not deficient where, “despite
his lawyers’ efforts to have [the defendant] evaluated by a . . .
mental health expert[, the defendant] was steadfast in his
resistance to meeting with this expert”).
Therefore, Smith’s IAC claim is insubstantial, because it
lacks merit. See Martinez, 566 U.S. at 14. Because Smith
cannot establish cause and prejudice to excuse his procedural
default under Martinez, the district court did not err in
holding that Smith’s IAC claim was procedurally defaulted.
B.
Because Smith’s second penalty-phase counsel’s
performance was not deficient, I would not reach the
prejudice prong of Strickland. However, assuming that
counsel’s performance was deficient (as does the majority),
Smith failed to show “a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding
would have been different.” Strickland, 466 U.S. at 694.

App. 055

APPENDIX B
Opinion affirming denial of habeas relief, Smith v. Baker,
et al., United States Court of Appeals for the Ninth
Circuit, Case No. 14-99003 (May 21, 2020)

App. 056

(1 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 1 of 53

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

JOSEPH WELDON SMITH,
Petitioner-Appellant,
v.
RENEE BAKER, Warden; AARON D.
FORD,* Attorney General of the State
of Nevada,
Respondents-Appellees.

No. 14-99003
D.C. No.
2:07-cv-00318JCM-CWH

OPINION

Appeal from the United States District Court
for the District of Nevada
James C. Mahan, District Judge, Presiding
Argued and Submitted July 11, 2019
Seattle, Washington
Filed May 21, 2020
Before: N. Randy Smith, Mary H. Murguia, and
Morgan Christen, Circuit Judges.
Opinion by Judge Christen;
Concurrence by Judge N.R. Smith

*

Aaron D. Ford is substituted for his predecessor, Adam Paul Laxalt,
as Nevada Attorney General, pursuant to Fed. R. App. P. 43(c)(2).

App. 057

(2 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 2 of 53

2

SMITH V. BAKER
SUMMARY**

Habeas Corpus/Death Penalty
The panel affirmed the district court’s judgment
dismissing Joseph Weldon Smith’s habeas corpus petition
challenging his Nevada convictions for three murders and one
attempted murder, and his death sentence for one of the
murders.
The district court issued a certificate of appealability for
Smith’s argument that the procedural default of his
ineffective-of-assistance-of-counsel claim should be excused
pursuant to Martinez v. Ryan, 566 U.S. 1 (2012). The panel
held that Smith did not show that he was prejudiced by the
lack of an evidentiary hearing, and that the district court did
not abuse its discretion by dismissing the Martinez claim
without holding one. Applying Martinez and Strickland v.
Washington, 466 U.S. 668 (1984), the panel held that Smith
satisfied his burden of demonstrating a substantial argument
that the performance of his second penalty-phase counsel was
deficient for failing to investigate mental health mitigation
evidence, but that Smith did not show that he was prejudiced
by counsel’s deficient performance.
The panel certified for appeal Smith’s claim that the death
verdict violated Stromberg v. California, 283 U.S. 359
(1931). The panel held that Smith demonstrated Stromberg
error because it was impossible to tell whether the jury
unanimously found mutilation, which was the sole basis to
**

This summary constitutes no part of the opinion of the court. It has
been prepared by court staff for the convenience of the reader.

App. 058

(3 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 3 of 53

SMITH V. BAKER

3

support the death verdict after the Nevada Supreme Court
invalidated the trial court’s depravity-of-mind jury
instruction. The panel concluded that the error was harmless
because the invalid instruction did not have a substantial and
injurious effect on the jury’s verdict.
The panel declined to certify Smith’s remaining
uncertified claims.
Concurring, Judge N.R. Smith would affirm the dismissal
of Smith’s ineffective-assistance-of-counsel claim as
procedurally barred on a different ground—that counsel’s
performance during the second penalty-phase hearing was not
deficient, and that the claim is therefore insubstantial.

COUNSEL
Robert Fitzgerald (argued), David Anthony, Heather Fraley,
and Brad D. Levenson, Assistant Federal Public Defenders;
Rene L. Valladares, Federal Public Defender; Office of the
Federal Public Defender, Las Vegas, Nevada, for PetitionerAppellant.
Jeffrey Morgan Conner (argued), Deputy Assistant Attorney
General; Victor-Hugo Schulze II, Senior Deputy Attorney
General; Heidi Parry Stern, Chief Deputy Attorney General;
Office of the Attorney General, Las Vegas, Nevada; for
Respondents-Appellees.

App. 059

(4 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 4 of 53

4

SMITH V. BAKER
OPINION

CHRISTEN, Circuit Judge:
In 1992, a Nevada jury convicted Joseph Weldon Smith
of three counts of first degree murder with use of a deadly
weapon for beating and strangling his wife, Judith Smith, and
his step-daughters, Wendy Jean Cox and Kristy Cox. The
women were killed in a home the Smiths were renting in
Henderson, Nevada. The jury also convicted Smith of
attempting to murder Frank Allen with use of a deadly
weapon. Allen owned the home the Cox family was renting.
For Wendy’s and Kristy’s murders, Smith was sentenced to
death. For Judith’s murder, he was sentenced to life in prison
without the possibility of parole.
Smith appealed his convictions and sentences. The
Nevada Supreme Court affirmed the convictions, but it
vacated the death sentences and remanded for a new penalty
hearing. See Smith v. State, 881 P.2d 649 (Nev. 1994) (Smith
I). After a second penalty hearing, Smith was again
sentenced to death for Wendy’s and Kristy’s murders. On
appeal, the Nevada Supreme Court vacated the death sentence
for Kristy’s murder and instead imposed a sentence of life
without the possibility of parole, but it affirmed the death
penalty for Wendy’s murder. See Smith v. State, 953 P.2d
264 (Nev. 1998) (Smith II).
Smith filed a pro per habeas petition in state district court,
which was denied, and the Nevada Supreme Court affirmed
that ruling in an unpublished order. Smith then filed a pro
per habeas petition in federal district court. That court
appointed counsel for Smith and stayed the federal
proceedings so Smith could return to state court to exhaust

App. 060

(5 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 5 of 53

SMITH V. BAKER

5

certain claims. The state district court denied Smith’s second
state habeas petition on procedural default grounds, and the
Nevada Supreme Court affirmed that decision. Smith then
returned to federal court, where the State’s motion to dismiss
was granted in part and denied in part. The federal district
court later denied the remainder of Smith’s petition but issued
a certificate of appealability for his argument that the
procedural default of his ineffective assistance of counsel
(IAC) claim should be excused pursuant to Martinez v. Ryan,
566 U.S. 1 (2012). Smith appeals the denial of his federal
habeas petition.
We affirm the district court’s judgment dismissing
Smith’s IAC claim as procedurally barred. Although we
conclude that his counsel’s performance at the second
penalty-phase hearing was deficient, Smith has not shown
that he was prejudiced by his counsel’s performance. Smith’s
IAC claim therefore remains procedurally defaulted, and
cannot serve as a basis for federal habeas relief.
Smith also asserts nine uncertified claims on appeal. We
may issue a certificate of appealability when a petitioner
shows “that reasonable jurists could debate whether . . . the
petition should have been resolved in a different manner or
that the issues presented were ‘adequate to deserve
encouragement to proceed further.’” Miller-El v. Cockrell,
537 U.S. 322, 336 (2003) (quoting Slack v. McDaniel,
529 U.S. 473, 484 (2000)). We certify Smith’s eighth claim,
which alleges violation of the rule set out in Stromberg v.
California, 283 U.S. 359 (1931), but we ultimately conclude
that this claim does not entitle Smith to habeas relief because
the Stromberg error was harmless. The remaining uncertified
claims do not raise substantial questions of law. We decline
to certify them because we are not persuaded that “reasonable

App. 061

(6 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 6 of 53

6

SMITH V. BAKER

jurists would find the district court’s assessment of the
constitutional claims debatable or wrong.” Miller-El,
537 U.S. at 338 (quoting Slack, 529 U.S. at 484). We
therefore affirm the district court’s order dismissing Smith’s
federal habeas petition.
I. Factual Background
The facts relating to the murders and to Smith’s first trial
and penalty-phase hearing were recounted by the Nevada
Supreme Court in Smith I, as follows:
During the trial Michael Hull, a police officer
for the City of Henderson, testified as follows:
On Saturday, October 6, 1990, at
approximately 2:29 a.m., he was dispatched to
the Fountains, a gated community in
Henderson. While on his way, Hull was
flagged down by a man who subsequently
identified himself as Frank Allen. Allen
appeared frantic and Hull observed blood on
his shirt and blood running down the left side
of his head. Allen told Hull that Smith had
attacked him with a hammer or a hatchet.
After arriving at the Smiths’ home, located at
2205 Versailles Court inside the gated
community, Hull and two other officers
observed a large broken window lying on the
front porch outside the house. Allen had
explained to the officers that he had left
through that window. The officers entered the
premises and, during a search of a bedroom,
observed what appeared to be a figure beneath

App. 062

(7 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 7 of 53

SMITH V. BAKER

7

a blanket. After lifting the blanket, they
discovered a dead body, subsequently
identified as twelve-year-old Kristy Cox. In
an adjacent bedroom they discovered a second
body, also dead and covered with a blanket,
later identified as twenty-year-old Wendy
Cox. Under a blanket in the master bed, the
officers found a third victim, Kristy and
Wendy’s mother and Smith’s wife, Judith.
The officers also located some notes written
by Smith. The first, found inside a briefcase
in the upstairs den, and dated October 5, 1990,
read:
A triple murder was committed here this
morning. My wife, Judith Smith and my
two stepdaughters, Wendy Cox and Kristy
Cox, were assassinated. I know who did
it. I know who sent them. I had been
warned that this would happen if I did not
pay a large sum of money to certain
people. I have been owing it for a long
time and simply could not come up with
it. And I didn’t believe the threat. I don’t
need any help from the police in this
matter. I will take care of it myself. They
will have to kill me, too. When and if you
find me, I’m sure I will be dead, but that’s
okay.
I already killed one of the
murderers. And I am going to get the
others and the man who I know sent them.
There were three in all. You will

App. 063

(8 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 8 of 53

8

SMITH V. BAKER
probably find my body within a day or
two.
Thank you, Joe Smith.
P.S.: I thought I had gotten away when
we moved here, but it didn’t work. When
we moved, we were being watched. If I
am successful in my task at hand, I will
turn myself into (sic) the police.
The second letter stated, “Frank [Allen], look
in the locked room upstairs for your package.
The key is on the wet bar. Joe.” Dr. Giles
Sheldon Green, Chief Medical Examiner for
Clark County, testified that he performed the
autopsies on the bodies of the three victims.
Green stated that all three victims died from
asphyxia due to manual strangulation. He
also opined that the pattern of injuries found
on the three victims could have been inflicted
with a carpenter’s hammer. On Kristy, Green
observed three blunt lacerations to the scalp
and a lot of blood in Kristy’s hair, some
bruising and a scratch on her neck, and
substantial hemorrhaging as a result of the
trauma to her scalp.
On Wendy, Green observed several “quite
ragged, irregular, deep lacerations of the
forehead,” and at least six or seven wounds of
the face. There were a total of thirty-two head
lacerations, some of which were patterned
injuries of pairs of penetrating wounds of the

App. 064

(9 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 9 of 53

SMITH V. BAKER

9

scalp tissue. On the left side of Wendy’s
head, a large laceration inside the ear almost
cut the outer ear in two. Green found
numerous scratches and abrasions on the front
of Wendy’s neck, as well as defensive
wounds, such as a fractured finger, bruises on
the backs of her hands and a finger with the
skin over the knuckle knocked away. Green
found areas in which the various head impacts
had created depressed fractures of the outer
and inner surfaces of the skull. There was
also a great deal of hemorrhaging and damage
to the soft tissues of Wendy’s neck.
On Judith, Green found lacerations of the
forehead and above her right eyebrow,
abrasions and scratches on the front of her
neck and a cluster of at least five lacerations
of the scalp, mainly on the right side of the
back of the head. It was Green’s opinion that
the five lacerations were inflicted after death.
Allen testified as follows: He met Smith in
September 1990, when Smith came to Allen’s
home located at 2205 Versailles Court, inside
the Fountains, wishing to purchase that home.
Although Allen first indicated that the house
was not for sale, after Smith agreed to pay
$50,000 over the appraised value of $650,000,
Allen agreed to sell him the house. Allen
subsequently gave Smith the keys to the
house, but retained one of the bedrooms for
his use when he came to Las Vegas on
weekends, until the sale was final. Smith

App. 065

(10 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 10 of 53

10

SMITH V. BAKER
informed Allen that he was in a rush to move
into the house because he wanted to make
preparations for his step-daughter, Wendy’s,
wedding in November.
On September 21, 1990, Smith gave Allen a
personal check for $35,000 as a good faith
deposit. Approximately six days later, the
bank notified Allen that the check had been
returned because Smith had closed his
account. Smith assured Allen that he would
mail him a certified check immediately. Two
days later, having not received a check, Allen
indicated to Smith that he would be coming to
Las Vegas on Friday, October 5, 1990, and
would pick up the check then.
On Friday morning, Allen received a call from
Smith who stated, “I thought you were
coming up here this morning.” Allen told
Smith that he would be coming later in the
day. Smith stated that he and his wife were
going to California to shop for furniture that
day, so they arranged for Smith to leave two
checks, the $35,000 deposit check and a
$3,338.80 check for the October mortgage
payment, behind the wet bar in the house,
along with Allen’s mail.
Allen arrived at the house between 1:00 a.m.
and 1:30 a.m. on Saturday, October 6, 1990,
and noticed that the security system was off.
He went behind the wet bar to retrieve his
mail and found the note from Smith telling

App. 066

(11 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 11 of 53

SMITH V. BAKER

11

him to look in the locked room upstairs for the
package. Allen went to that room and, not
finding any checks, went into the game room.
Although the light was not on in the game
room, the area was illuminated by a large
chandelier in the hallway.
In the game room, Allen saw Smith crouched
in the closet. Smith then jumped out and
began to pound Allen in the head with an
object, which Allen assumed was a hammer.
Allen asked Smith what he was trying to do,
but Smith did not say anything. Realizing that
Smith was trying to kill him, Allen said,
“You’re not going to get away with this,” and
pushed Smith backward and ran down the
stairway with Smith pursuing him. Allen tried
to figure out the best way to get out of the
house, and after realizing that he had locked
himself in, ran straight through the full-length,
leaded-glass front door. He then got into his
car and drove to the guard shack at the
entrance to the development and asked the
guard to call the police.
Eric Lau, the security guard then on duty at
the guard-gated entrance to the Fountains,
testified that at approximately 2:30 a.m. on
Saturday, October 6, 1990, Allen ran up to the
side of the guard house and pounded on the
window. Allen’s shirt was covered with
blood and he said, “He’s after me! He’s after
me!” Lau immediately called for help and

App. 067

(12 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 12 of 53

12

SMITH V. BAKER
then saw Smith’s Lincoln automobile exit the
Fountains, with Smith behind the wheel.
Yolanda Cook, Judith’s daughter-in-law,
testified that on the morning of Friday,
October 5, 1990, at 8:00 a.m., she called the
Smiths’ house to see if someone could take
her son to school. She spoke with Smith, who
told her that he had to go to a meeting and that
Judith, Wendy and Kristy had gone shopping
for Wendy’s wedding. Between 9:00 a.m. and
3:30 p.m., Yolanda called the Smiths’ house
three more times, and each time Smith told
her that Judith and her daughters were away.
Yolanda further testified that on Saturday,
October 6, 1990, at approximately 5:00 a.m.,
Smith called her and told her of the three
murders. He told her that Allen came into the
house and bludgeoned them to death. Smith
requested that she tell all of Judith’s other
children and then go to the house and get the
letters out of his briefcase explaining what
happened. He then told her that he was going
to kill himself and hung up the phone.
William Lawrence Cook, one of Judith’s sons,
testified that Smith had expressed concern and
irritation over financial obligations such as
Wendy’s pending wedding and the new
house. William testified that Smith would
often refer to himself as the “Lone Wolf” and
say, “I gotta get outta here.” Sometimes
Smith would say that he just wanted to go

App. 068

(13 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 13 of 53

SMITH V. BAKER

13

away and live on an island somewhere
“around no kind of family or nothing like
that.” William also remembered Smith telling
him that “the worse thing to f___ up a man
was to have a family.” Smith made these
statements during a collection of
conversations over a period of years.
Smith took the stand on his own behalf and
testified as follows: In 1986 he encountered
financial difficulties and agreed to accept a
drug dealing opportunity in Los Angeles with
an organization. That same year, Smith
moved to Las Vegas and continued working
for the organization. At some point, the
organization falsely accused Smith of stealing
cocaine and told Smith that he now owed the
organization a big debt. Smith quit working
for the organization and in 1989 Gino, a man
from the organization, found Smith and
reminded him of the debt, saying that “it had
to be paid or else they were going to give
[him] a fate worse than death.”
He resumed working for the organization, and
also began to look for a new house in a gated
community. He found the house at the
Fountains and arranged payment terms with
Allen, which included giving Allen eleven
kilograms of cocaine in exchange for the
equity in the house. The eleven kilograms
were part of a twenty kilogram shipment
which Smith had received from the
organization and had decided to keep for

App. 069

(14 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 14 of 53

14

SMITH V. BAKER
himself. Smith gave Allen ten kilograms of
cocaine, worth approximately $200,000, on
the same day that he gave Allen the $35,000
check. He claimed that Allen knew that the
check was no good and served only to make
the transaction seem legitimate, and said he
would not deposit it.
On Thursday, October 4, 1990, Smith left the
additional kilogram of cocaine owed Allen in
Allen’s bathroom sink, upstairs where Allen
stayed when he was in town for weekends.
That same day, Smith told the organization
that he had sold twenty kilograms of cocaine
and was keeping the money because he was
“tired of working for peanuts.”
Between 2:00 a.m. and 3:00 a.m. on the
morning of Friday, October 5, while he was in
bed with Judith, he was awakened by a tap on
his toe. He then saw three men standing over
his bed, one of whom picked up a hammer
Smith had been using the previous night and
began slapping it in his hand and asking Smith
where the “stuff” was. Another man, who had
a sawed-off shotgun, forced Smith to go into
the game room and made him lay down and
stay there. Smith subsequently discovered
that his family had been killed.
On Friday, after the murders, he remembered
receiving three phone calls from Yolanda. He
stated that “I brushed her off like I had other
things to do, a meeting I had to attend . . . I

App. 070

(15 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 15 of 53

SMITH V. BAKER

15

really needed some time to sort this out.
There was too many loose ends that I didn’t
have answers to.” Smith stated that he did not
go to the police because he would have to tell
them about the drugs and because it looked
like he committed the crime and he knew they
would put him in jail. He stated that he was
also trying to figure out if Allen might have
been involved in the murders and might have
provided the killers with keys to the house.
He called Allen that Friday morning to see if
he could find out from Allen’s voice if Allen
was involved in the murders. After the phone
call, he decided that Allen was not involved.
At approximately 4:00 p.m. on Friday, Smith
took some sleeping pills and lay down on the
game room floor by the closet. Early
Saturday morning, he awoke to the sounds of
someone coming into the game room. He
thought that the killers had returned and began
swinging the hammer at a man. He did not
know it was Allen because it was dark and
Allen did not say anything during the attack.
Six months after the murders, Smith was
arrested in California. When he was arrested,
evidence was seized which indicated that he
was attempting to change his identity. Smith
was charged with three counts of murder with

App. 071

(16 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 16 of 53

16

SMITH V. BAKER
use of a deadly weapon and one count of
attempted murder with use of a deadly
weapon.

Id. at 650–53.
II. Procedural History
A. Trial and Direct Appeal
A Nevada jury convicted Smith of three counts of murder
and one count of attempted murder. Smith I, 881 P.2d at 653.
The State alleged a single statutory aggravator, that the
murders involved “torture [, depravity of mind] or the
mutilation of the victim.” Nev. Rev. Stat. § 200.033(8). The
jury imposed the death penalty for Kristy’s and Wendy’s
murders, life without possibility of parole for Judith’s
murder, and a twenty-year term for the attempted murder of
Frank Allen, enhanced by an additional twenty-year term for
use of a deadly weapon. Smith I, 881 P.2d at 653–54. On
direct appeal, the Nevada Supreme Court vacated the two
death sentences and ordered a new penalty hearing because it
deemed Instruction 10, which instructed the jury on
“depravity of mind,” unconstitutionally vague. The court
reasoned that this Instruction failed to properly channel the
jury’s discretion. See id. at 654–56.
At the second penalty hearing, the State again alleged a
single aggravator pursuant to Nev. Rev. Stat. § 200.033(8)
and the court again used Jury Instruction 10. But the court
also added Instruction 11 to further define “depravity of
mind.” Smith’s counsel moved to dismiss the aggravating
circumstances as to Kristy, arguing there was insufficient
evidence of torture, mutilation, or depravity of mind. Smith

App. 072

(17 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 17 of 53

SMITH V. BAKER

17

II, 953 P.2d at 265. The trial court granted the motion in part,
ruling there was insufficient evidence of torture and
mutilation. The court allowed the jury to consider depravity
of mind as to Kristy’s murder, but the jury considered all
three theories of the aggravator for Wendy’s murder. Id. The
special verdict form shows that the second jury found
depravity of mind with respect to Kristy’s murder, and
depravity of mind and mutilation with respect to Wendy’s
murder. Id. The second jury reimposed the death penalty.
Id.
Smith appealed, and the Nevada Supreme Court again
vacated the death sentence for Kristy’s murder. Id. at 265,
267. The court ruled that the instructions for depravity-ofmind still failed to properly channel the jury’s discretion in
connection with the charges stemming from Kristy’s death.
Id. at 267. The court imposed a life sentence without the
possibility of parole for Kristy’s murder. Id. As to Wendy’s
murder, the court upheld the death sentence, concluding that
the jury instructions concerning mutilation were
constitutionally sound, and that there was sufficient evidence
from which a reasonable jury could find mutilation beyond a
reasonable doubt. Id. at 267–68.
B. State Post-Conviction Review Proceedings
Smith filed a pro per state habeas petition in August
1998. Several attorneys were sequentially appointed to
represent him—Gary Gowen, David Schieck, Karen
Connolly, Cristina Hinds, and Christopher Oram—during the
first post-conviction proceedings. An amended petition and
two supplements were filed on Smith’s behalf. The state
district court denied Smith’s post-conviction petition in 2005,

App. 073

(18 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 18 of 53

18

SMITH V. BAKER

and the Nevada Supreme Court affirmed that decision in
2006.
In 2007, Smith filed a pro per habeas petition pursuant to
28 U.S.C. § 2254 in federal court. An attorney appointed to
represent Smith filed an amended petition several months
later. The federal district court stayed the proceedings so
Smith could return to state court to exhaust additional claims.
Back in state court, Smith’s amended habeas petition was
denied, and the Nevada Supreme Court affirmed that decision
in 2010.
Smith then resumed pursuit of his federal claims. The
district court denied his habeas petition in March 2014, but
subsequently granted a Certificate of Appealability for Claim
4 (ineffective assistance by penalty-phase counsel for failing
to investigate and present mitigation evidence of Smith’s
mental health). Smith timely filed a notice of appeal.
III. Standard of Review
We review de novo the district court’s order denying
Smith’s federal habeas petition. Rodney v. Filson, 916 F.3d
1254, 1258 (9th Cir. 2019). Pursuant to the Antiterrorism and
Effective Death Penalty Act of 1996 (AEDPA), we may grant
habeas relief on a claim adjudicated on the merits in state
court only if the state court decision “was contrary to, or
involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the
United States,” or if the decision “was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.” 28 U.S.C.
§ 2254(d)(1), (2). “[A]ny federally reviewable claims that
were not adjudicated on the merits in state court are reviewed

App. 074

(19 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 19 of 53

SMITH V. BAKER

19

de novo.” Rodney, 916 F.3d at 1258 (citing Runningeagle v.
Ryan, 825 F.3d 970, 978 (9th Cir. 2016)).
IV. Discussion
A. Claim 4—Martinez
Smith’s federal habeas petition asserts that his second
penalty-phase lawyers were ineffective for failing to
investigate, develop, or present mitigation evidence during
the second penalty phase. Smith exhausted this claim in state
court, but the Nevada Supreme Court concluded that it had
been procedurally defaulted. The claim was first presented in
Smith’s second habeas petition and the state supreme court
ruled it was untimely pursuant to Nev. Rev. Stat. § 34.726(1),
and successive pursuant to Nev. Rev. Stat. § 34.810(2).
Smith’s federal petition argued that the procedural default of
this claim should be excused pursuant to the test set forth in
Martinez, 566 U.S. at 10–17.
Martinez allows the procedural default of a claim to be
excused under specific circumstances. Id. at 17. To show
cause for excusing a procedural default, Martinez requires
that a petitioner show that the state system in which he
initially brought his IAC claim required that the claim be
raised in initial-review collateral proceedings, and that the
state did not permit the petitioner to raise the claim on direct
appeal. Runningeagle, 825 F.3d at 973. A petitioner must
further show that the attorney who represented him in state
post-conviction proceedings performed deficiently and
thereby prejudiced his case under the standard set out in
Strickland v. Washington, 466 U.S. 668 (1984).
Runningeagle, 825 F.3d at 973.

App. 075

(20 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 20 of 53

20

SMITH V. BAKER

In support of his federal petition, Smith argued that his
lawyers at the first state post-conviction review proceeding
were ineffective because they failed to raise an IAC-by-trialcounsel claim. Smith highlighted numerous facts available to
trial counsel that he considered to be evidence of mental
illness and argued that his penalty-phase counsel should have
raised evidence of mental illness in mitigation. Among other
things, Smith contended that his counsel should have argued
that he engaged in numerous fraudulent real estate deals over
the years leading up to the murders, that he had an outburst
during his guilt phase testimony where he threw newspaper
articles at the jury, and that he had insisted on testifying at the
trial even though his explanation of the circumstances
surrounding the murders was obviously implausible.
Smith’s counsel retained two mental health experts and
submitted their declarations in support of his federal petition.
One expert opined that Smith exhibited a “delusional disorder
of the grandiose type” since early adulthood. This expert
opined that individuals with delusional disorder “cannot
escape their delusions or acting on the delusions,” and that
the letter Smith left at the crime scene indicating that
intruders murdered his wife and step-daughters was evidence
of this, as was Smith’s persistence in relating his version of
events to the jury despite his intelligence and despite the
patent unbelievability of his story. The other expert’s
declaration agreed that Smith suffers from grandiose
delusions, and observed, “Smith suffers from clinically
significant psychiatric difficulties . . . far predat[ing] the
above described crimes for which he has been convicted and
sentenced[,] and [] these psychiatric difficulties have had and
continue to have a significant impact on Mr. Smith’s ability
to function in important areas of his life.” This expert
explained that Smith’s behavior “reflect[s] mental health

App. 076

(21 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 21 of 53

SMITH V. BAKER

21

problems and distorted thinking,” and that when the expert
met with Smith, he “evidence[d] specific paranoid and
grandiose delusions.” Smith submitted to psychometric
testing for a pre-guilt phase competency interview in 1992,
and that evaluation was filed in support of his federal habeas
petition. The competency assessment concluded that Smith
was competent to stand trial and that Smith did not suffer
from any acute or Axis I mental disorders, although it noted
that he suffered from a mixed personality disorder and
displayed antisocial behavior, grandiosity, and histrionic
features during the competency interview.
The federal district court considered this evidence and
discussed it in an order concluding that Smith’s IAC claim
was procedurally barred by Nev. Rev. Stat. § 34.726,
Nevada’s timeliness rule, because Smith did not assert this
claim until he returned to state court to file his exhaustion
petition. The district court also determined that Smith failed
to show that habeas counsel provided ineffective assistance
for purposes of satisfying the cause and prejudice components
of Martinez because, even considering the new evidence
relating to Smith’s mental health, Smith did not show a
reasonable probability that there would have been a more
favorable outcome at the penalty phase of his trial.
On appeal, Smith argues that the record establishes cause
and prejudice to excuse the procedural default of this IAC
claim, and further argues that the district court erred by
failing to grant an evidentiary hearing before denying it. “A
claim is procedurally defaulted if it was rejected by the state
courts based on ‘independent’ and ‘adequate’ state procedural
grounds.” Rodney, 916 F.3d at 1259 (citing Coleman v.
Thompson, 501 U.S. 722, 729–32 (1991)). Because the
Nevada Supreme Court rejected Claim Four as untimely and

App. 077

(22 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 22 of 53

22

SMITH V. BAKER

successive pursuant to state law, we may not review it unless
Smith demonstrates cause to excuse the default and actual
prejudice resulting from a violation of federal law. See id.
Specifically, Smith must show:
(1) the claim of “ineffective assistance of trial
counsel” was a “substantial” claim; (2) the
“cause” consisted of there being “no counsel”
or only “ineffective” counsel during the
state collateral review proceeding; (3) the
state collateral review proceeding was
the “initial” review proceeding in respect to
the “ineffective-assistance-of-trial-counsel
claim”; and (4) state law requires that an
“ineffective assistance of trial counsel [claim]
. . . be raised in an initial-review collateral
proceeding.
Trevino v. Thaler, 569 U.S. 413, 423 (2013) (emphasis
omitted) (quoting Martinez, 566 U.S. at 12–22).
We first address Smith’s contention that he was entitled
to an evidentiary hearing. See Tapia v. Roe, 189 F.3d 1052,
1058 (9th Cir. 1999) (reviewing a district court’s refusal to
hold an evidentiary hearing for abuse of discretion). Smith
must allege a colorable claim for relief on his IAC claim in
order to obtain a remand for an evidentiary hearing. West v.
Ryan, 608 F.3d 477, 485 (9th Cir. 2010). The district court
allowed Smith to submit the mental health declarations his
lawyers obtained in 2007 and the court explicitly considered
this extra-record evidence in its order dismissing Smith’s
Martinez claim.1
1

Cf. Cullen v. Pinholster, 563 U.S. 170, 181–82 (2011).

App. 078

(23 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 23 of 53

SMITH V. BAKER

23

Smith fails to demonstrate what additional factual
development would be possible at an evidentiary hearing. He
argues that his experts would be allowed to further explain
their opinions at a hearing, but they would also be subject to
cross examination. Neither of his experts had an opportunity
to conduct testing and only one of them interviewed Smith.
If an evidentiary hearing were held, the State would be
permitted to cross-examine Smith’s experts and introduce
expert testimony of its own. Accordingly, we conclude that
Smith has not shown that he was prejudiced by the lack of an
evidentiary hearing, and the district court did not abuse its
discretion by dismissing the Martinez claim without holding
one.
Turning to Martinez Step One, Smith must demonstrate
that his “underlying ineffective-assistance-of-trial-counsel
claim is a substantial one, which is to say that the prisoner
must demonstrate that the claim has some merit.” Martinez,
566 U.S. at 14. Smith argues that the claim his penalty-phase
lawyers were ineffective is “substantial” because trial counsel
failed to investigate or present information regarding his
history of mental illness. Smith asserts that his lawyers’
penalty-phase investigation consisted solely of interviewing
a few family members on the day they were scheduled to
testify and presenting brief testimony regarding Smith’s good
character. He contends that no effort was taken to investigate
mental health issues, and that testimony from mental health
experts would have explained his actions. Because no
alternate defense theory was aggressively pursued, Smith
argues that the failure to provide any explanation for the
crimes gave the jury no reason to impose a life sentence.
The State responds that introducing Smith’s experts’
declarations at the penalty phase would have been tantamount

App. 079

(24 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 24 of 53

24

SMITH V. BAKER

to ineffective assistance of counsel because it would have
painted Smith as a con man and torpedoed his defense. In the
State’s view, the 1992 competency assessment was “both
broad and deep.” It was also the only evaluation that
included psychometric testing. The State acknowledges the
competency assessment showed elevated scales for antisocial
behavior and grandiosity with manic tendencies, but stresses
that the competency assessment concluded Smith exhibited
no acute or Axis I mental disorders and had no serious
cognitive or affective psychological disorder. In short, the
State argues that Smith was not prejudiced by the failure to
present other mental health evidence.
The standard for showing a claim is “substantial” is
comparable to the standard for granting a certificate of
appealability pursuant to 28 U.S.C. § 2253(c)(2); a petitioner
“need show only that ‘jurists of reason could disagree with
the district court’s resolution of his constitutional claims
. . . .’” Runningeagle, 825 F.3d at 983 n.14 (quoting MillerEl, 537 U.S. at 327). Proving the merits of an IAC claim
requires showing that: (1) “counsel’s representation fell
below an objective standard of reasonableness . . . under
prevailing professional norms”; and (2) “there is a reasonable
probability that, but for counsel’s unprofessional errors, the
result of the proceeding would have been different.” Rodney,
916 F.3d at 1260 (quoting Strickland, 466 U.S. at 688, 694).
1. Strickland Prong One
With respect to the first Strickland prong, deficient
performance is performance that falls “below an objective
standard of reasonableness” and is outside of “the range of
competence demanded of attorneys in criminal cases.”
Strickland, 466 U.S. at 687–88 (quoting McMann v.

App. 080

(25 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 25 of 53

SMITH V. BAKER

25

Richardson, 397 U.S. 759, 771 (1970)). The objective
measure of counsel’s performance is determined by looking
at the “reasonableness under prevailing professional norms.”
Id. at 688. Professional norms are measured at the time of
counsel’s actions rather than by reference to modern norms.
See Cullen v. Pinholster, 563 U.S. 170, 196 (2011). This
assessment is made “from counsel’s perspective at the time,”
so as “to eliminate the distorting effects of hindsight.”
Strickland, 466 U.S. at 689. We “defer to a lawyer’s strategic
trial choices, [but] those choices must have been made after
counsel [ ] conducted reasonable investigations or [made] a
reasonable decision that ma[de] particular investigations
unnecessary.” Summerlin v. Schriro, 427 F.3d 623, 630 (9th
Cir. 2005) (quoting Strickland, 466 U.S. at 691).
During the April 1996 second penalty hearing, counsel
based Smith’s sentencing argument on character evidence
very similar to the evidence presented at the first trial, and did
not arrange or request a mental health evaluation of Smith.
Smith’s first-chair counsel at the second penalty hearing,
Donald York Evans, acknowledged in a 2007 declaration
filed with Smith’s federal habeas petition that Smith was “an
interesting case, psychologically,” and that when he first met
Smith, Evans “wanted to do a complete psychological workup on him.” Evans admitted that he “did not press the issue”
because Smith declined to submit to testing and Evans
“wasn’t confident that [he] would get anything [he] could use
from an evaluation anyway.” Evans “suspected [Smith] had
schizoid tendencies and a high IQ but that was just [his] guess
and [Smith] wouldn’t participate in an evaluation.” State
habeas counsel’s 2002 interview of second-chair counsel,
Peter LaPorta, was consistent. Asked whether “there [was]
anything else that [counsel felt] should have been done for
[Smith’s] second penalty phase” LaPorta responded, “[Y]es,

App. 081

(26 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 26 of 53

26

SMITH V. BAKER

to put it succinctly. I was very uncomfortable with the
background information that [had been] developed on the
family and the family history, military history, educational
history, any psychological history.”
We agree with Smith that the performance of his second
penalty-phase counsel was deficient. This is not a case in
which counsel chose not to pursue mental health mitigation
evidence because there were other defense theories to pursue;
indeed, the presentation made on Smith’s behalf at the second
penalty phase was exceptionally sparse. The transcript
reflects only about twenty-five pages of testimony from three
family members and three family friends who testified about
Smith’s character and his relationship with his family, even
though red flags regarding Smith’s mental health were raised
in the pre-trial competency assessment and by his behavior
before and during trial. It was incumbent upon counsel to
investigate Smith’s mental health even though Smith denied
mental illness. The record shows that Smith’s lawyers did
not conduct an investigation to ascertain the extent of any
possible mental impairment, or to determine whether mental
health could have been raised as a mitigating factor at
sentencing. Counsel concluded that any psychological
assessment performed without Smith’s cooperation would be
of little or no value, but one of the two expert declarations
filed on Smith’s behalf in 2007 was prepared solely based on
the expert’s review of the record. If nothing else, a
comparable report could have been prepared at the time of the
sentencing without Smith’s participation. The applicable
American Bar Association (ABA) guidelines made clear that
“[t]he investigation for preparation of the sentencing phase
. . . should comprise efforts to discover all reasonably
available mitigating evidence.” ABA Guidelines 11.4.1(C)
(1989). The ABA guidelines further specified that counsel

App. 082

(27 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 27 of 53

SMITH V. BAKER

27

should collect a medical history (including “mental and
physical illness”) and investigate a defendant’s social history
in preparation for the penalty phase. Id. 11.4.1(2)(C). On the
record before us, we do not hesitate to conclude that the
failure to investigate Smith’s mental health history
contravened the ABA guidelines.
We have said that “strategic choices made after less than
complete investigation are reasonable precisely to the extent
that reasonable professional judgments support the limitations
on investigation.” Wiggins v. Smith, 539 U.S. 510, 521
(2003) (quoting Strickland, 466 U.S. at 690–91). Smith’s
counsel had good reason to be concerned about Smith’s
mental state yet they acknowledged that they did not try to
obtain a psychiatric report, apparently because Smith
objected. We do not minimize the difficulty presented by
Smith’s failure to cooperate, but Smith had no other viable
defense and his inability to recognize that and submit to a
mental health evaluation may well have been another
indicator of a mental health disorder. The failure to pursue
mental health mitigation evidence “ignored pertinent avenues
for investigation of which [counsel] should have been aware.”
Porter v. McCollum, 558 U.S. 30, 40 (2009) (per curiam).
The record does not demonstrate that counsel’s failure to
investigate was strategic. No alternate mitigation evidence or
argument was proffered to the jury, despite what appears to
be agreement among Smith’s attorneys that he may have
suffered from some sort of mental illness. See Evans v.
Lewis, 855 F.2d 631, 637 (9th Cir. 1988) (“Counsel’s failure
to investigate [a petitioner’s] mental condition[, despite prior
notice,] cannot be construed as a trial tactic.”); see also
Hendricks v. Calderon, 70 F.3d 1032, 1043 (9th Cir. 1995)
(“[W]here counsel is on notice that his client may be mentally
impaired, counsel’s failure to investigate his client’s mental

App. 083

(28 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 28 of 53

28

SMITH V. BAKER

condition as a mitigating factor in a penalty phase hearing,
without a supporting strategic reason, constitutes deficient
performance.”).
Our concurring colleague concludes that Smith’s
counsel’s performance was not deficient, cautioning that
counsel’s performance must not be judged with hindsight.
Concurrence at 46–47. We do not doubt this rule, but in our
view it is the concurrence that misapplies it. By conflating
Strickland’s prongs one and two, the concurring opinion
decides that it was permissible to forgo a psychological
evaluation because, without Smith’s cooperation, his lawyers
guessed that a psychological assessment would be of “no
value.” Concurrence at 49–51. There is no question that
Smith’s failure to cooperate with a psychological evaluation
would have hindered any effort to muster persuasive
mitigating evidence for the second penalty phase, but this
comes into play at Strickland step two, when we consider
whether counsel’s deficient performance resulted in
prejudice. At step one, we consider whether Smith’s lawyers’
performance fell below an objectively reasonable standard,
and that question is largely a function of the choices that were
available to counsel. Here, we consider the questions raised
by Smith’s pre-trial competency evaluation and by counsel’s
own observations of Smith’s behavior; Smith’s persistent
failure to recognize the implausibility of his trial testimony;
his concerning trial conduct; and the fact that there was
almost nothing else to offer in defense of the death penalty.
On this record, it was unreasonable to forgo a psychological
evaluation merely because Smith had confidence in his own
mental health and counsel assumed an assessment would be
of little value. Indeed, it is easy to imagine that a defendant’s
insistence that he is not ill may be a symptom of mental
illness. The out-of-circuit cases the concurring opinion cites

App. 084

(29 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 29 of 53

SMITH V. BAKER

29

are not to the contrary. See, e.g., Coleman v. Mitchell,
244 F.3d 533, 544–46 (6th Cir. 2001) (distinguishing cases in
which the failure to investigate and present mitigating
evidence constituted ineffective assistance, because defendant
served as co-counsel and instructed counsel to pursue an
alternate strategy); Johnston v. Singletary, 162 F.3d 630, 642
(11th Cir. 1998) (per curiam) (concluding that counsel’s
decision to forgo psychiatric testimony was strategic where
defendant refused to cooperate and his medical records
contained substantial data regarding his criminal history).
We conclude that Smith satisfied his burden of
demonstrating a “substantial” argument that his second
penalty-phase counsel’s performance was deficient.
2. Strickland Prong Two
The second Strickland prong requires that Smith show “a
reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different.” Strickland, 466 U.S. at 694. The State argues that
even if Smith had presented evidence to the jury showing he
suffered from grandiose delusions as a result of his mixed
personality disorder, this mitigation evidence would have
paled in comparison to his vicious attack on his wife and
step-daughters. The Supreme Court has cautioned that this
type of evidence “is [] by no means clearly mitigating, as the
jury might have concluded that [the defendant] was simply
beyond rehabilitation.” Cullen, 563 U.S. at 201. Moreover,
in this case, testimony from a mental health expert would
have opened the door to rebuttal from a State expert witness.
See id. In light of the extraordinarily brutal nature of the
murders, Smith has not shown that reasonable jurists would

App. 085

(30 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 30 of 53

30

SMITH V. BAKER

debate whether the result of Smith’s proceeding would have
been different if mitigation evidence had been pursued.
Our conclusion on this point is heavily influenced by
Smith’s failure to submit to a psychiatric evaluation at the
time of the penalty phase, and by the fact that only limited
evaluations could have been prepared without Smith’s
cooperation. Without the ability to conduct psychometric
testing and prepare detailed in-depth personal interviews with
Smith, any expert’s opinion would have been compromised
and necessarily vulnerable to cross examination.
To support his federal petition, Smith relies on the
opinions of Dr. Paula Lundberg-Love and Dr. Richard
Dudley to argue that counsel failed to investigate, develop,
and present mitigating mental health evidence. These experts
connected Smith’s “delusional thinking” with his long history
of get-rich-quick schemes and fraudulent dealings. For
example, Dr. Lundberg-Love attributed Smith’s extensive
history of fraudulent schemes to his delusions and “inflated
sense of self-worth.” She also juxtaposed Smith’s numerous
fraudulent schemes, ranging from real estate deals to
gemstone trading to check fraud, with his incredulous
protestations of innocence and claims that he had been set up
at every turn. Dr. Lundberg-Love noted that despite Smith’s
obviously precarious financial situation, he negotiated a
contract for the home in which the murders took place.
Among her conclusions, Dr. Lundberg-Love determined that
Smith had “persistent false beliefs” relating to these schemes,
and that he had “exclusive insight or interpretation[s] of the
facts that will free him from his predicament.” Dr. LundbergLove concluded that Smith’s schemes and plans, in light of
the clear facts that he “never had sufficient resources to

App. 086

(31 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 31 of 53

SMITH V. BAKER

31

execute” them, “support[] the diagnosis of delusional
disorder.”
Dr. Dudley, who examined Smith in prison, reached
similar conclusions. Dr. Dudley explained that, when he met
Smith, “it was clear that he is extremely bright,” but he
“evidenced both a level of paranoid thinking and grandiosity
that compromised his . . . decision-making capabilities and
judgment.” He determined that Smith’s “grandiosity”
included “pursuing big real estate deals while he had no
assets, and he apparently did not succeed in any legitimate
deals.” Like Dr. Lundberg-Love, Dr. Dudley connected
Smith’s grandiose thinking to his decision to move his family
into a mansion “despite the fact that his checking account had
been closed for too many overdrafts, and despite him not
having any means to pay the pending mortgage debt against
the house.”
Contrary to Smith’s protestations that the information
related to his mental health has “long [been] recognized as
mitigating,” this evidence is not “clearly mitigating.” First,
though it demonstrates Smith’s grandiosity, it focuses
extensively on Smith’s unlawful schemes. For example, in
one fraud detailed in Dr. Lundberg-Love’s report, Smith
offered handyman and remodeling services for a fee to
homeowners, then disappeared after receiving money for the
services. When confronted, Smith represented to the
homeowners that “the freight lines stole the cabinets he
ordered, and he [had to] travel[] to try to obtain the cabinets.”
Ultimately, Smith never returned to finish the remodel, and
the homeowners lost the money they entrusted to Smith. In
another scheme, Smith and his brother, Harold, “fronted
money to homeowners in foreclosure,” and, in return,
“required that the homeowners provide . . . their deed as

App. 087

(32 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 32 of 53

32

SMITH V. BAKER

security.” Smith and his brother then pocketed the
homeowners’ mortgage payments, never applied the
payments to the mortgage, and sold the property to third
parties. Dr. Lundberg-Love’s and Dr. Dudley’s reports
detailed other schemes in which Smith attempted to obtain
loans on real property with forged deeds, attempted to sell
property with forged deeds, and attempted to trade “valuable”
amethysts (which were of little value) for real estate in Texas.
Thus, while there is a chance the evidence “may have served
to evoke sympathy for Smith or cast his culpability for the
murders in a different light,” there is an equal chance the jury
would have decided that this evidence confirmed that Smith
was a habitual fraudster who “was simply beyond
rehabilitation.” Cullen, 563 U.S. at 201.
The experts focused on Smith’s delusional protestations
of innocence, but these statements were not “clearly
mitigating” because they underscored that Smith was willing
to relate utterly implausible tales, as he did before the jury at
trial. For example, Dr. Lundberg-Love attested, “In this case
Mr. Smith’s note indicated several intruders murdered his
wife and stepchildren and that he killed one of the intruders.
The only bodies found were those of his wife and stepchildren. As unbelievable as this recitation appeared, Mr.
Smith persisted in relating these facts to the jury. . . . His
delusional disorder compelled him to go forward as he did in
his testimony, even though part of his story was contradicted
by reality.” We cannot conclude there is a reasonable
probability that the expert declarations, prepared with little or
no cooperation from Smith, and without the benefit of
thorough testing and an opportunity for full evaluation, would
have changed the outcome of Smith’s penalty phase. See id.
at 202.

App. 088

(33 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 33 of 53

SMITH V. BAKER

33

Smith also argues that counsel spent only a few minutes
preparing his mitigation witnesses prior to their testimony.
But Smith glosses over the fact that Evans traveled to Los
Angeles prior to trial and attempted to meet with Smith’s
brother. Smith’s brother did not appear at the meeting and
later refused to meet with Evans. Additionally, Smith’s
brother, mother, and father “were scheduled to testify at the
penalty hearing, but on the day of their scheduled testimony,”
they did not appear. After a number of “frantic calls to the
family, they appeared at court the next morning.” As a result,
Evans “did not get to meet with [Smith’s] mom and dad until
just before they testified.” Finally, Smith fails to identify any
additional mitigation evidence that could or would have been
provided by family members if additional time had been
invested. Because Smith did not meet his burden at
Strickland Step Two, the district court did not err by ruling
that Smith’s ineffective assistance of counsel claim was
procedurally defaulted.
B. Claim Eight—Stromberg Error
Smith’s § 2254 petition argues that because the Nevada
Supreme Court invalidated the trial court’s depravity of mind
instructions in Smith I and Smith II, Smith II’s affirmance of
the death penalty for Wendy’s murder was contrary to the
clearly established federal law set forth in Stromberg v.
California, 283 U.S. 359 (1931). Stromberg held that a
verdict is subject to challenge if a jury, presented with
alternative theories of guilt, may have relied on an
unconstitutional theory to reach its verdict. Id. at 367–68.
Smith argues that it is unclear whether twelve jurors
unanimously found “mutilation” to support the statutory
aggravator because some of them may have relied solely on

App. 089

(34 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 34 of 53

34

SMITH V. BAKER

the invalid depravity-of-mind theory. If so, Smith argues, his
death sentence contravenes Stromberg.
The State argued in federal court that Smith’s Stromberg
claim was procedurally defaulted. The district court
disagreed, but it denied this claim on its merits. The district
court concluded that any error in the depravity jury
instruction was harmless because there was “strong
indication” the jury unanimously agreed on the mutilation
theory. On appeal to our court, the State abandoned its
procedural default argument. The State conceded this waiver
in its argument before our court, so we address the merits of
Smith’s Stromberg claim. See United States v. Pridgette,
831 F.3d 1253, 1259 (9th Cir. 2016).
To be eligible for the death penalty, Nevada law required
Smith’s second penalty-phase jury to find at least one
aggravating circumstance that was not outweighed by any
mitigating circumstances. Nev. Rev. Stat. § 175.554. The
single aggravating circumstance alleged in Smith’s case was
that “the murder involved torture, depravity of mind or the
mutilation of the victim.” See Nev. Rev. Stat. § 200.033(8).
The trial court instructed the first penalty jury that depravity
of mind required:
an inherent deficiency of moral sense and
rectitude. It consists of evil, corrupt and
perverted intent which is devoid of regard for
human dignity and which is indifferent to
human life. It is a state of mind outrageously,
wantonly vile, horrible or inhuman.
In Smith I, the Nevada Supreme Court concluded that this
depravity instruction was unconstitutionally vague. 881 P.2d

App. 090

(35 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 35 of 53

SMITH V. BAKER

35

at 655–56. The court explained that its opinion in Robins v.
State, 798 P.2d 558 (Nev. 1990) had addressed the
constitutionality of the very same depravity-of-mind
instruction, and found it deficient. Robins relied on Godfrey
v. Georgia, 446 U.S. 420 (1980) to rule that the depravity
instruction required “torture, mutilation or other serious and
depraved physical abuse beyond the act of killing itself, as a
qualifying requirement to an aggravating circumstance based
in part upon depravity of mind.” Robins, 798 P.2d at 629.
The Nevada Supreme Court reiterated the same requirement
in Libby v. State, 859 P.2d 1050, 1058 (Nev. 1993).
Smith I concluded that the depravity instruction given in
Smith’s first penalty hearing was unconstitutionally vague
because “the jury was not instructed that depravity of mind
must include torture, mutilation or other serious and depraved
physical abuse beyond the act of killing itself.” 881 P.2d
at 655. Smith I also acknowledged a unanimity problem was
presented by the possibility that some of Smith’s jurors may
have relied on the infirm instruction to impose the death
penalty. Id. Because the special verdict form did not require
that the jury separately consider depravity, or torture, or
mutilation; the court observed, “the jury in the instant case
found in the disjunctive torture, depravity of mind, or
mutilation and did not specify which of the three it found. It
therefore might well have based its finding of the aggravating
circumstance on depravity of mind.” Id. The court further
observed that because the jury found no other aggravating
circumstances, it could not “reweigh the aggravating and
mitigating evidence” to determine whether this error was
harmless. Id at 656. The court vacated the two death
sentences and remanded for a second penalty-phase hearing.
Id.

App. 091

(36 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 36 of 53

36

SMITH V. BAKER
The second jury was instructed:
You are instructed that the following factors
are circumstances by which Murder of the
First Degree may be aggravated:
The murder involved torture, depravity of
mind or the mutilation of the victim.
The State is alleging depravity of mind in the
murder of Kristy Cox [the twelve-year-old].
The State is alleging torture or depravity of
mind or mutilation in the murder of Wendy
Cox [the twenty-year-old].

The trial court gave the second jury the same depravity-ofmind instruction that Smith I had declared unconstitutionally
vague, Instruction 10, and added Instruction 11 to further
define depravity of mind. Instruction 11 premised depravity
of mind on the undefined phrase, “serious and depraved
physical abuse”:
In order to find either torture or mutilation of
a victim you must find that there was torture
or mutilation beyond the act of killing itself.
In order to find depravity of mind you must
find serious and depraved physical abuse
beyond the act of killing itself.
The court separately defined “torture” and “mutilate” in
Instructions 9 and 12, but it did not further define the “serious
and depraved physical abuse” required for depravity of mind.

App. 092

(37 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 37 of 53

SMITH V. BAKER

37

The trial court instructed the second jury: “you must be
unanimous in your finding as to the aggravating
circumstance,” but it did not instruct the jury that it had to be
unanimous as to the underlying theory supporting the
aggravating circumstance (torture, mutilation, or depravity of
mind). During defense counsel’s closing argument, the trial
court interrupted counsel to stress that there was only one
statutory aggravating circumstance alleged, and that it had
three subparts:
to the extent that Mr. Evans is saying that
there may be some confusion as to whether
there is one aggravating circumstance or more
than one, he’s absolutely correct; there is only
one aggravating circumstance that is alleged
by the State in this case, and that is composed
of the subparts mutilation, torture or depravity
of mind. I’m going to correct what is a fairly
broad instruction, which is Instruction
Number 7, to specifically say, “The State has
alleged that an aggravating circumstance is
present in this case,” so there can be no doubt
that it is one aggravating circumstance with
three subparts. One of those subparts is
related to one of the victims or is alleged by
the State with reference to one of the victims,
all three of the subparts are alleged with
reference to the other victim; but it is only one
total aggravating circumstance.
Smith II, 953 P.2d at 266 n.4. In its closing, the prosecution
argued to the second jury that “if . . . you are satisfied beyond
a reasonable doubt that an aggravating factor exists, and it
doesn’t have to be all of the parts of the circumstance, it can

App. 093

(38 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 38 of 53

38

SMITH V. BAKER

be one, in the case of Kristy, or one or two or three in the case
of Wendy[.]” The second jury found “depravity of mind” as
to Kristy’s murder, and “depravity of mind” and “mutilation”
for Wendy’s murder, and it reimposed the death penalty for
both murders.
Smith challenged Instructions 10 and 11 on direct appeal
from the second sentencing hearing, and Smith II invalidated
the depravity instructions again. The Nevada Supreme Court
observed “[s]ince Robins, this court has upheld sentences of
death based on depravity of mind only where there has been
evidence of mutilation or of torture.” Id. at 266. The court
explained that to the extent “Smith I may have created some
confusion on the issue, depravity of mind, as an aggravator,
may only be relied upon where evidence of torture or
mutilation exists.” Id. at 266 n.3. Smith II held that “jury
instruction [11] is a departure from what this court has
previously determined is constitutionally acceptable,” i.e., it
did not conform to the standard the Nevada Supreme Court
adopted in Robins. Id. at 267.
Because the second jury had “no guidance” as to what
constituted “serious and depraved physical abuse,” Smith II
concluded “the jury instruction on depravity of mind failed to
properly channel the jury’s discretion in connection with the
charges [] stemming from Kristy’s death. An aggravating
circumstance based on depravity of mind must include torture
or mutilation beyond the act of killing itself.” Id. at 267
(citations omitted). For Kristy’s murder, depravity of mind
was the State’s sole theory supporting a death-eligible
aggravator. Accordingly, the Nevada Supreme Court
reversed the death sentence imposed for Kristy’s murder and
imposed a sentence of life imprisonment without the
possibility of parole. Id.

App. 094

(39 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 39 of 53

SMITH V. BAKER

39

This ruling left the aggravating circumstance in Wendy’s
murder as the sole support for the death penalty. The second
jury checked boxes next to “depravity of mind” and
“mutilation” for Wendy’s murder, and the Nevada Supreme
Court affirmed the death penalty based on the jury’s finding
of mutilation in Wendy’s case. The court concluded that the
instructions for mutilation were constitutionally sound and
that sufficient evidence supported the finding, beyond a
reasonable doubt, that Wendy’s murder involved mutilation.
Id. at 267–68. The court did not address whether there was
indication that the jury unanimously decided upon mutilation.
C. Stromberg Error
Smith argues that the Nevada Supreme Court’s decision
to uphold the death verdict for Wendy’s murder was contrary
to clearly established federal law because it was impossible
to tell whether the jury unanimously found mutilation. Nev.
Rev. Stat. § 200.033(8). The State responds that the
depravity instruction was constitutionally sound under federal
law, and that the rule the Nevada Supreme Court set forth in
Robins is a state law requirement that is immaterial to relief
under § 2254(d).
A conviction is subject to challenge where a jury was
instructed on alternative theories of guilt and it may have
relied on an invalid one. Hedgpeth v. Pulido, 555 U.S. 57, 58
(2008) (per curiam) (citing Stromberg v. California, 283 U.S.
359 (1931)). In Hedgpeth, the Supreme Court observed that
Yates v. United States, 354 U.S. 298 (1957) extended
Stromberg’s rule to convictions based on multiple theories of
guilt where it is shown that one of the prosecution’s theories
was not unconstitutional but was legally flawed. See
Hedgpeth, 555 U.S. at 60. Such is the case here. In Smith II,

App. 095

(40 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 40 of 53

40

SMITH V. BAKER

the Nevada Supreme Court invalidated the depravity-of-mind
instructions used at Smith’s second penalty hearing, and we
do not second-guess that determination. Smith II, 953 P.2d at
267; see Estelle v. McGuire, 502 U.S. 62, 68 (1991)
(observing “it is not the province of a federal habeas court to
reexamine state-court determinations on state-law
questions”). The State’s argument that the depravity-of-mind
instructions comported with federal law amounts to
disagreement with the degree of specificity the Nevada
Supreme Court requires for its statutory aggravator. The
State fails to explain why we would question the Nevada
Supreme Court’s state law requirement.
The jury was not instructed that it must agree on which of
the three underlying theories supported the statutory
aggravator, or that, per Robins, it must find evidence of
mutilation or torture to find depravity of mind. We can see
no other clues in the record—such as jury polling—indicating
whether the jury unanimously agreed on mutilation. From the
jury’s check marks next to “depravity” and “mutilation” on
the special verdict form pertaining to Wendy’s murder, it is
impossible to tell whether the jury split their votes between
the invalid depravity theory and the valid mutilation theory.
We therefore conclude that Smith demonstrated Stromberg
error. See Hedgpeth, 555 U.S. at 58.
In Valerio v. Crawford, an en banc panel of our court
reviewed a jury’s death verdict premised on two statutory
aggravators, one unconstitutionally vague and one
permissible. 306 F.3d 742, 759 (9th Cir. 2002) (en banc).
Our en banc court ruled that “[a] state appellate court cannot
‘affirm a [trial] court without a thorough analysis of the role
an invalid aggravating factor played in the sentencing
process.’” Id. (quoting Stringer v. Black, 503 U.S. 222, 230

App. 096

(41 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 41 of 53

SMITH V. BAKER

41

(1992)). The court announced three avenues by which a state
appellate court can engage in close appellate scrutiny of an
invalid aggravator and affirm imposition of the death penalty.
Id. First, a state appellate court may affirm by finding the
error harmless under the standard set forth in Chapman v.
California, 386 U.S. 18 (1967). Valerio, 306 F.3d at 756. To
do so, the state appellate court must conclude, beyond a
reasonable doubt, that the same result would have been
obtained without relying on the invalid aggravator. Id. Here,
the State conceded at oral argument before our court, that
Smith II did not engage in a Chapman harmless error
analysis.
Valerio’s second method for affirming a death verdict
where a jury may have relied on an invalid aggravator
instruction is to re-weigh the aggravating and mitigating
evidence pursuant to Clemons v. Mississippi, 494 U.S. 738
(1990). Valerio, 306 F.3d at 757. Clemons described that a
state appellate court may set aside an invalid aggravator and
re-weigh the remaining aggravating and mitigating factors to
determine whether an invalid instruction was harmless. Id.
But it is clear the Smith II court did not re-weigh aggravating
and mitigating evidence because Nev. Rev. Stat. § 200.033(8)
was the single aggravating circumstance alleged in Smith’s
case.
Valerio’s third proffered method is a Walton analysis, see
Walton v. Arizona, 497 U.S. 639 (1990), in which a state
appellate court “act[s] as a primary factfinder” by applying a
corrected instruction to the evidence and determining de novo
whether the state’s evidence satisfied the aggravator. Valerio,
306 F.3d at 757. This option was also unavailable in Smith’s
case because, as we explained in Valerio, a state appellate

App. 097

(42 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 42 of 53

42

SMITH V. BAKER

court may not undertake a Walton analysis if the penaltyphase factfinder was a jury. Id. at 758.
The Nevada Supreme Court failed to undertake any of the
options explained in Valerio, so there is no question that it did
not engage in close appellate scrutiny of the invalid depravity
instructions used at Smith’s second penalty hearing. Instead,
the state court relied on its conclusion that the evidence was
sufficient to support the mutilation theory. Smith II, 953 P.2d
at 267–68. But as the court recognized in Smith I, 881 P.2d
at 655, sufficiency of the evidence is not the issue; Smith’s
argument is that the jury may not have been unanimous.
Valerio held that the resulting Stromberg error is not
structural, so we do not assume prejudice. Rather, we assess
the effect of the invalid depravity instructions and resulting
Stromberg error under the harmless error standard set forth in
Brecht v. Abrahamson, 507 U.S. 619 (1993). See Hedgpeth,
555 U.S. at 61–62 (concluding that a Brecht harmless error
analysis is appropriate where the jury was instructed on
alternative theories of guilt and may have relied on an invalid
one); Valerio, 306 F.3d at 760–61.
Brecht’s harmlessness test asks whether we are left with
“grave doubt” about whether “the actual instruction had a
‘substantial and injurious effect or influence’ on the jury’s
verdict, in comparison to what the verdict would have been
if the narrowed instruction had been given.” Valerio,
306 F.3d at 762; see also Hedgpeth, 555 U.S. at 58. As the
Nevada Supreme Court stated in Smith II, the narrowed
construction of depravity of mind based on Nev. Rev. Stat.
§ 200.033(8) “requir[es] torture, mutilation or other serious
and depraved physical abuse beyond the act of killing itself,
as a qualifying requirement to an aggravating circumstance

App. 098

(43 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 43 of 53

SMITH V. BAKER

43

based in part upon depravity of mind.” Smith II, 953 P.2d
at 266 (quoting Robins, 798 P.2d at 570). We therefore
compare the result obtained with Instructions 10 and 11
against “what the verdict would have been if the [Robins]
instruction had been given.” Valerio, 306 F.3d at 762.
The juxtaposition of the evidence pertaining to Kristy’s
murder and the evidence pertaining to Wendy’s murder leads
us to conclude that the invalid instruction did not have a
substantial and injurious effect on the jury’s verdict. The
second jury heard the medical examiner’s testimony about the
extent of both of the murdered step-daughters’ wounds. The
medical examiner explained that Kristy, age twelve, suffered
four wounds—three to the head, and one to the neck—and
that there was a laceration on her finger. The medical
examiner then moved on to Wendy’s much more substantial
injuries, and told the jury that Wendy suffered thirty-two
blunt-force wounds to her head (including skull fractures),
and that the extensive wounds Wendy suffered demonstrated
that she fought for her life. The examiner testified that
Wendy’s wounds appeared to have been inflicted with the
claw end of a hammer, and that her left ear was nearly cut in
two. The examiner found prominent abrasions on Wendy’s
neck, and that she had defensive wounds on her hands.
Despite these brutal injuries, the actual cause of Wendy’s
death was strangulation. The medical examiner opined that
Smith likely used hammer blows to subdue his victims and
then strangled them to death.2

2
On appeal, the State argued there was “overwhelming evidence” of
mutilation because Wendy was attacked with the claw end of a hammer.
The State overlooks that the jury was instructed that, under Nevada law,
mutilate “means to cut off or permanently destroy a limb or essential part
of the body or to cut off or alter radically so as to make imperfect,” and

App. 099

(44 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 44 of 53

44

SMITH V. BAKER

The numerous blunt-force wounds that fractured Wendy’s
skull, coupled with the medical examiner’s testimony that a
large laceration inside her ear almost cut her outer ear in two,
do not leave us with grave doubt about whether the jury
would have unanimously found mutilation. Photos and the
medical examiner’s testimony graphically illustrated that the
wounds Wendy suffered radically altered essential parts of
her body, and we are confident the invalid instruction did not
have a substantial and injurious effect on the jury’s verdict.
V. Conclusion
Smith persuasively argued that the performance of his
second penalty-phase counsel was deficient for failing to
investigate mental health mitigation evidence, but he has not
shown that he was prejudiced. This claim was defaulted.
Separately, we conclude that the Stromberg error in Smith’s
jury instructions was harmless under Brecht. We decline to
grant a Certificate of Appealability for any of the other claims
Smith briefed, and affirm the district court’s judgment.
AFFIRMED.

that “to find . . . mutilation of a victim you must find that there was . . .
mutilation beyond the act of killing itself.” In other words, it was the
extent of Wendy’s injuries that determined whether mutilation applied, not
the means used to injure her.

App. 100

(45 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 45 of 53

SMITH V. BAKER

45

N.R. SMITH, Circuit Judge, concurring:
The district court’s order dismissing Joseph Smith’s
federal habeas petition should be affirmed. The majority got
it right in: (1) finding that Smith failed to show he was
prejudiced by the lack of an evidentiary hearing, and
concluding that the district court did not abuse its discretion
by dismissing his Martinez1 claim without holding an
evidentiary hearing; (2) certifying Smith’s eighth claim,
which alleges a violation of the rule set out in Stromberg v.
California, 283 U.S. 359 (1931), and concluding that the
Stromberg error in Smith’s jury instruction was harmless; and
(3) declining to certify Smith’s remaining uncertified claims.
The district court’s judgment dismissing Smith’s
ineffective assistance of counsel (“IAC”) claim as
procedurally barred should also be affirmed. However, I
arrive at that conclusion via a different route than the
majority. Unlike the majority, I believe Smith’s counsel’s
performance during the second penalty-phase hearing was not
deficient under the first prong of Strickland v. Washington,
466 U.S. 668 (1984), and therefore find his IAC claim
insubstantial. I write separately to address this point.
To establish cause and prejudice to excuse the procedural
default of his IAC claim, Smith must show, inter alia, that:
“(1) the claim of ‘ineffective assistance of trial counsel’ was
a ‘substantial’ claim; [and] (2) the ‘cause’ consisted of there
being ‘no counsel’ or only ‘ineffective’ counsel during the
state collateral review proceeding.” Trevino v. Thaler,
569 U.S. 413, 423 (2013) (quoting Martinez, 566 U.S.
at 13–18).
1

Martinez v. Ryan, 566 U.S. 1 (2012).

App. 101

(46 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 46 of 53

46

SMITH V. BAKER

With respect to Martinez Step One, Smith must
“demonstrate that the underlying ineffective-assistance-oftrial-counsel claim is a substantial one, which is to say that
the prisoner must demonstrate that the claim has some merit.”
Martinez, 566 U.S. at 14. To establish the merits of an IAC
claim, “[t]he Strickland standard requires a showing of both
deficient performance and prejudice.” Rodney v. Filson,
916 F.3d 1254, 1260 (9th Cir. 2019) (citing Strickland,
466 U.S. at 687).
A.
Deficient performance under Strickland is performance
that falls “below an objective standard of reasonableness.”
466 U.S. at 688. “In any case presenting an ineffectiveness
claim, the performance inquiry must be whether counsel’s
assistance was reasonable considering all the circumstances.”
Id. (emphasis added). Although “[p]revailing norms of
practice as reflected in American Bar Association standards”
may serve as “guides to determining what is reasonable, . . .
they are only guides.” Id. This is so, because no standards or
set of rules “can satisfactorily take account of the variety of
circumstances faced by defense counsel or the range of
legitimate decisions regarding how best to represent a
criminal defendant.” Id. at 688–89.
Our “scrutiny of counsel’s performance must be highly
deferential,” because “[i]t is all too tempting for a defendant
to second-guess counsel’s assistance after . . . [an] adverse
sentence, and it is all too easy for a court, examining
counsel’s defense after it has proved unsuccessful, to
conclude that a particular act or omission of counsel was
unreasonable.” Id. at 689. Thus, “[a] fair assessment of
attorney performance requires that every effort be made to

App. 102

(47 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 47 of 53

SMITH V. BAKER

47

eliminate the distorting effects of hindsight, to reconstruct the
circumstances of counsel’s challenged conduct, and to
evaluate the conduct from counsel’s perspective at the time.”
Id. Because of the difficulty in conducting this evaluation, we
“must indulge a strong presumption that counsel’s conduct
falls within the wide range of reasonable professional
assistance.” Id.; see Cullen v. Pinholster, 563 U.S. 170, 196
(2011) (noting that “Strickland specifically commands that a
court ‘must indulge [the] strong presumption’ that counsel
‘made all significant decisions in the exercise of reasonable
professional judgment’” (alteration in original) (quoting
Strickland, 466 U.S. at 689–90)).
Smith argues, and the majority agrees, that Smith’s
counsel’s performance during the second penalty-phase
hearing was deficient, because counsel failed to investigate
Smith’s mental health and retain an expert to opine thereon.
Opinion at 26–29. I disagree.
The majority correctly notes that counsel’s argument at
the April 1996 penalty hearing was predicated on character
evidence similar to that presented at the first trial, and counsel
did not arrange or request a mental health evaluation of
Smith. Id. at 25. However, the reason no mental health
evaluation was arranged or requested is because Smith
refused to cooperate with, or submit to, any mental health
evaluation. Indeed, Donald York Evans, Smith’s first-chair
counsel at the second penalty hearing, stated:
When I first was appointed to represent Joe, I
wanted to do a complete psychological workup on him. I discussed the idea with Joe, and
he refused to submit to any testing. He
insisted he was not crazy. Joe would have

App. 103

(48 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 48 of 53

48

SMITH V. BAKER
none of it, and so I did not press the issue.
There was no value in getting a mental health
expert if Joe was not going to participate. I
wasn’t confident that I would get anything I
could use from an evaluation anyway. I
suspected he had schizoid tendencies and a
high IQ but that was just my guess and he
wouldn’t participate in an evaluation.

In Strickland, the Supreme Court recognized that “[t]he
reasonableness of counsel’s actions may be determined or
substantially influenced by the defendant’s own statements or
actions. Counsel’s actions are usually based, quite properly,
on informed strategic choices made by the defendant and on
information supplied by the defendant.” 466 U.S. at 691
(emphasis added).
In Campbell v. Kincheloe, we applied the above-stated
principle in a habeas action brought by an inmate convicted
of three counts of aggravated murder and sentenced to death.
829 F.2d 1453, 1456–57, 1463 (9th Cir. 1987). There, the
defendant argued that his attorneys’ performance was
deficient, because they “fail[ed] to interview his family and
childhood friends, classmates, and teachers.” Id. at 1463.
However, the defendant had “specifically requested his
attorneys not to contact members of his family.” Id. Drawing
on the Supreme Court’s statement that “[t]he reasonableness
of counsel’s actions may be determined or substantially
influenced by the defendant’s own statements or actions,”
Strickland, 466 U.S. at 691, we held that trial counsels’
performance was not deficient, because they abided by the
defendant’s wishes and the defendant’s wishes were
consistent with “the professional judgment of his attorneys
that such interviews were unnecessary and would not have

App. 104

(49 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 49 of 53

SMITH V. BAKER

49

made any difference in the context of the case.” Campbell,
829 F.2d at 1463–64.
Relying on the principle discussed in Strickland and
Campbell, other courts have declined to find counsel’s
performance deficient where a defendant refuses to cooperate
with a certain line of investigation and subsequently alleges
error based on the attorney’s incomplete investigation into the
frustrated line of inquiry. See, e.g., Coleman v. Mitchell,
244 F.3d 533, 545–56 (6th Cir. 2001) (finding counsel’s
performance not deficient where, inter alia, the defendant
“did not cooperate with counsel . . . and refused to submit to
further psychological or psychiatric testing”); Owens v.
Guida, 549 F.3d 399, 405–06, 411–12 (6th Cir. 2008)
(finding counsel’s performance not deficient where
“[c]ounsel could have reasoned that additional investigation
would be of little use because [the defendant’s] own actions
[(e.g., refusing to cooperate with mental health examiners)]
shut off avenues for mitigation”); Johnston v. Singletary,
162 F.3d 630, 642 (11th Cir. 1998) (per curiam) (finding
counsels’ performance not deficient where, “despite his
lawyers’ efforts to have [the defendant] evaluated by a . . .
mental health expert[, the defendant] was steadfast in his
resistance to meeting with this expert”); Thompson v.
Wainwright, 784 F.2d 1103, 1106 (11th Cir. 1986)
(recognizing that a defendant “cannot blame the lack of
additional psychiatric examinations on incompetent counsel”
where the defendant refused to “cooperate” with the previous
psychiatrist).
The reasonableness of Smith’s penalty-phase counsel’s
decision not to retain a mental health expert is “substantially
influenced by [Smith’s] own statements [and] actions.”

App. 105

(50 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 50 of 53

50

SMITH V. BAKER

Strickland, 466 U.S. at 691.2 Evans discussed the possibility
of obtaining a psychological evaluation of Smith, but Smith
refused to submit to any such examination and adamantly
insisted that he had no mental health issues. Smith’s
actions—i.e., his refusal to cooperate with, and submit to, any
mental health evaluation—provided “counsel reason to
believe that pursuing [a mental health] investigation[ ] would
be fruitless,” because any expert report prepared without
Smith’s participation would, in counsel’s own words, be of
little or “no value.” See Strickland, 466 U.S. at 691; see also
Johnston, 162 F.3d at 642 (“[W]hen the strategy an attorney
might otherwise pursue is virtually foreclosed by his client’s
unwillingness to facilitate that strategic option, it is difficult
for [a] court, in a collateral proceeding, to characterize as
‘unreasonable’ counsel’s decision to abandon that otherwise
preferable strategy.”). Smith cannot now complain that his
counsel acted unreasonably by failing to investigate and
present mental health evidence at his sentencing when it was

2

The majority argues that I conflate Strickland’s prongs one and two,
but I consider Smith’s “own statements [and] actions” in determining
whether Smith’s counsel’s performance was deficient. Strickland,
466 U.S. at 691. Indeed, the majority contends that, “[a]t step one, we
consider whether Smith’s lawyers’ performance fell below an objectively
reasonable standard, and that question is largely a function of the choices
that were available to counsel.” Opinion at 28.
Contrary to the majority’s argument, that is precisely what I have
done here. Put simply, Smith’s refusal to cooperate with, and submit to,
any mental health evaluation presented counsel with two choices. Counsel
could either retain a mental health expert to prepare an evaluation based
entirely on the record—which counsel recognized would be of little or no
value—or, considering Smith’s refusal, counsel could reasonably choose
not to retain a mental health expert to render a “compromised” opinion
that would “necessarily [be] vulnerable to cross examination.” Opinion
at 30.

App. 106

(51 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 51 of 53

SMITH V. BAKER

51

Smith’s own actions that effectively rendered any such
evidence of “no value.” See Strickland, 466 U.S. at 691;
Johnston, 162 F.3d at 642.
Both Smith and the majority argue that an expert could
have prepared a report without Smith’s participation based
solely on the expert’s review of the record—a report similar
to that prepared by Dr. Lundberg-Love in 2007. But, as
discussed, Smith’s counsel recognized that a report prepared
without Smith’s participation and based solely on a review of
the record would be of “no value.” The majority apparently
reaches the same conclusion, stating that “any expert’s
opinion [prepared without Smith’s cooperation] would have
been compromised and necessarily vulnerable to cross
examination.” Opinion at 30 (emphasis added). Thus, counsel
exercised reasonable professional judgment in declining to
retain an expert to render a compromised opinion that would
have been of little or no value. See Owens, 549 F.3d at 412
(finding counsel’s performance not deficient where
“[c]ounsel could have reasoned that additional investigation
would be of little use because [the defendant’s] own actions
[(e.g., refusing to cooperate with mental health examiners)]
shut off avenues for mitigation”); cf. Jeffries v. Blodgett,
5 F.3d 1180, 1198 (9th Cir. 1993) (recognizing that where “a
defendant preempts his attorney’s strategy” with his or her
actions or statements, “no claim for ineffectiveness can be
made” (quoting Mitchell v. Kemp, 762 F.2d 886, 889 (11th
Cir. 1985))).
Moreover, even assuming Smith would have participated
in an evaluation, counsel was not “confident that [he] would
get anything [he] could use from [the] evaluation.” This
judgment is reasonable in light of the 1992 competency
report, which was based on a two-day evaluation of Smith

App. 107

(52 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 52 of 53

52

SMITH V. BAKER

and several psychometric tests and found that, despite a
potential mixed personality disorder, Smith was “an
intelligent individual without any serious cognitive or
affective psychological disorder[s]” and exhibited no “acute
or Axis I mental disorders.” The report concluded that Smith
was competent to stand trial and “competent at the time of the
alleged offense.”
Smith and the majority also rely on certain American Bar
Association (“ABA”) standards to show counsel acted
unreasonably. Those standards require counsel to investigate
“all reasonably available mitigating evidence,” ABA
Guidelines 11.4.1(C) (1989), including any evidence of a
defendant’s mental illness, see id. at 11.4.1(D)(2)(C).
However, although the ABA standards may “guide[]” the
inquiry into whether Smith’s counsel’s performance was
reasonable, “they are only guides.” Strickland, 466 U.S. at
688 (emphasis added). As noted above, “[t]he reasonableness
of counsel’s actions may be determined or substantially
influenced by the defendant’s own statements or actions.” Id.
at 691 (emphasis added). That is precisely what happened
here. Smith’s actions “substantially influenced” the
reasonableness of his counsel’s decision not to conduct a
more in-depth investigation into Smith’s mental health and
mitigated any guidance gleaned from the ABA standards. See
id.; see also Jeffries, 5 F.3d at 1197–98 (finding counsel’s
performance not deficient where counsel acquiesced in the
defendant’s decision “not to present any witnesses in
mitigation,” which contravened ABA standards).
Considering “all of the circumstances” and indulging “a
strong presumption that counsel’s conduct falls within the
wide range of reasonable professional assistance,” Strickland,
466 U.S. at 689, 691, Smith’s second penalty-phase counsel’s

App. 108

(53 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-1, Page 53 of 53

SMITH V. BAKER

53

judgment not to engage an expert to opine on Smith’s mental
health is reasonable in light of Smith’s refusal to cooperate
with any mental health expert. See Owens, 549 F.3d at 406,
411–12 (finding counsel’s performance not deficient where
“[c]ounsel could have reasoned that additional investigation
would be of little use because [the defendant’s] own actions
[(e.g., refusing to cooperate with mental health examiners)]
shut off avenues for mitigation”); Johnston, 162 F.3d 642
(finding counsel’s performance not deficient where, “despite
his lawyers’ efforts to have [the defendant] evaluated by a . . .
mental health expert[, the defendant] was steadfast in his
resistance to meeting with this expert”).
Therefore, Smith’s IAC claim is insubstantial, because it
lacks merit. See Martinez, 566 U.S. at 14. Because Smith
cannot establish cause and prejudice to excuse his procedural
default under Martinez, the district court did not err in
holding that Smith’s IAC claim was procedurally defaulted.
B.
Because Smith’s second penalty-phase counsel’s
performance was not deficient, I would not reach the
prejudice prong of Strickland. However, assuming that
counsel’s performance was deficient (as does the majority),
Smith failed to show “a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding
would have been different.” Strickland, 466 U.S. at 694.

App. 109

(54 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-2, Page 1 of 4

United States Court of Appeals for the Ninth Circuit
Office of the Clerk
95 Seventh Street
San Francisco, CA 94103
Information Regarding Judgment and Post-Judgment Proceedings
Judgment
•
This Court has filed and entered the attached judgment in your case.
Fed. R. App. P. 36. Please note the filed date on the attached
decision because all of the dates described below run from that date,
not from the date you receive this notice.
Mandate (Fed. R. App. P. 41; 9th Cir. R. 41-1 & -2)
•
The mandate will issue 7 days after the expiration of the time for
filing a petition for rehearing or 7 days from the denial of a petition
for rehearing, unless the Court directs otherwise. To file a motion to
stay the mandate, file it electronically via the appellate ECF system
or, if you are a pro se litigant or an attorney with an exemption from
using appellate ECF, file one original motion on paper.
Petition for Panel Rehearing (Fed. R. App. P. 40; 9th Cir. R. 40-1)
Petition for Rehearing En Banc (Fed. R. App. P. 35; 9th Cir. R. 35-1 to -3)
(1)

A.
•

•

B.
•

Purpose (Panel Rehearing):
A party should seek panel rehearing only if one or more of the following
grounds exist:
►
A material point of fact or law was overlooked in the decision;
►
A change in the law occurred after the case was submitted which
appears to have been overlooked by the panel; or
►
An apparent conflict with another decision of the Court was not
addressed in the opinion.
Do not file a petition for panel rehearing merely to reargue the case.
Purpose (Rehearing En Banc)
A party should seek en banc rehearing only if one or more of the following
grounds exist:

Post Judgment Form - Rev. 12/2018

1

App. 110

(55 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-2, Page 2 of 4
►
►
►

Consideration by the full Court is necessary to secure or maintain
uniformity of the Court’s decisions; or
The proceeding involves a question of exceptional importance; or
The opinion directly conflicts with an existing opinion by another
court of appeals or the Supreme Court and substantially affects a
rule of national application in which there is an overriding need for
national uniformity.

(2)

Deadlines for Filing:
•
A petition for rehearing may be filed within 14 days after entry of
judgment. Fed. R. App. P. 40(a)(1).
•
If the United States or an agency or officer thereof is a party in a civil case,
the time for filing a petition for rehearing is 45 days after entry of judgment.
Fed. R. App. P. 40(a)(1).
•
If the mandate has issued, the petition for rehearing should be
accompanied by a motion to recall the mandate.
•
See Advisory Note to 9th Cir. R. 40-1 (petitions must be received on the
due date).
•
An order to publish a previously unpublished memorandum disposition
extends the time to file a petition for rehearing to 14 days after the date of
the order of publication or, in all civil cases in which the United States or an
agency or officer thereof is a party, 45 days after the date of the order of
publication. 9th Cir. R. 40-2.

(3)

Statement of Counsel
•
A petition should contain an introduction stating that, in counsel’s
judgment, one or more of the situations described in the “purpose” section
above exist. The points to be raised must be stated clearly.

(4)

Form & Number of Copies (9th Cir. R. 40-1; Fed. R. App. P. 32(c)(2))
•
The petition shall not exceed 15 pages unless it complies with the
alternative length limitations of 4,200 words or 390 lines of text.
•
The petition must be accompanied by a copy of the panel’s decision being
challenged.
•
An answer, when ordered by the Court, shall comply with the same length
limitations as the petition.
•
If a pro se litigant elects to file a form brief pursuant to Circuit Rule 28-1, a
petition for panel rehearing or for rehearing en banc need not comply with
Fed. R. App. P. 32.

Post Judgment Form - Rev. 12/2018

2

App. 111

(56 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-2, Page 3 of 4

•

•

The petition or answer must be accompanied by a Certificate of Compliance
found at Form 11, available on our website at www.ca9.uscourts.gov under
Forms.
You may file a petition electronically via the appellate ECF system. No paper copies are
required unless the Court orders otherwise. If you are a pro se litigant or an attorney
exempted from using the appellate ECF system, file one original petition on paper. No
additional paper copies are required unless the Court orders otherwise.

Bill of Costs (Fed. R. App. P. 39, 9th Cir. R. 39-1)
•
The Bill of Costs must be filed within 14 days after entry of judgment.
•
See Form 10 for additional information, available on our website at
www.ca9.uscourts.gov under Forms.
Attorneys Fees
•
Ninth Circuit Rule 39-1 describes the content and due dates for attorneys fees
applications.
•
All relevant forms are available on our website at www.ca9.uscourts.gov under Forms
or by telephoning (415) 355-7806.
Petition for a Writ of Certiorari
•
Please refer to the Rules of the United States Supreme Court at
www.supremecourt.gov
Counsel Listing in Published Opinions
•
Please check counsel listing on the attached decision.
•
If there are any errors in a published opinion, please send a letter in writing
within 10 days to:
►
Thomson Reuters; 610 Opperman Drive; PO Box 64526; Eagan, MN 55123
(Attn: Jean Green, Senior Publications Coordinator);
►
and electronically file a copy of the letter via the appellate ECF system by using
“File Correspondence to Court,” or if you are an attorney exempted from using
the appellate ECF system, mail the Court one copy of the letter.

Post Judgment Form - Rev. 12/2018

3

App. 112

(57 of 57)
Case: 14-99003, 05/21/2020, ID: 11697548, DktEntry: 80-2, Page 4 of 4

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 10. Bill of Costs
Instructions for this form: http://www.ca9.uscourts.gov/forms/form10instructions.pdf

9th Cir. Case Number(s)
Case Name
The Clerk is requested to award costs to (party name(s)):

I swear under penalty of perjury that the copies for which costs are requested were
actually and necessarily produced, and that the requested costs were actually
expended.
Signature

Date

(use “s/[typed name]” to sign electronically-filed documents)
REQUESTED
(each column must be completed)

COST TAXABLE
No. of
Copies

DOCUMENTS / FEE PAID
Excerpts of Record*

Pages per
Cost per Page
Copy

I

1 1

I

Brief; 1st, 2nd , and/or 3rd Brief on Cross-Appeal;
Intervenor Brief)

I

1 1

I

Reply Brief / Cross-Appeal Reply Brief

I
I

Principal Brief(s) (Opening Brief; Answering

$

I

I

$

I

I

$

$

I

I

$

I

I

$

I
Supplemental Brief(s)
$
I
Petition for Review Docket Fee / Petition for Writ of Mandamus Docket Fee
$
I
TOTAL: $
I
1 1

I

1 1

I

I
$
I

TOTAL
COST

I

I

I

I

I

I

*Example: Calculate 4 copies of 3 volumes of excerpts of record that total 500 pages [Vol. 1 (10 pgs.) +
Vol. 2 (250 pgs.) + Vol. 3 (240 pgs.)] as:
No. of Copies: 4; Pages per Copy: 500; Cost per Page: $.10 (or actual cost IF less than $.10);
TOTAL: 4 x 500 x $.10 = $200.
Feedback or questions about this form? Email us at forms@ca9.uscourts.gov

Form 10

App. 113
Rev. 12/01/2018

APPENDIX C
Order denying reconsideration, Smith v. Baker, et al.,
United States District Court of Nevada, Case No. 2:07cv-00318-JCM-CWH (Nov. 5, 2014)

App. 114

Case 2:07-cv-00318-JCM-CWH Document 184 Filed 11/05/14 Page 1 of 13

1
2
3
4
5
6

UNITED STATES DISTRICT COURT

7

DISTRICT OF NEVADA

8
9
10
11
12
13
14
15

JOSEPH WELDON SMITH,
Petitioner,
vs.
RENEE BAKER, et al.,
Respondents.

)
)
)
)
)
)
)
)
)
/

2:07-CV-00318-JCM-CWH
ORDER

Petitioner Smith has filed a motion seeking relief from the order and judgment denying his

16 petition for writ of habeas corpus. ECF No. 198. Relying on Fed. R. Civ. P. 59(e), he argues that this
17 court should reconsider: (1) its ruling that alleged ineffective assistance of post-conviction counsel
18 cannot overcome the default of his claims of ineffective assistance of appellate counsel; (2) its denial
19 of Claims Eight, Ten, and Eleven on the merits; (3) its ruling that certain claims were unexhausted on
20 direct appeal pursuant to Nevada’s mandatory review statute; (4) its dismissal of Claim Twenty-five;
21 (5) its treatment of his claims of ineffective assistance of trial counsel under Martinez v. Ryan, 132 S.
22 Ct. 1309 (2012); and (6) its denial of claims regarding the state court’s alleged lack of jurisdiction
23 (Claims One and Two). In the alternative, Smith asks the court to grant a certificate of appealability
24 for the foregoing issues.
25

I. Rule 59(e) standard.

26

Under Federal Rule of Civil Procedure 59(e), a party may move to have the court amend its

App. 115

Case 2:07-cv-00318-JCM-CWH Document 184 Filed 11/05/14 Page 2 of 13

1 judgment within twenty-eight days after entry of the judgment. “A motion for reconsideration under
2 Rule 59(e) ‘should not be granted, absent highly unusual circumstances, unless the district court is
3 presented with newly discovered evidence, committed clear error, or if there is an intervening change
4 in the controlling law.’” McDowell v. Calderon, 197 F.3d 1253, 1255 (9th Cir. 1999) (quoting 389
5 Orange St. Partners v. Arnold, 179 F.3d 656, 665 (9th Cir.1999) (emphasis added)). “Since specific
6 grounds for a motion to amend or alter are not listed in the rule, the district court enjoys considerable
7 discretion in granting or denying the motion.” Id. at 1255, n.1 (quoting 11 Charles Alan Wright et al.,
8 Federal Practice and Procedure § 2810.1 (2d ed.1995)). Even so, amending a judgment after its entry
9 remains “an extraordinary remedy which should be used sparingly.” Id.
10
11
12

II. Discussion.
1. Ineffective assistance of appellate counsel claims
Smith argues that this court erred when it concluded that alleged ineffective assistance of post-

13 conviction counsel cannot serve as cause to excuse the default of claims of ineffective assistance of
14 appellate counsel. He points to the decision in Ha Van Nguyen v. Curry, 736 F.3d 1287 (9th Cir.
15 2013), which was issued subsequent to this court’s procedural default ruling. In that case, the Ninth
16 Circuit expanded the holding of Martinez v. Ryan, 132 S.Ct. 1309 (2012), to include claims of
17 ineffective assistance of appellate counsel: “We therefore conclude that the Martinez standard for
18 ‘cause’ applies to all Sixth Amendment ineffective-assistance claims, both trial and appellate, that
19 have been procedurally defaulted by ineffective counsel in the initial-review state-court collateral
20 proceeding.” Nguyen, 736 F.3d at 1295 (emphasis added).
21

Smith contends that, in light of Nguyen, this court must reconsider whether he can show cause

22 and prejudice to excuse the default of certain ineffective assistance of appellate counsel claims –
23 specifically, claims based on counsel’s failure to raise on direct appeal the claims asserted in his
24 federal petition as Claims Twelve and Thirteen, Claim Twenty, Claims Sixteen and Twenty-three, and
25 Claim Twenty-seven. For the following reasons, this court does not agree.
26

2

App. 116

Case 2:07-cv-00318-JCM-CWH Document 184 Filed 11/05/14 Page 3 of 13

1

To begin with, Smith did not allege in his federal petition that appellate counsel was

2 ineffective for failing to raise Claims Twelve and Thirteen. ECF No. 40, p. 120-21. He cannot claim
3 that this court should excuse the procedural default of a claim he did not include in his federal
4 petition.
5

In Claim Twenty, Smith alleged that his constitutional rights were violated as a result of the

6 trial court’s failure to instruct the jury that it could not consider “other matter” evidence under Nev.
7 Rev. Stat. § 175.552(3) before it first found Smith eligible for the death penalty – i.e., before it found
8 the existence of an aggravating circumstance beyond a reasonable doubt and that the aggravating
9 circumstance was not outweighed by mitigating evidence. According to Smith, the decision in
10 Hollaway v. State, 6 P.3d 987 (Nev. 2000), demonstrates a reasonable probability that his direct
11 appeal would have succeeded if his appellate counsel had raised the issue.
12

The facts in Hollaway, however, bear little resemblance to those in this case. The aggravating

13 circumstance in Hollaway was the robbery of a gas station attendant at knife point that resulted in a
14 conviction for second-degree armed robbery and false imprisonment (Hollaway, 6 P.3d at 990),
15 whereas the aggravating circumstance in Smith’s case was the mutilation of his daughter, with
16 evidence establishing that he struck her in the head with a claw hammer at least 16 times prior to
17 strangling her (ECF No. 109-4, pp. 21-30, 39-40 8-10, 37-381). Moreover, the Nevada Supreme
18 Court’s reversal in Hollaway was based, in part, on the likely prejudice that resulted from “the
19 unprovoked electric shocking of a capital defendant at his penalty hearing.” Hollaway v. State, 6 P.3d
20 at 997. The other case Smith relies upon – Butler v. State, 102 P.3d 71 (Nev. 2004) – is also
21 distinguishable inasmuch as the Nevada Supreme Court, in concluding that there was a strong
22 likelihood that Butler was prejudiced by a misleading “other matter” instruction, “stress[ed] that
23 Butler presented compelling evidence of extreme neglect and abuse in his childhood, which the jurors
24
25
26

Citations to page numbers for electronically filed documents are based on the CM/ECF
pagination.
1

3

App. 117

Case 2:07-cv-00318-JCM-CWH Document 184 Filed 11/05/14 Page 4 of 13

1 obviously recognized in finding several mitigating circumstances, while the State alleged and the jury
2 found only one aggravating circumstance.” Butler, 102 P.3d at 83.
3

Claim Sixteen and Twenty-three consist of allegations that the trial court’s jury instructions on

4 reasonable doubt (Claim Sixteen) and “equal and exact justice” (Claim Twenty-three) impermissibly
5 lowered the State’s burden of proof. Appellate counsel was not ineffective for not raising these
6 claims because the instructions have been routinely upheld by state and federal courts. Leonard v.
7 State, 969 P.2d 288, 296 (Nev. 1998) (upholding instruction on equal and exact justice); Buchanan v.
8 State, 69 P.3d 694, 708 (Nev. 2003) (“This court has repeatedly reaffirmed the constitutionality of
9 Nevada's reasonable doubt instruction.”); Ramirez v. Hatcher, 136 F.3d 1209, 1215 (9th Cir. 1998)
10 (holding that the questionable language in Nevada’s reasonable doubt instruction “did not render the
11 charge unconstitutional”). In like fashion, there is not a reasonable probability that the Nevada
12 Supreme Court would have found merit in Smith’s claim that appellate counsel was ineffective for
13 failing to challenge his conviction and sentence because his proceedings were conducted before
14 elected judges (i.e., Claim Twenty-seven). See Nika v. Baker, 59776, 2014 WL 3784142, *2 (Nev.
15 July 30, 2014).
16

In light of the foregoing, this court did not error by not excusing the procedural default of

17 Smith’s ineffective assistance of appellate counsel claims.
18
19

2. Denial of Claims Eight, Ten, and Eleven
Smith argues that this court committed errors of law or made erroneous factual findings in the

20 process of denying Claims Eight, Ten, and Eleven on the merits.2 For the most part, however, he
21 merely repeats or elaborates upon his prior arguments with respect to these claims. He has not
22 demonstrated the existence of clear error. See U.S. v. Westlands Water Dist., 134 F.Supp.2d 1111,
23 1131 (E.D.Cal. 2001) (explaining that a party seeking reconsideration must do more than disagree
24
25
26

He also argues that the court made erroneous factual findings in relation to its analysis of
Claim Four under Martinez. The dismissal of Claim Four is discussed below.
2

4

App. 118

Case 2:07-cv-00318-JCM-CWH Document 184 Filed 11/05/14 Page 5 of 13

1 with the court's decision or recapitulate that which the court has previously considered). Thus, Smith
2 is not entitled to Rule 59(e) relief with respect to the court’s denial of the claims.
3
4

3. Exhaustion pursuant to Nevada’s mandatory review statute
Smith challenges this court’s analysis as to whether some of his claims were exhausted on

5 direct appeal by virtue of the Nevada Supreme Court’s mandatory review of death sentences under
6 Nev. Rev. Stat. § 177.055. Nev. Rev. Stat. § 177.055 requires the state supreme court to consider
7 whether the evidence supported the finding of the aggravating circumstances; whether the sentence
8 was imposed under the influence of passion, prejudice, or any other arbitrary factor; and whether the
9 death sentence was excessive. Relying on Comer v. Schriro, 463 F.3d 934, 954-56 (9th Cir. 2006),
10 and citing to Sechrest v.Ignacio, 943 F.Supp. 1245, 1250 (D.Nev. 1996), this court determined that
11 Smith claims were not exhausted on direct appeal because (1) neither the statute itself nor Nevada
12 case law obligates the Nevada Supreme Court to apply federal law standards in conducting its review
13 under Nev. Rev. Stat. § 177.055 and (2) Smith had not shown that any of the claims at issue are
14 “clearly encompassed” within the scope of Nev. Rev. Stat. § 177.055 and “readily apparent” in the
15 record reviewed by the Nevada Supreme Court. ECF No. 162, p. 14.
16

According to Smith, the court’s analysis was flawed because it does not offer “any rational

17 reason why Arizona’s mandatory review scheme serves to exhaust federal claims under Comer, and
18 Idaho’s mandatory review scheme serves to exhaust federal claims under Beam v. Paskett, 3 F.3d
19 1301, 1305-07 (9th Cir. 1993), but Nevada’s mandatory review scheme, which is nearly identical to
20 those in Arizona and Idaho, does not serve to exhaust federal claims.” ECF No. 182, p. 5. While this
21 argument addresses the first point above, Smith still has not demonstrated that the particular claims at
22 issue3 were “clearly encompassed” within the scope of Nevada’s mandatory review provision and
23 “readily apparent” in the record before the Nevada Supreme Court.
24
25
26

Claims Eight, Nine, Ten, Fourteen, Sixteen, Twenty, Twenty-three, and Twenty-eight are the
claims Smith identifies as the ones exhausted by the Nevada Supreme Court’s mandatory review. ECF
No. 141, p. 21.
3

5

App. 119

Case 2:07-cv-00318-JCM-CWH Document 184 Filed 11/05/14 Page 6 of 13

1

In this regard, this court notes that it addressed three of the claims (Claims Eight, Ten, and

2 Fourteen) on the merits, in any case. Of the remaining claims, a few are arguably within the scope of
3 mandatory review, but this court is not convinced that any of them were obvious from the state court
4 record. Cf. Comer, 463 F.3d at 955-56 (finding that claims based on petitioner’s compromised
5 physical and mental condition during sentencing and his absence from a competency hearing were
6 readily apparent from transcripts and videotape before the Arizona Supreme Court). As such, the
7 court did not commit clear error with respect to this issue.
8
9

4.

Dismissal of Claim Twenty-five

Smith contends that this court should reconsider its decision to dismiss Claim Twenty-five, a

10 claim in which Smith alleged that Nevada’s death sentence by means of lethal injection violates the
11 Eighth Amendment. The dismissal of the claim was based on a finding that it was barred by the
12 doctrine of procedural default because Smith had not presented it to the state court until his second
13 state post-conviction proceeding, in which the Nevada Supreme Court dismissed it as untimely-filed
14 under Nevada law. ECF No.162, p. 12. This court rejected Smith’s arguments that the procedural
15 default should be excused because of the State’s alleged suppression of execution protocols and the
16 absence of a state forum to litigate the claim. Id., p. 24.
17

As to the latter point, the court cited Roberts v. Arave, 847 F.2d 528, 530 (9th Cir. 1988), for

18 the proposition that the apparent futility of presenting a claim to the state court does not constitute
19 cause for procedural default. Smith argues that his was error because Roberts is not on point and the
20 Nevada Supreme Court held, in McConnell v. State, 212 P.3d 307, 310-11 & n.5 (Nev. 2009), that
21 challenges to the Nevada’s lethal injection protocol and procedure are not cognizable in a state court.
22 The correct approach, according to Smith, is that found in Harris v. Duckworth, 909 F.2d 1057 (7th
23 Cir. 1990), where the Seventh Circuit held that a petitioner was excused from presenting to the state
24 courts a federal constitutional claim that the Indiana Supreme Court “definitively decid[ed]” it would
25 not entertain in any case. Harris, 909 F.2d.at 1058-59.
26

6

App. 120

Case 2:07-cv-00318-JCM-CWH Document 184 Filed 11/05/14 Page 7 of 13

1

As an initial matter, the issue as to whether a claim challenging the constitutionality of

2 Nevada's lethal injection procedures was cognizable in a state post-conviction habeas petition was far
3 from “definitively decided” at the time Smith defaulted the claim. See, e.g., State v. Haberstroh, 69
4 P.3d 676, 686 (Nev. 2003) (rejecting petitioner’s claim because he failed “to provide any facts
5 demonstrating that pain inflicted during lethal injection is unnecessary or gratuitous”). Even if it was
6 not procedurally defaulted in this court, however, the claim would not, for the reasons that follow,
7 provide a basis for granting relief in this proceeding.
8

To the extent that it presents a general challenge to lethal injection as a method of execution,

9 Claim Twenty-five is meritless in light of Baze v. Rees, 553 U.S. 35 (2008). In Baze, the Supreme
10 Court, on an appeal from a judgment in a civil rights action, ruled Kentucky’s lethal injection protocol
11 to be constitutional. Baze, 553 U.S. at 62-63. The Baze holding essentially forecloses any argument
12 that lethal injection, no matter how administered, is necessarily unconstitutional. It also demonstrates
13 that lethal injection can be administered in a manner that does not constitute cruel and unusual
14 punishment in violation of the Eighth Amendment.
15

To the extent that Smith challenges the specific protocol employed by the State of Nevada,

16 such a challenge is not cognizable in this federal habeas corpus action. In Nelson v. Campbell, 541
17 U.S. 637 (2004), a state prisoner sentenced to death filed a civil rights action, under 42 U.S.C. § 1983,
18 alleging that the state’s proposed use of a certain procedure, not mandated by state law, to access his
19 veins during a lethal injection would constitute cruel and unusual punishment. Nelson, 541 U.S. at
20 641. The Supreme Court reversed the lower courts’ conclusion that the claim sounded in habeas
21 corpus and could not be brought as a section 1983 action. The Supreme Court ruled that section 1983
22 was an appropriate vehicle for the prisoner to challenge the particular lethal-injection procedure
23 prescribed by state officials. Nelson, 541 U.S. at 645. The Court stated that the prisoner’s suit
24 challenging “a particular means of effectuating a sentence of death does not directly call into question
25 the ‘fact’ or ‘validity’ of the sentence itself [because by altering the lethal-injection procedure] the
26

7

App. 121

Case 2:07-cv-00318-JCM-CWH Document 184 Filed 11/05/14 Page 8 of 13

1 State can go forward with the sentence.” Id. at 644.
2

In Hill v. McDonough, 547 U.S. 573 (2006), the Court reaffirmed the principles articulated in

3 Nelson, ruling that an as-applied challenge to lethal injection was properly brought by means of a
4 section 1983 action. Hill 547 U.S. at 580-83. Both Nelson and Hill suggest that a section 1983 claim
5 is the more appropriate vehicle for an as-applied challenge to a method of execution. See also
6 Beardslee v. Woodford, 395 F.3d 1064, 1068-69 (9th Cir. 2005) (holding that claim that California’s
7 lethal injection protocol violates the Eighth Amendment “is more properly considered as a ‘conditions
8 of confinement’ challenge, which is cognizable under § 1983, than as a challenge that would
9 implicate the legality of his sentence and thus be appropriate for federal habeas review.”).
10

Because an as-applied challenge to a method of execution is more akin to a suit challenging

11 the conditions of custody rather than the constitutionality of the petitioner’s custody or sentence, it
12 must be brought as a civil rights action under 42 U.S.C. § 1983. Accordingly, Claim Twenty-five, to
13 the extent that it challenges Nevada’s specific execution procedures, is subject to dismissal as not
14 cognizable in this federal habeas corpus action. Smith is not entitled to Rule 59(e) relief with respect
15 to the court’s dismissal of the claim.
16
17

5.

Treatment of ineffective assistance of trial counsel claims under Martinez

In its decision on respondents’ motion to dismiss, this court rejected Smith’s arguments that

18 Martinez provided cause and prejudice to overcome the procedural default of several of his claims.
19 ECF No. 162, p. 17-24. Smith argues that this court’s Martinez analysis was flawed because the court
20 did not adhere to the then-recent holding in Detrich v. Ryan, 740 F.3d 1237 (9th Cir. 2013), as to
21 showing necessary to meet the substantiality requirement for defaulted ineffective assistance of trial
22 counsel claims.4
23

In Trevino v. Thaler, 133 S.Ct. 1911 (2013), the United States Supreme Court described the

24
25
26

The claims for which Smith seeks reconsideration on this ground are Claims Four, Five, Nine,
Fourteen, and Eighteen.
4

8

App. 122

Case 2:07-cv-00318-JCM-CWH Document 184 Filed 11/05/14 Page 9 of 13

1 Martinez test as consisting of four requirements:
2
3
4
5
6

We consequently read Coleman as containing an exception, allowing a federal habeas
court to find “cause,” thereby excusing a defendant's procedural default, where (1) the
claim of “ineffective assistance of trial counsel was a “substantial” claim; (2) the
“cause” consisted of there being “no counsel” or only “ineffective” counsel during the
state collateral review proceeding; (3) the state collateral review proceeding was the
“initial” review proceeding in respect to the “ineffective-assistance-of-trial-counsel
claim;” and (4) state law requires that an “ineffective assistance of trial counsel [claim]
. . . be raised in an initial-review collateral proceeding.”

7 Trevino, 133 S.Ct. at 1918 (citing and quoting Martinez, 132 S.Ct. at 1318–19, 1320–21). The court
8 of appeals in Detrich noted that, for a claim of ineffective assistance of trial counsel to be
9 “substantial,” the petitioner must only to show that the merit of the claim is debatable among
10 reasonable jurists. Detrich, 740 F.3d at 1245 (noting that the Martinez court cited to Miller–El v.
11 Cockrell, 537 U.S. 322 (2003), in discussing substantiality). A plurality of the court sitting en banc
12 also held that “[a] prisoner need not show actual prejudice resulting from his PCR counsel's deficient
13 performance, over and above his required showing that the trial-counsel IAC claim be ‘substantial’
14 under the first Martinez requirement.” Id. at 1245-46.
15

As to the latter holding, however, the court in Clabourne v. Ryan, 745 F.3d 362 (9th Cir.

16 2014), noted that a majority of the Detrich panel rejected that view and concluded instead that, to
17 demonstrate cause, “the petitioner must show that his post-conviction relief counsel was ineffective
18 under Strickland . . . .” Clabourne, 745 F.3d at 376; see also Sexton v. Cozner, 679 F.3d 1150, 1157
19 (9th Cir. 2012). That is, the petitioner must “establish that both (a) post-conviction counsel's
20 performance was deficient, and (b) there was a reasonable probability that, absent the deficient
21 performance, the result of the post-conviction proceedings would have been different.” Id. at 377.
22

This was the exact standard that this court employed in its Martinez analysis of Smith’s

23 defaulted ineffective assistance of trial counsel claims. See ECF No. 162, p. 18. For all of those
24 claims except for Claim Eighteen, the court determined that Smith could not establish cause and,
25 therefore, it did not address the prejudice prong (i.e., the substantiality of the underlying trial IAC
26

9

App. 123

Case 2:07-cv-00318-JCM-CWH Document 184 Filed 11/05/14 Page 10 of 13

1 claim) of the Martinez test. With respect to Claim Eighteen, the court stands by its prior
2 determination that the claim is wholly without merit – i.e., insubstantial. Accordingly, Smith is not
3 entitled to Rule 59(e) relief with respect to the court’s treatment of his ineffective assistance of trial
4 counsel claims under Martinez.
5
6

6. Claims premised on the state court’s alleged lack of jurisdiction
Claims One and Two of Smith’s petition alleged that his constitutional rights were violated

7 because the Nevada courts lacked jurisdiction over the criminal proceeding that resulted in his
8 convictions and sentences. This court denied the claims because the determination of whether a state
9 court is vested with jurisdiction under state law is a function of the state courts, not the federal
10 judiciary, and because merely alleging a due process violation does not transform a state law issue
11 into a federal one. ECF No. 175, p. 10.
12

Smith argues that this court neglected to address whether the state court made an unreasonable

13 determination of the facts for the purposes of 28 U.S.C. § 2254(d)(2) – specifically, the state court
14 finding that the absence of a file stamp on his complaint did not mean that it was not properly filed
15 before the issuance of the arrest warrant and the beginning of the preliminary hearing. The court did
16 not reach that issue, however, because it was not relevant to its analysis of the two claims. A
17 determination that a state court adjudication is based on an unreasonable determination of the facts
18 under § 2254(d)(2) means only that the federal habeas court is not required to give deference to that
19 adjudication. Because, the court denied the claims de novo, it did not delve into the question of
20 deference under § 2254(d). See Berghuis v. Thompkins, 560 U.S. 370, 390 (2010) (“Courts can . . .
21 deny writs of habeas corpus under § 2254 by engaging in de novo review when it is unclear whether
22 AEDPA deference applies, because a habeas petitioner will not be entitled to a writ of habeas corpus
23 if his or her claim is rejected on de novo review.”).
24

Smith also claims that, in denying Claims One and Two, this court failed to recognize “the

25 importance of subject matter jurisdiction as one of the oldest and most sacred purposes of the Great
26

10

App. 124

Case 2:07-cv-00318-JCM-CWH Document 184 Filed 11/05/14 Page 11 of 13

1 Writ.” ECF No. 177, p. 40. He misses the point, however. This court did not suggest that a
2 judgment rendered by a court lacking subject matter jurisdiction can nonetheless be valid. Rather, the
3 court concluded that the question whether the state court possessed subject matter jurisdiction in this
4 case was a matter of state law beyond the province of the federal habeas court. The following excerpt
5 from an Eighth Circuit case is instructive:
6
7
8
9
10
11
12
13
14
15
16
17
18

The district court stated that “[t]his Court can think of no greater denial of due process
or of a greater miscarriage of justice than to be sentenced to prison for a term of four
years by a court which has no jurisdiction.” To reach the question of denial of due
process or miscarriage of justice, however, the court must first determine that the
sentencing court has no jurisdiction. This is not, however, a determination for the
federal courts when the question of jurisdiction is one of valid state law only.
Jurisdiction is no exception to the general rule that federal courts will not
engage in collateral review of state court decisions based on state law: “The adequacy
of an information is primarily a question of state law and we are bound by a state
court's conclusion respecting jurisdiction. . . . This determination of jurisdiction is
binding on this [federal] court.” Chandler v. Armontrout, 940 F.2d 363, 366 (8th Cir.
1991); see Johnson v. Trickey, 882 F.2d 316, 320 (8th Cir. 1989) (adequacy of
information is question of state law binding on federal courts). The Second Circuit has
directly addressed the question of federal review of state court jurisdiction based on
state law, denying a habeas petition brought on the claim that a New York statute
deprived the state trial court of jurisdiction. Roche v. Scully, 739 F.2d 739, 741 (2nd
Cir. 1984). The court stated that “‘no federal court to our knowledge has ever granted
a writ where a state court's asserted lack of jurisdiction resulted solely from the
provisions of state law.’” Id. at 741-42 (quoting United States v. Mancusi, 415 F.2d
205, 209 (2nd Cir. 1969)).
The question of whether the Missouri courts had jurisdiction to sentence Poe
was one solely of state law and is therefore not properly before this court. . . .

19 Poe v. Caspari, 39 F.3d 204, 207 (8th Cir. 1994). See also Wills v. Egeler, 532 F.2d 1058, 1059 (6th
20 Cir. 1976) (“Determination of whether a state court is vested with jurisdiction under state law is a
21 function of the state courts, not the federal judiciary.”). Smith cites to no authority that would permit
22 a federal habeas court to set aside a state court determination regarding the existence of subject matter
23 jurisdiction under state law. Thus, the court stands by its denial of Claim One and Two.
24
25
26

7. Certificate of appealability
Smith argues that, to the extent the court does not grant him relief from the order and
11

App. 125

Case 2:07-cv-00318-JCM-CWH Document 184 Filed 11/05/14 Page 12 of 13

1 judgment denying his petition, he is at least entitled to a certificate of appealability with respect to the
2 issues presented above. Pursuant to 28 U.S.C. § 2253(c)(2), a COA may issue only when the
3 petitioner "has made a substantial showing of the denial of a constitutional right." With respect to
4 claims rejected on the merits, a petitioner "must demonstrate that reasonable jurists would find the
5 district court's assessment of the constitutional claims debatable or wrong" or that the issues were
6 “adequate to deserve encouragement to proceed further.” Slack v. McDaniel, 529 U.S. 473, 484
7 (2000) (citing Barefoot v. Estelle, 463 U.S. 880, 893 & n.4 (1983)). For procedural rulings, a COA
8 will issue only if reasonable jurists could debate (1) whether the petition states a valid claim of the
9 denial of a constitutional right and (2) whether the court's procedural ruling was correct. Id.
10

Having revisited the rulings discussed above, the court agrees that its rejection of Smith’s

11 Martinez-based cause and prejudice claim in relation to Claim Four is at least debatable among
12 reasonable jurists. In Claim Four, Smith alleged that trial counsel were ineffective for failing to
13 present mitigating evidence of mental illness. In concluding that Smith had failed to make an
14 adequate showing to excuse his procedural default of the claim, this court questioned the mitigatory
15 value of the mental health evidence that he had proffered. It is at least arguable, however, that trial
16 counsel were ineffective by not presenting the testimony of mental health experts at Smith’s penalty
17 hearing and that post-conviction counsel was ineffective by failing to present the issue in Smith’s
18 initial collateral proceeding. See Clabourne, 745 F.3d at 382-83 (discussing the history of petitioner’s
19 mitigation-based claim).
20

III. Conclusion

21

For the reasons discussed above, Smith is not entitled to relief under Rule 59(e) with respect

22 to this court’s order and judgment denying his habeas petition on the merits, except for the court’s
23 decision to deny a COA.
24

IT IS THEREFORE ORDERED that petitioner’s motion to alter or amend judgment under

25 Rule 59(e) (ECF No. 177) is GRANTED with respect to the court’s decision to deny a COA. In all
26

12

App. 126

Case 2:07-cv-00318-JCM-CWH Document 184 Filed 11/05/14 Page 13 of 13

1 other respects, the motion is DENIED.
2

IT IS FURTHER ORDERED that the Certificate of Appealability is amended to include the

3 following issue:
4
5

Whether petitioner can establish cause and prejudice to overcome the
procedural default of Claim Four, which alleges that trial counsel were ineffective in
failing to present mental health evidence in the penalty phase of petitioner’s trial.

6

DATED: November 5, 2014.

7
8
9

_________________________________________
UNITED STATES DISTRICT JUDGE

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

13

App. 127

APPENDIX D
Judgment in a Civil Case, Smith v. E.K. McDaniel, et al.,
United States District Court of Nevada, Case No. 2:07cv-00318-JCM-CWH (Mar. 13, 2014)

App. 128

Case 2:07-cv-00318-JCM-CWH Document 176 Filed 03/13/14 Page 1 of 1
2AO450 (Rev. 5/85) Judgment in a Civil Case

UNITED STATES DISTRICT COURT
Nevada

DISTRICT OF
Joseph Weldon Smith,

JUDGMENT IN A CIVIL CASE

Petitioner,

V.
Case Number: 2:07-cv-00318-JCM-CWH

E.K. McDaniel, et al.,
Respondents.

n Jury Verdict. This action came before the Court for a trial by jury. The issues have been tried and the jury has

d

d rendered its verdict.
~ Decision by Court. This action came to trial or hearing before the Court. The issues have been tried or heard and a

d decision has been rendered.
Notice of Acceptance with Offer of Judgment. A notice of acceptance with offer of judgment has been filed in this
d case.
IT IS ORDERED AND ADJUDGED
that Judgment is entered in favor of Respondents Catherine Cortez Masto and Renee Baker and against Petitioner
Joseph Weldon Smith. IT IS FURTHER ORDERED that a Certificate of Appealability is DENIED.

March 13, 2014
Date

/s/ Lance S. Wilson
Clerk

/s/ Ari Caytuero
(By) Deputy Clerk

App. 129

APPENDIX E
Order denying Petitioner's Petition for Writ of Habeas
Corpus, Smith v. Baker, et al., United States District
Court of Nevada, Case No. 2:07cv-00318-JCM-CWH (Mar. 13, 2014)

App. 130

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 1 of 32

1
2
3
4
5
6

UNITED STATES DISTRICT COURT

7

DISTRICT OF NEVADA

8
9
JOSEPH WELDON SMITH,
10
Petitioner,
11
vs.
12
RENEE BAKER, et al.,
13
Respondents.
14
15

)
)
)
)
)
)
)
)
)
/

2:07-CV-00318-JCM-CWH
ORDER

Before the court for a decision on the merits is an application for a writ of habeas corpus filed

16 by Joseph Weldon Smith, a Nevada prisoner sentenced to death. ECF No. 40.
17

I. FACTUAL AND PROCEDURAL HISTORY

18

On December 11, 1992, Smith was convicted of three counts of murder with the use of a

19 deadly weapon, and one count of attempted murder with the use of a deadly weapon. The convictions
20 were pursuant to jury verdicts in the Eighth Judicial District Court, Clark County, Nevada. The facts
21 of Smith’s case are recounted in Nevada Supreme Court’s decision on Smith’s initial direct appeal:
22
23
24
25
26

During the trial Michael Hull, a police officer for the City of Henderson,
testified as follows: On Saturday, October 6, 1990, at approximately 2:29 a.m., he was
dispatched to the Fountains, a gated community in Henderson. While on his way, Hull
was flagged down by a man who subsequently identified himself as Frank Allen.
Allen appeared frantic and Hull observed blood on his shirt and blood running down
the left side of his head. Allen told Hull that Smith had attacked him with a hammer
or a hatchet.
After arriving at the Smiths' home, located at 2205 Versailles Court inside the
gated community, Hull and two other officers observed a large broken window laying

App. 131

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 2 of 32

1
2
3
4

on the front porch outside the house. Allen had explained to the officers that he had
left through that window. The officers entered the premises and, during a search of a
bedroom, observed what appeared to be a figure beneath a blanket. After lifting the
blanket, they discovered a dead body, subsequently identified as twelve-year-old Kristy
Cox. In an adjacent bedroom they discovered a second body, also dead and covered
with a blanket, later identified as twenty-year-old Wendy Cox. Under a blanket in the
master bed, the officers found a third victim, Kristy and Wendy's mother and Smith's
wife, Judith.

5
6
7
8
9
10
11

The officers also located some notes written by Smith. The first, found inside a
briefcase in the upstairs den, and dated October 5, 1990, read:
A triple murder was committed here this morning. My wife, Judith Smith and
my two stepdaughters, Wendy Cox and Kristy Cox, were assassinated. I know
who did it. I know who sent them. I had been warned that this would happen
if I did not pay a large sum of money to certain people. I have been owing it
for a long time and simply could not come up with it. And I didn't believe the
threat. I don't need any help from the police in this matter. I will take care of it
myself. They will have to kill me, too. When and if you find me, I'm sure I
will be dead, but that's okay. I already killed one of the murderers. And I am
going to get the others and the man who I know sent them. There were three in
all. You will probably find my body within a day or two.

12
Thank you, Joe Smith.
13
14

P.S.: I thought I had gotten away when we moved here, but it didn't work.
When we moved, we were being watched. If I am successful in my task at
hand, I will turn myself into (sic) the police.

15
16

The second letter stated, “Frank [Allen], look in the locked room upstairs for your
package. The key is on the wet bar. Joe.”

17
18
19
20

Dr. Giles Sheldon Green, Chief Medical Examiner for Clark County, testified
that he performed the autopsies on the bodies of the three victims. Green stated that all
three victims died from asphyxia due to manual strangulation. He also opined that the
pattern of injuries found on the three victims could have been inflicted with a
carpenter's hammer. On Kristy, Green observed three blunt lacerations to the scalp and
a lot of blood in Kristy's hair, some bruising and a scratch on her neck, and substantial
hemorrhaging as a result of the trauma to her scalp.

21
22
23
24
25

On Wendy, Green observed several “quite ragged, irregular, deep lacerations of
the forehead,” and at least six or seven wounds of the face. There were a total of
thirty-two head lacerations, some of which were patterned injuries of pairs of
penetrating wounds of the scalp tissue. On the left side of Wendy's head, a large
laceration inside the ear almost cut the outer ear in two. Green found numerous
scratches and abrasions on the front of Wendy's neck, as well as defensive wounds,
such as a fractured finger, bruises on the backs of her hands and a finger with the skin
over the knuckle knocked away. Green found areas in which the various head impacts
had created depressed fractures of the outer and inner surfaces of the skull. There was

26
2

App. 132

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 3 of 32

1

also a great deal of hemorrhaging and damage to the soft tissues of Wendy's neck.

2

On Judith, Green found lacerations of the forehead and above her right
eyebrow, abrasions and scratches on the front of her neck and a cluster of at least five
lacerations of the scalp, mainly on the right side of the back of the head. It was Green's
opinion that the five lacerations were inflicted after death.

3
4
5
6
7
8

Allen testified as follows: He met Smith in September 1990, when Smith came
to Allen's home located at 2205 Versailles Court, inside the Fountains, wishing to
purchase that home. Although Allen first indicated that the house was not for sale,
after Smith agreed to pay $50,000 over the appraised value of $650,000, Allen agreed
to sell him the house. Allen subsequently gave Smith the keys to the house, but
retained one of the bedrooms for his use when he came to Las Vegas on weekends,
until the sale was final. Smith informed Allen that he was in a rush to move into the
house because he wanted to make preparations for his step-daughter, Wendy's,
wedding in November.

9
10
11
12
13
14
15

On September 21, 1990, Smith gave Allen a personal check for $35,000 as a
good faith deposit. Approximately six days later, the bank notified Allen that the
check had been returned because Smith had closed his account. Smith assured Allen
that he would mail him a certified check immediately. Two days later, having not
received a check, Allen indicated to Smith that he would be coming to Las Vegas on
Friday, October 5, 1990, and would pick up the check then.
On Friday morning, Allen received a call from Smith who stated, “I thought
you were coming up here this morning.” Allen told Smith that he would be coming
later in the day. Smith stated that he and his wife were going to California to shop for
furniture that day, so they arranged for Smith to leave two checks, the $35,000 deposit
check and a $3,338.80 check for the October mortgage payment, behind the wet bar in
the house, along with Allen's mail.

16
17
18
19
20
21
22
23
24
25

Allen arrived at the house between 1:00 a.m. and 1:30 a.m. on Saturday,
October 6, 1990, and noticed that the security system was off. He went behind the wet
bar to retrieve his mail and found the note from Smith telling him to look in the locked
room upstairs for the package. Allen went to that room and, not finding any checks,
went into the game room. Although the light was not on in the game room, the area
was illuminated by a large chandelier in the hallway.
In the game room, Allen saw Smith crouched in the closet. Smith then jumped
out and began to pound Allen in the head with an object, which Allen assumed was a
hammer. Allen asked Smith what he was trying to do, but Smith did not say anything.
Realizing that Smith was trying to kill him, Allen said, “You're not going to get away
with this,” and pushed Smith backward and ran down the stairway with Smith
pursuing him. Allen tried to figure out the best way to get out of the house, and after
realizing that he had locked himself in, ran straight through the full-length,
leaded-glass front door. He then got into his car and drove to the guard shack at the
entrance to the development and asked the guard to call the police.
Eric Lau, the security guard then on duty at the guard-gated entrance to the
Fountains, testified that at approximately 2:30 a.m. on Saturday, October 6, 1990,

26
3

App. 133

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 4 of 32

1
2

Allen ran up to the side of the guard house and pounded on the window. Allen's shirt
was covered with blood and he said, “He's after me! He's after me!” Lau immediately
called for help and then saw Smith's Lincoln automobile exit the Fountains, with Smith
behind the wheel.

3
4
5
6
7
8
9

Yolanda Cook, Judith's daughter-in-law, testified that on the morning of
Friday, October 5, 1990, at 8:00 a.m., she called the Smiths' house to see if someone
could take her son to school. She spoke with Smith, who told her that he had to go to a
meeting and that Judith, Wendy and Kristy had gone shopping for Wendy's wedding.
Between 9:00 a.m. and 3:30 p.m., Yolanda called the Smiths' house three more times,
and each time Smith told her that Judith and her daughters were away.
Yolanda further testified that on Saturday, October 6, 1990, at approximately
5:00 a.m., Smith called her and told her of the three murders. He told her that Allen
came into the house and bludgeoned them to death. Smith requested that she tell all of
Judith's other children and then go to the house and get the letters out of his briefcase
explaining what happened. He then told her that he was going to kill himself and hung
up the phone.

10
11
12
13
14
15
16
17
18

William Lawrence Cook, one of Judith's sons, testified that Smith had
expressed concern and irritation over financial obligations such as Wendy's pending
wedding and the new house. William testified that Smith would often refer to himself
as the “Lone Wolf” and say, “I gotta get outta here.” Sometimes Smith would say that
he just wanted to go away and live on an island somewhere “around no kind of family
or nothing like that.” William also remembered Smith telling him that “the worse
thing to f___ up a man was to have a family.” Smith made these statements during a
collection of conversations over a period of years.
Smith took the stand on his own behalf and testified as follows: In 1986 he
encountered financial difficulties and agreed to accept a drug dealing opportunity in
Los Angeles with an organization. That same year, Smith moved to Las Vegas and
continued working for the organization. At some point, the organization falsely
accused Smith of stealing cocaine and told Smith that he now owed the organization a
big debt. Smith quit working for the organization and in 1989 Gino, a man from the
organization, found Smith and reminded him of the debt, saying that “it had to be paid
or else they were going to give [him] a fate worse than death.”

19
20
21
22
23

He resumed working for the organization, and also began to look for a new
house in a gated community. He found the house at the Fountains and arranged
payment terms with Allen, which included giving Allen eleven kilograms of cocaine in
exchange for the equity in the house. The eleven kilograms were part of a twenty
kilogram shipment which Smith had received from the organization and had decided to
keep for himself. Smith gave Allen ten kilograms of cocaine, worth approximately
$200,000, on the same day that he gave Allen the $35,000 check. He claimed that
Allen knew that the check was no good and served only to make the transaction seem
legitimate, and said he would not deposit it.

24
25

On Thursday, October 4, 1990, Smith left the additional kilogram of cocaine
owed Allen in Allen's bathroom sink, upstairs where Allen stayed when he was in
town for weekends. That same day, Smith told the organization that he had sold

26
4

App. 134

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 5 of 32

1

twenty kilograms of cocaine and was keeping the money because he was “tired of
working for peanuts.”

2
3
4
5

Between 2:00 a.m. and 3:00 a.m. on the morning of Friday, October 5, while he
was in bed with Judith, he was awakened by a tap on his toe. He then saw three men
standing over his bed, one of whom picked up a hammer Smith had been using the
previous night and began slapping it in his hand and asking Smith where the “stuff”
was. Another man, who had a sawed-off shotgun, forced Smith to go into the game
room and made him lay down and stay there. Smith subsequently discovered that his
family had been killed.

6
7
8
9
10
11
12
13
14
15
16
17
18

On Friday, after the murders, he remembered receiving three phone calls from
Yolanda. He stated that “I brushed her off like I had other things to do, a meeting I
had to attend . . . I really needed some time to sort this out. There was too many loose
ends that I didn't have answers to.” Smith stated that he did not go to the police
because he would have to tell them about the drugs and because it looked like he
committed the crime and he knew they would put him in jail. He stated that he was
also trying to figure out if Allen might have been involved in the murders and might
have provided the killers with keys to the house. He called Allen that Friday morning
to see if he could find out from Allen's voice if Allen was involved in the murders.
After the phone call, he decided that Allen was not involved.
At approximately 4:00 p.m. on Friday, Smith took some sleeping pills and lay
down on the game room floor by the closet. Early Saturday morning, he awoke to the
sounds of someone coming into the game room. He thought that the killers had
returned and began swinging the hammer at a man. He did not know it was Allen
because it was dark and Allen did not say anything during the attack.
Six months after the murders, Smith was arrested in California. When he was
arrested, evidence was seized which indicated that he was attempting to change his
identity. Smith was charged with three counts of murder with use of a deadly weapon
and one count of attempted murder with use of a deadly weapon. He was convicted of
all four counts and sentenced to death for the murders of Kristy and Wendy, life
without possibility of parole for Judith's murder and to two consecutive twenty-year
terms for the attempted murder of Allen with use of a deadly weapon.

19 Smith v. State, 881 P.2d 649, 650-53 (Nev. 1994).
20

The Nevada Supreme Court affirmed the convictions but vacated the deadly weapon

21 enhancement. Id. at 654. The state supreme court also vacated the death sentences and remanded for
22 a new punishment trial. Id. at 655-56.
23

On April 18, 1996, a jury again sentenced Smith to death for the murders of Wendy and Kristy

24 Cox. On appeal, the Nevada Supreme Court vacated the death sentence as to the murder of Kristy
25 (replacing it with a life sentence without the possibility of parole), but affirmed the death sentence for
26
5

App. 135

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 6 of 32

1 the murder of Wendy. Smith v. State, 953 P.2d 264 (Nev. 1998). The Nevada Supreme Court denied
2 Smith’s petition for rehearing and issued its remittitur on March 31, 1998. On May 20, 1998, Smith
3 was sentenced by the lower court in accordance with the state supreme court’s remand.
4

On August 11, 1998, Smith filed, pro se, a state habeas petition in the Eighth Judicial District

5 Court, Clark County. Having been appointed counsel, he filed an amended petition on September 21,
6 1999. On July 15, 2003, he filed supplemental points and authorities in support of his petition. On
7 January 5, 2005, Smith filed a supplemental brief in support of his petition. The Eighth Judicial
8 District Court denied relief on April 25, 2005. Smith appealed. On September 29, 2006, the Nevada
9 Supreme Court affirmed the lower court in an unpublished order. The Nevada Supreme Court denied
10 rehearing on November 29, 2006.
11

On March 13, 2007, Smith initiated this action by filing, pro se, a federal petition for writ

12 of habeas corpus. ECF No. 1. Represented by the Federal Public Defender’s office (FPD), Smith
13 filed his first amended petition in this court on October 9, 2007. ECF No. 40. On February 28, 2008,
14 this court granted a stipulation to stay the proceedings and hold them in abeyance pending Smith’s
15 exhaustion of state remedies. ECF No. 53.
16

On April 2, 2009, the FPD was relieved as counsel for Smith. ECF No. 79. Mario Valencia

17 was appointed as counsel on June 29, 2009. ECF No. 85. On February 9, 2011, this court granted
18 Smith’s motion to lift the stay and reopen the proceedings. ECF No. 98. On April 4, 2011, the State
19 filed a motion to dismiss in which they argued that numerous claims in the petition should be
20 dismissed under the doctrine of procedural default or for failure to state a federal claim for relief.
21 ECF No. 118. Pursuant to that motion, this court dismissed several claims from the first amended
22 petition. ECF No. 165. Claims One, Two, Six through Eight, Ten through Fifteen, and Thirty remain
23 before the court for a decision on the merits.
24

II. STANDARDS OF REVIEW

25

This action is governed by the Antiterrorism and Effective Death Penalty Act (AEDPA). 28

26
6

App. 136

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 7 of 32

1 U.S.C. § 2254(d) sets forth the standard of review under AEDPA:.
2
3

An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to any claim
that was adjudicated on the merits in State court proceedings unless the adjudication of
the claim –

4
5

(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court of
the United States; or

6
7

(2) resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.

8 28 U.S.C. § 2254(d).
9

A decision of a state court is “contrary to” clearly established federal law if the state court

10 arrives at a conclusion opposite that reached by the Supreme Court on a question of law or if the state
11 court decides a case differently than the Supreme Court has on a set of materially indistinguishable
12 facts. Williams v. Taylor, 529 U.S. 362, 405–06 (2000). An “unreasonable application” occurs when
13 “a state-court decision unreasonably applies the law of [the Supreme Court] to the facts of a
14 prisoner’s case.” Id. at 409. “[A] federal habeas court may not “issue the writ simply because that
15 court concludes in its independent judgment that the relevant state-court decision applied clearly
16 established federal law erroneously or incorrectly.” Id. at 411.
17

The Supreme Court has explained that “[a] federal court’s collateral review of a state-court

18 decision must be consistent with the respect due state courts in our federal system.” Miller–El v.
19 Cockrell, 537 U.S. 322, 340 (2003). The “AEDPA thus imposes a ‘highly deferential standard for
20 evaluating state-court rulings,’ and ‘demands that state-court decisions be given the benefit of the
21 doubt.’” Renico v. Lett, 559 U.S. 766, 773 (2010) (quoting Lindh v. Murphy, 521 U.S. 320, 333, n. 7
22 (1997); Woodford v. Viscotti, 537 U.S. 19, 24 (2002) (per curiam)). “A state court’s determination
23 that a claim lacks merit precludes federal habeas relief so long as ‘fairminded jurists could disagree’
24 on the correctness of the state court's decision.” Harrington v. Richter, 131 S.Ct. 770, 786 (2011)
25 (citing Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)). The Supreme Court has emphasized
26
7

App. 137

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 8 of 32

1 “that even a strong case for relief does not mean the state court’s contrary conclusion was
2 unreasonable.” Id. (citing Lockyer v. Andrade, 538 U.S. 63, 75 (2003)); see also Cullen v. Pinholster,
3 131 S.Ct.1388, 1398 (2011) (describing the AEDPA standard as “a difficult to meet and highly
4 deferential standard for evaluating state-court rulings, which demands that state-court decisions be
5 given the benefit of the doubt”) (internal quotation marks and citations omitted).
6

“[R]eview under § 2254(d)(1) is limited to the record that was before the state court that

7 adjudicated the claim on the merits.” Pinholster, 131 S.Ct. at 1398. In Pinholster, the Court reasoned
8 that the “backward-looking language” present in § 2254(d)(1) “requires an examination of the
9 state-court decision at the time it was made,” and, therefore, the record under review must be “limited
10 to the record in existence at that same time, i.e., the record before the state court.” Id.
11

For any habeas claim that has not been adjudicated on the merits by the state court, the federal

12 court reviews the claim de novo without the deference usually accorded state courts under 28 U.S.C. §
13 2254(d)(1). Chaker v. Crogan, 428 F.3d 1215, 1221 (9th Cir. 2005); Pirtle v. Morgan, 313 F.3d 1160,
14 1167 (9th Cir. 2002). See also James v. Schriro, 659 F.3d 855, 876 (9th Cir. 2011) (noting that federal
15 court review is de novo where a state court does not reach the merits, but instead denies relief based
16 on a procedural bar later held inadequate to foreclose federal habeas review). In such instances,
17 however, the provisions of 28 U.S.C. § 2254(e) still apply. Pinholster, 131 S.Ct at 1401 (“Section
18 2254(e)(2) continues to have force where § 2254(d)(1) does not bar federal habeas relief.”); Pirtle,
19 313 F.3d at 1167-68 (stating that state court findings of fact are presumed correct under § 2254(e)(1)
20 even if legal review is de novo).
21

Lastly, the Court in Lockyer rejected a Ninth Circuit mandate for habeas courts to review

22 habeas claims by conducting a de novo review prior to applying the “contrary to or unreasonable
23 application of” limitations of 28 U.S.C. § 2254(d)(1). Lockyer, 538 U.S. at 71. In doing so, however,
24 the Court did not preclude such an approach. “AEDPA does not require a federal habeas court to
25 adopt any one methodology in deciding the only question that matters under § 2254(d)(1) – whether a
26
8

App. 138

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 9 of 32

1 state court decision is contrary to, or involved an unreasonable application of, clearly established
2 Federal law.” Id.
3

III. ANALYSIS OF CLAIMS

4

Claims One and Two

5

In Claim One, Smith contends that his constitutional rights were violated because the Nevada

6 courts lacked jurisdiction to adjudicate the criminal proceeding that resulted in his convictions and
7 sentences. In Claim Two, he contends that the prosecutors and the Nevada courts failed to follow the
8 relevant state statute that vested the trial court with jurisdiction. Both of these claims are premised on
9 the factual allegation that the State did not file a criminal complaint prior to Smith’s preliminary
10 examination.
11

Smith exhausted the claims by presenting them to the Nevada Supreme Court in his first

12 post-conviction proceeding. ECF No. 111-12, p. 8-10, 37-38.1 In his opening brief, Smith argued
13 that, under state law, the absence of a criminal complaint on file means that the warrant for his arrest
14 was invalid, that the state justice court lacked jurisdiction to conduct a preliminary hearing and bind
15 him over to the district court for trial, and, consequently, that the district court never acquired
16 jurisdiction to adjudicate his case. ECF No. 111-10, p. 19-25. In his reply brief, Smith claimed that,
17 due to the state court’s lack of jurisdiction, his convictions violate the Fifth, Sixth, and Fourteenth
18 Amendments of the Unites States Constitution. ECF No. 111-12, p. 8-10.
19

The Nevada Supreme Court denied relief on two grounds. First, the court held that any

20 challenge to the arrest warrant or the jurisdiction of the justice court should have been raised prior to
21 trial. ECF No. 111-12, p. 37-38. Second, the court concluded “that Smith had failed to show that the
22 warrant was infirm or that the justice of the peace who issued it lacked the authority to do so.” Id.
23

The absence of a reference to federal law in the Nevada Supreme Court’s decision does not

24
25

1

Citations to page numbers for electronically filed documents are based on the CM/ECF
pagination.

26
9

App. 139

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 10 of 32

1 necessarily mean that the deferential standards imposed by § 2254(d) do not apply here. See Richter,
2 131 S.Ct. at 784. Even considered de novo, however, neither Claim One nor Claim Two is a ground
3 for granting Smith relief.
4

With respect to Claim One, the Nevada Supreme Court was satisfied that the trial court had

5 jurisdiction under Nevada law to adjudicate Smith’s case. As stated by the Supreme Court in Estelle
6 v. McGuire, 502 U.S. 62 (1991), “it is not the province of a federal habeas court to reexamine state
7 court determinations on state law questions.” 502 U.S. at 67-68. Determinations regarding
8 jurisdiction are not an exception to this general rule. Poe v. Caspari, 39 F.3d 204, 207 (8th Cir. 1994);
9 see also Wills v. Egeler, 532 F.2d 1058, 1059 (6th Cir. 1976) (“Determination of whether a state court
10 is vested with jurisdiction under state law is a function of the state courts, not the federal judiciary.”).
11

As for Claim Two, a habeas petitioner may not transform a state law issue into a federal one

12 merely by asserting a due process violation. Langford v. Day, 110 F.3d 1380, 1389 (9th Cir. 1996).
13 At a minimum, Smith needs to show that the alleged failure to follow state procedures resulted in the
14 deprivation of a substantive right. See Moran v. Godinez, 57 F.3d 690, 695 (9th Cir. 1994) (“Only the
15 denial or misapplication of state procedures that results in the deprivation of a substantive right will
16 implicate a federally recognized liberty interest.”). While Smith claims that he had “a state-created,
17 constitutionally protected liberty interest in the fair administration of state procedures governing
18 charging and arresting those suspected of committing felonies” (ECF No. 168, p. 59), he fails to
19 explain how the procedures in his case resulted in unfairness. “Process is not an end in itself;” and
20 “an expectation of receiving process is not, without more, a liberty interest protected by the Due
21 Process Clause.” Olim v. Wakinekona, 461 U.S. 238, 251 n. 12 (1983).
22
23
24

Claims One and Two are denied.
Claim Six
In Claim Six, Smith claims that he was denied his constitutional rights because the trial court

25 failed to inquire into his competence. According to Smith, the trial court was constitutionally
26
10

App. 140

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 11 of 32

1 required to make a sua sponte inquiry into his competence to stand trial after Smith “had an outburst
2 in the courtroom, threw newspaper articles in the direction of the jury, and refused to further
3 participate in his trial.” ECF No. 40, p. 50.
4

In Pate v. Robinson, 383 U.S. 375 (1966), the Supreme Court held that, where evidence had

5 been presented raising a doubt as to defendant’s competence to stand trial, the state trial court violated
6 the defendant’s constitutional right to a fair trial by not conducting a hearing on the issue. Id. at 385.
7 The Ninth Circuit has interpreted Pate as requiring a trial judge to conduct a competency hearing
8 whenever the evidence before him raises a bona fide doubt about the defendant's competence to stand
9 trial, even if defense counsel does not ask for one. See De Kaplany v. Enomoto, 540 F.2d 975, 979
10 (9th Cir. 1976) (en banc). "A bona fide doubt exists if there is substantial evidence of incompetence,
11 or substantial evidence that the defendant lacks sufficient present ability to consult with his lawyer
12 with a reasonable degree of rational understanding or a rational as well as factual understanding of the
13 proceedings against him." Williams v. Woodford, 384 F.3d 567, 604 (9th Cir.2004) (internal
14 quotation marks and citations omitted).
15

In his first state post-conviction proceeding, Smith argued to the Nevada Supreme Court that

16 trial counsel was ineffective in failing to request a competency hearing at Smith’s trial. ECF No.
17 111-12, p. 12-13. The Nevada Supreme Court rejected the claim, stating that “[n]othing in the
18 transcripts or Smith’s submissions to this court suggests incompetence or that his counsel should have
19 questioned his competence.” Id., p. 35.
20

Given that Smith presented the competency issue in the context of alleging ineffective

21 assistance of counsel, the Nevada Supreme Court understandably did not cite to Pate. Even so, the
22 state court’s factual finding as to the lack of evidence of Smith’s alleged incompetence is presumed
23 correct absent clear and convincing evidence to the contrary. 28 U.S.C. § 2254(e)(1); see also Davis
24 v. Woodford, 384 F.3d 628, 644 (9th Cir. 2004) (noting that the state trial and appellate courts' findings
25 that the evidence did not require a competency hearing under Pate are findings of fact to which we
26
11

App. 141

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 12 of 32

1 must defer unless they are ‘unreasonable’ within the meaning of 28 U.S.C. § 2254(d)(2)).
2

In Davis, the court of appeals concluded that the trial judge did not err in declining to hold a

3 competency hearing even though the defendant, against counsel’s advice, decided to not wear civilian
4 clothes and to remain in the doorway of the courtroom rather than face the prosecution witnesses.
5 384 F.3d at 645-46. This case is similar in that Smith’s conduct in the courtroom, while obviously
6 inappropriate, was not necessarily a reason for the trial judge to question whether Smith was able to
7 consult with his lawyer with a reasonable degree of rational understanding or whether he possessed a
8 rational as well as factual understanding of the proceedings against him. Accordingly, Smith is not
9 entitled to relief under Claim Six.
10
11

Claim Seven
In Claim Seven, Smith claims that he was denied his constitutional right to effective assistance

12 of counsel because his trial counsel did not request a competency hearing prior to Smith’s second
13 penalty phase hearing. In addition to the outburst mentioned above, other factors Smith points to as
14 reasons for counsel to request a competency hearing are Smith’s refusal to cooperate with new
15 counsel after his death sentences were reversed, allegations he made that new counsel was involved in
16 a conspiracy with the state court judge presiding over his second penalty phase hearing, and a lawsuit
17 he filed against the district attorney.
18

In Strickland v. Washington, 466 U.S. 668 (1984), the Supreme Court propounded a two

19 prong test for analysis of claims of ineffective assistance of counsel: a petitioner claiming ineffective
20 assistance of counsel must demonstrate (1) that the defense attorney’s representation “fell below an
21 objective standard of reasonableness,” and (2) that the attorney’s deficient performance prejudiced the
22 defendant such that “there is a reasonable probability that, but for counsel’s unprofessional errors, the
23 result of the proceeding would have been different.” Strickland, 466 U.S. at 688, 694.
24

As noted above, this claim was presented to, and rejected by, the Nevada Supreme Court in

25 his first state post-conviction proceeding. ECF No. 111-12, pp. 12-13, 35. Smith claims that the
26
12

App. 142

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 13 of 32

1 Nevada Supreme Court’s decision was an unreasonable application of federal law and was based on
2 an unreasonable determination of the facts in light of evidence presented to the state court, but his
3 supporting argument consists of little more than citing Smith’s various actions and asserting either
4 that they “do not reflect a rational understanding of the proceedings” or that they “do not reflect the
5 ability to consult with counsel.” ECF No. 168, p. 49-50. What is missing is credible evidence that
6 Smith lacked the capacity to either consult with his lawyers with a reasonable degree of rational
7 understanding or understand the nature of the proceedings against him. See Godinez v. Moran, 509
8 U.S. 389, 402 (1993) (noting that the competency requirement “has a modest aim: It seeks to ensure
9 that [the defendant] has the capacity to understand the proceedings and to assist counsel”); see also
10 Dennis v. Budge, 378 F.3d 880 (9th Cir. 2004) (“The question . . . is not whether mental illness
11 substantially affects a decision, but whether a mental disease, disorder or defect substantially affects
12 the prisoner's capacity to appreciate his options and make a rational choice among them.).
13

Even setting aside the limitation on new evidence mandated by Pinholster, Smith has not

14 established that he was prejudiced by his counsel’s failure to request a competency hearing. In an
15 attempt to show prejudice, Smith proffers the opinion of Dr. Richard Dudley, a forensic psychiatrist
16 who evaluated Smith in 2007, more than ten years after his second penalty phase hearing. ECF No.
17 168, p. 50. Dr. Dudley noted that, despite being extremely bright, Smith exhibited paranoid and
18 grandiose thinking that compromised his decision-making capabilities and judgment. ECF No. 40-4,
19 p. 248. He also noted that Smith’s paranoid thinking and grandiosity can elevate to the point that
20 Smith “evidences specific paranoid and grandiose delusions.” Id. Nowhere in his report, however,
21 does Dr. Dudley indicate that Smith failed, at any point, to meet the standard for competence to stand
22 trial. Claim Seven is denied.
23
24

Claim Eight
In Claim Eight, Smith challenges the constitutionality of the trial court’s instructions to the

25 jury regarding depravity of mind, torture, and mutilation, as an aggravating circumstance. At Smith’s
26
13

App. 143

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 14 of 32

1 second penalty hearing, the only aggravating circumstance alleged by the State as to the murders of
2 Wendy Cox and Kristy Cox was that the murders involved “torture, depravity of mind, or the
3 mutilation of the victim.”2 Prior to jury deliberation, the trial court determined that there was
4 insufficient evidence to support a finding of torture or mutilation with respect the murder of Kristy
5 and, therefore, eliminated those grounds as a potential aggravating factor. ECF No. 109-5, p. 34-41.
6 Thus, the jury was instructed as follows:
7

You are instructed that the following factors are circumstances by which Murder of the
First Degree may be aggravated:

8
The murder involved torture, depravity of mind, or the mutilation of the victim.
9
The State is alleging depravity of mind in the murder of Kristy Cox.
10
11

The State is alleging torture or depravity of mind or mutilation in the murder of Wendy
Cox.

12 ECF No. 109-6, p. 9.
13

The jury found that the murder of Kristy involved depravity of mind, but the Nevada Supreme

14 Court subsequently concluded that the court’s jury instruction defining the term “failed to properly
15 channel the jury’s discretion” and vacated the death sentence on that basis. Smith, 953 P.2d at 267.
16 With respect to the murder of Wendy, the jury returned a special verdict form on which it indicated
17 that it had found that the murder had involved both depravity of mind and mutilation. ECF No. 10918 6, p. 28. Smith argues that the aggravating circumstance with respect to Wendy’s murder is
19 constitutionally infirm because the depravity of mind factor is invalid and there is no way to know for
20 sure that the jury was unanimous as to the mutilation factor.
21

This court does not agree. The trial court instructed the jury that, in order to find depravity of

22 mind, it must find serious and depraved physical abuse beyond the act itself. Id., p. 12. The Nevada
23 Supreme Court concluded that the instruction was lacking because it did not require a finding of
24
25

2

The statute that supplied this aggravating factor, Nev. Rev. Stat. 200.033(8), was amended in
1995, deleting the language of "depravity of mind." 1995 Nev. Stat., ch. 467, §§ 1-3, at 1490-91.

26
14

App. 144

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 15 of 32

1 torture or mutilation beyond the act of killing itself. Smith, 953 P.3d 267. In both Ybarra v.
2 McDaniel, 656 F.3d 984, 995 n. 6 (9th Cir. 2011) and Valerio v. Crawford, 306 F.3d 742, 752, 762 (9th
3 Cir. 2002), however, the Ninth Circuit accepted that the same instruction in those respective cases
4 was constitutional. Moreover, respondents correctly point out that no federal court has required that,
5 as a matter of federal law, the jury must be unanimous in finding one of the three component parts of
6 the aggravating circumstance – i.e., torture, mutilation, or depravity mind.3
7

Even if the Nevada court erred, as a matter of federal law, in instructing the jury on the

8 aggravating circumstance, habeas relief is not warranted because the error was harmless. The
9 appropriate harmless error standard in this context is the one set forth in Brecht v. Abrahamson, 507
10 U.S. 619 (1993). Ybarra, 656 F.3d at 995; Valerio, 306 F.3d at 762. Under Brecht, the question is
11 “whether, in light of the record as a whole,” the error “had substantial and injurious effect or influence
12 in determining the jury's verdict.” Brecht, 507 U.S. at 638. Following the approach in Ybarra and
13 Valerio, this court assesses whether the challenged instructions “had a substantial and injurious effect
14 or influence on the jury's decision to impose the death sentence, in comparison to what its decision
15 would have been had it been instructed on a constitutionally narrowed version of the [aggravating]
16 factor.” Ybarra, 656 F.3d at 995.
17

Based on the state court record, there is a “fair assurance” (id. at 996) that the jury would have

18 imposed the death sentence based on the mutilation factor alone. The jury was instructed that, to find
19 mutilation, it must find that there was mutilation “beyond that act of killing itself” and that “the term
20 ‘mutilate’ means to cut off or permanently destroy a limb or essential part of the body or to cut off or
21 alter radically so as to make imperfect.” ECF No. 109-6, p. 12-13. Evidence presented at the second
22
3

23
24

Smith’s citation to Stromberg v. California, 283 U.S. 359 (1931), is unavailing. In that case,
the Supreme Court set aside a conviction arising from a jury verdict that did not specify which of three
clauses in a criminal statute it rested upon and one of those clauses was indisputably invalid under the
Federal Constitution. 283 U.S. at 368-69. Here, the jury did specify which grounds it relied upon to find
the aggravating circumstance; and, Smith has not established that either is unconstitutional.

25
26
15

App. 145

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 16 of 32

1 penalty hearing established that strangulation was the cause of Wendy’s death.

ECF No. 109-4, p.

2 25. If further established Smith struck Wendy in the head with a claw hammer at least 16 times prior
3 to strangling her, that her skull was fractured in several places, and that her ear was nearly cut in two.
4 Id., pp. 21-30, 39-40.
5

Given that the jury was instructed that it must be unanimous in its finding as to the

6 aggravating circumstance, the special verdict form, on which depravity of mind and mutilation were
7 individually checkmarked, is a strong indication that all the jurors found that the murder involved
8 mutilation. ECF No. 109-6, pp. 16; 28. Moreover, it is almost certain that, even with the depravity of
9 mind factor stripped away, the jury would have nonetheless imposed the death sentence inasmuch as a
10 finding of mutilation subsumes or exceeds in gravity a finding of “serious and depraved physical
11 abuse.” See Smith, 953 P.3d at 267 (noting that the trial judge “may have implicitly decided that
12 ‘serious and depraved physical abuse’ involved less physical abuse than torture or mutilation”).
13 Smith is not entitled to habeas relief based on Claim Eight.
14
15

Claim Ten
In Claim Ten, Smith claims that his constitutional rights were violated by virtue of the trial

16 court’s jury instruction on mutilation as an aggravating circumstance and the fact that no rational juror
17 could have found mutilation beyond the act of killing itself. According to Smith, the jury instruction
18 defining mutilation (discussed above) is overbroad because it does not include and element of intent
19 and, under the definition, “every murderer is death eligible because every murderer has rendered his
20 victim’s body imperfect.” ECF No. 168, p. 31.
21

In Godfrey v. Georgia, the Supreme Court considered an aggravating circumstance instruction

22 that allowed for the death penalty if the jury found that the murder was “‘outrageously or wantonly
23 vile, horrible or inhuman in that it involved torture, depravity of mind, or an aggravated battery to the
24 victim.’” 446 U.S. 420, 422 (1980) (quoting Georgia statute). The Court held that the instruction
25 was unconstitutional as applied in that case because it resulted in “standardless and unchanneled
26
16

App. 146

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 17 of 32

1 imposition of death sentences in the uncontrolled discretion of a basically uninstructed jury.” Id. at
2 429. The Court further held that the Georgia Supreme Court failed to cure the defect because it did
3 not apply a constitutional construction of the statutory language in affirming the death sentences on
4 appeal. Id. at 432-33.
As explained in Tuilaepa v. California, the Supreme Court has found very few aggravating

5

6 factors to be impermissibly vague and all of those have been similar to each other. 512 U.S. 967,
7 973-74 (1994) (citing to Godfrey and Maynard v. Cartwright, 486 U.S. 356, 361-364 (1988) as
8 examples, the latter of which addressed an aggravating circumstance that asked whether the murder
9 was “especially heinous, atrocious, or cruel”).4 An aggravating factor withstands a constitutional
10 challenge if it has some “common sense core of meaning . . . that criminal juries should be capable
11 of understanding.” Id. at 973 (quoting Jurek v. Texas, 428 U.S. 262, 279 (1976)). However, to be
12 constitutional, an aggravating circumstance must “not apply to every defendant convicted of a
13 murder; it must apply only to a subclass of defendants convicted of murder.” Tuilaepa, 512 U.S. at
14 972; see also Arave v. Creech, 507 U.S. 463, 474 (1993) (“If the sentencer fairly could conclude that
15 an aggravating circumstance applies to every defendant eligible for the death penalty, the
16 circumstance is constitutionally infirm.”).
17

In deciding this claim on appeal from Smith’s second penalty hearing, Nevada Supreme Court

18 stated:
19
20
21

Smith contends that the jury instruction regarding mutilation was
unconstitutionally vague and ambiguous. Smith further contends that because the
medical examiner testified that Wendy's external injuries occurred at about the same
time as her death and that the blows to her head could have rendered her unconscious,
torture or mutilation could not be proved beyond a reasonable doubt.

22
23
24
25

4

Though Tuilaeapa was decided nearly 20 years ago, this state of affairs still applies today. In
the rare instances since Tuilaeapa where the Court has found an aggravator invalid on vagueness
grounds, the aggravator has consisted of pejorative adjectives that generally apply to all murders. See,
e.g., Barber v. Tennessee, 513 U.S. 1184 (1995) (mem.) (denying certiorari on other grounds, but noting
“wicked or morally corrupt” as an aggravator is “plainly impermissible” because such a state of mind
is characteristic of every murder).

26
17

App. 147

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 18 of 32

1
2
3
4
5

The jury was instructed “that the term mutilate means to cut off or permanently
destroy a limb or essential part of the body or to cut off or alter radically so as to make
imperfect.” This court upheld this definition of mutilation in Deutscher v. State, 95
Nev. 669, 677, 601 P.2d 407, 412–13 (1979), vacated on other grounds, 500 U.S. 901,
111 S.Ct. 1678, 114 L.Ed.2d 73 (1991).
We conclude that the jury instructions regarding mutilation were
constitutionally sound. We further conclude that there was sufficient evidence from
which a reasonable jury could conclude beyond a reasonable doubt that the murder of
Wendy involved mutilation.

6
7 Smith, 953 P.2d at 267-68.
8

As noted above, the jury was instructed that, to find mutilation, it must find that there was

9 mutilation “beyond that act of killing itself” and that “the term ‘mutilate’ means to cut off or
10 permanently destroy a limb or essential part of the body or to cut off or alter radically so as to make
11 imperfect.” ECF No. 109-6, p. 12-13. This instruction provides a “common sense core of meaning”
12 that a jury should be able to understand. Moreover, the Ninth Circuit Court of Appeals addressed the
13 same definition of mutilation in Deutscher v. Whitley, and concluded that it was “sufficiently clear
14 and objective to satisfy the requirements of Godfrey.” 884 F.2d 1152, 1162 (9th Cir. 1989). In
15 particular, the court of appeals noted that “[t]he cutting off or destruction of a portion of the body
16 (mutilation) is an objective difference between a murder by mutilation and any other murder.” Id.
17

As for Smith’s claim about the sufficiency of the evidence, the standard used by the federal

18 habeas court to determine whether a state court finding of an aggravating circumstance is supported
19 by sufficient evidence is the same “rational factfinder” standard established in Jackson v. Virginia,
20 443 U.S. 307 (1979), to test whether sufficient evidence supports a state conviction. Lewis v. Jeffers,
21 497 U.S. 764, 781 (1990). Under that standard, the court inquires as to “whether, after viewing the
22 evidence in the light most favorable to the prosecution, any rational trier of fact could have found the
23 essential elements of the crime beyond a reasonable doubt.” Jackson, 443 U.S. at 319 (citation
24 omitted).
25

The evidence discussed above in relation to Claim Eight was sufficient for a rational jury to

26
18

App. 148

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 19 of 32

1 find beyond a reasonable doubt that Smith’s murder of Wendy Cox involved mutilation as defined by
2 the jury instruction. Thus, Smith is not entitled to habeas relief under the Jackson standard, especially
3 in light of the extra layer of deference imposed by AEDPA. See Boyer v. Belleque, 659 F.3d 957,
4 964 -65 (9th Cir. 2011) (noting that “the state court's application of the Jackson standard must be
5 ‘objectively unreasonable’ to warrant habeas relief for a state prisoner). Claim Ten is denied.
6
7

Claim Eleven.
In Claim Eleven, Smith claims that his death sentence is in violation of his rights under the

8 Sixth Amendment because the trial court erroneously denied his request to represent himself at his
9 second penalty hearing. After his death sentences were set aside in his first direct appeal, the trial
10 court granted Smith’s request to represent himself with the county public defender acting as stand-by
11 counsel. Several months later, however, the court rejected Smith’s renewed request for self12 representation based, in part, on a finding that he was attempting to “toy with the courts.” ECF No.
13 107-10, p. 43-46. Smith argues that there was insufficient evidence to support the trial court’s
14 decision.
15

A criminal defendant has a Sixth Amendment right to self-representation. Faretta v.

16 California, 422 U.S. 806, 819–20 (1975). A defendant's decision to represent himself and waive the
17 right to counsel, however, must be unequivocal, knowing and intelligent, timely, and not for purposes
18 of securing delay. Id. at 835; United States v. Arlt, 41 F.3d 516, 519 (9th Cir. 1994). A defendant
19 must be allowed to exercise his right to self-representation so long as he knowingly and intelligently
20 waives his right to counsel and is “able and willing to abide by rules of procedure and courtroom
21 protocol.” See McKaskle v. Wiggins, 465 U.S. 168, 173 (1984). “[A] trial court may terminate
22 self-representation by a defendant who deliberately engages in serious and obstructionist
23 misconduct.” Faretta, 422 U.S. at 834 n. 46.
24

On July 25, 1995, less than two weeks before the scheduled date for the penalty hearing to

25 begin and a more than two months after the trial court ordered that Smith would be permitted to
26
19

App. 149

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 20 of 32

1 represent himself with the county public defender acting as stand-by counsel, Smith filed a petition
2 for post-conviction relief in the trial court claiming that the county public defender had provided
3 ineffective assistance of counsel at his first trial. ECF No. 107-9, p. 26-39. A few days later, he also
4 filed a motion to hold his penalty hearing in abeyance pending the outcome of his post-conviction
5 petition. Id., p. 40-43. However, at a status hearing held on August 1, 1995, Smith did not mention
6 either filing. Id., p. 44-47.
7

On August 3, 1995, the court held another status hearing, apparently prompted by Smith

8 having set a hearing on his petition for the following Tuesday, a day after his penalty hearing was set
9 to begin. ECF No. 107-10, p. 1-11. At that status hearing, the court discussed the conflicts – in terms
10 of both scheduling and stand-by representation by the county public defender – occasioned by Smith’s
11 filings. Id. Smith indicated that he had spoken with Donald York Evans, an attorney in Reno, about
12 representation and proposed that the court appoint him as counsel. Id., p. 8. The court vacated the
13 date set for the penalty hearing to allow Smith to make arrangements with Evans. Id., p. 10.
14

The court held a status hearing on August 17, 1995, at which the trial court confirmed that

15 Evans would represent Smith at the penalty hearing as lead counsel and that the state public defender
16 (a different office than the county public defender) would assist as second chair. Id., p. 25-28. Smith
17 agreed to this arrangement. Id. The court set the penalty hearing for April 15, 1996. Id.
18

In early September, Smith filed a motion to discharge counsel and to allow Smith to represent

19 himself. Id., p. 33-36. At a hearing on October 17, 1995, the trial court stated as follows:
20
21
22

Okay. Mr. Smith, really, the only way to not allow somebody to represent
themselves is a finding that either it's going to delay things, or that the defendant is
playing with the system.
My feeling is, really, for two reasons: I'm not satisfied that a waiver of counsel
in this case should be granted to you.

23
24

One: you showed during the trial, an absolute disrespect for the orderly
processes of the Court by standing up and dropping into the jury box things you
wanted them to see which included your offer to take a lie detector test.

25
Secondly: during the trial, after that didn't work and I guess they didn't read
26
20

App. 150

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 21 of 32

1

them, you just refused to be cross examined at any point after that.

2

Despite that, I'd let you waive counsel and get stand-by counsel. And on the
very eve of trial when we had everything set up, you concocted a way to get that
counsel off the case.

3
4
5

I don't think you can toy with the courts the way I believe you are attempting to
do so and I'm going to deny your motion to terminate counsel. Mr. Evans and the State
Public Defender will continue to represent you.

6 Id., p. 43-46.
7

In addressing Smith’s claim of a Faretta violation on direct appeal, the Nevada Supreme

8 Court stated as follows:
9
10

Smith argues that the trial judge committed reversible error in denying his
constitutional right to represent himself at the second penalty hearing. Smith argues
that he was forced to proceed with court-appointed counsel whom he had clearly
rejected and with whom he refused to cooperate.

11
12
13

A defendant has an “unqualified right” to self representation provided he has
made a voluntary and intelligent waiver of the right to counsel. Lyons v. State, 106
Nev. 438, 443, 796 P.2d 210, 213 (1990). However, self representation may be denied
where the defendant abuses the right of self representation by disrupting the judicial
process. Id. at 443–44, 796 P.2d at 213.

14
15
16

At the hearing on Smith's motion to waive counsel, the trial judge noted that
Smith had engaged in several disruptive acts during trial. Additionally, the trial judge
believed Smith had dilatory purposes when he moved to waive counsel. We conclude
that the trial judge did not abuse his discretion when he denied Smith's motion to
waive counsel.

17
18 Smith, 953 P.2d at 268.
19

The trial court accepted Smith’s waiver of counsel after Smith assured the court that he would

20 not disrupt proceedings as he had done at his initial trial.5 ECF No. 107-9, p. 11-12. The court was
21 understandably skeptical of Smith’s motives when he filed his petition for post-conviction relief
22 shortly before the scheduled date for his penalty hearing, then asked the court to appoint Evans:
23

. . . I think this is so calculated what you are doing now. I’ve never seen you
do anything that wasn’t calculated. And I think this is calculated to do exactly what

24
25

5

In asking for this assurance, the trial court referred the episode in which Smith left the witness
and dropped newspaper clippings in the jury box, then refused further questioning from the prosecutor.

26
21

App. 151

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 22 of 32

1
2

we’re doing which is vacate this hearing. Now, we’re only doing this once. And I
want to get this over in not only an expeditious fashion, but in a fashion where there is
some finality.

3 ECF No. 107-10, p. 9. So, when Smith moved to discharge counsel a few weeks after agreeing to the
4 court’s appointment of Evans, the court had sufficient grounds to find that Smith was attempting to
5 “toy with the courts.” As such, this court is satisfied that, under 28 U.S.C. § 2254(d), the finding was
6 not “based on an unreasonable determination of the facts in light of the evidence presented in the state
7 court proceeding.”
8

Moreover, the Nevada Supreme Court applied a standard that comports with Faretta in

9 concluding that Smith was not denied his right to self-representation under the Sixth Amendment.
10 The court’s denial of Smith’s claim was not contrary to, or an unreasonable application of, clearly
11 established federal law. Therefore, Claim Eleven shall be denied.
12
13

Claim Twelve
In Claim Twelve, Smith claims that his constitutional rights were violated when his trial

14 counsel refused to testify on his behalf. Smith argues that his counsel should have testified at trial to
15 rebut the implication that he had “concocted his testimony with counsel.” ECF No. 40, p. 67.
16

In cross-examining Smith at trial, the prosecutor asked a series of questions suggesting that

17 Smith’s lengthy pre-trial incarceration had given him the opportunity to prepare his testimony,
18 perhaps with the assistance of counsel. ECF No. 105-8, p. 16-20. The court granted defense
19 counsel’s request to approach the bench, whereupon counsel and the court discussed whether the
20 prosecutor’s line of questioning was appropriate. Id., p. 17-27.
21

During that discussion, the following exchange took place:

22

THE COURT: Well, I think what it goes to is possible bias. I don’t see how it
really prejudices him to ask those questions.

23
24
25

MR. MARTIN: Well I think that it just highlights that. [The prosecutor’s]
going to argue, as I may as well, he knows what he faces. It’s obvious to the jury that
my defendant has an interest in the outcome, that’s part of the system. I think this just
highlights that, it just highlights any argument that now he’s going to make. Well, he’s
had all this time to prepare his testimony.

26
22

App. 152

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 23 of 32

1
2

It puts us in a bind, Mr. Baker, Mr. Dahl and myself, having worked with
Joseph Smith for a year and a half, now we are potential witnesses. We could be
called to testify, and rightfully so, that from the time we first met him until today his
story has never changed.

3
THE COURT: And I don't think that that's inappropriate.
4
5

MR. MARTIN: And we may need to do that. How do we do that when we're
sitting here as his counsel, now we are potential witnesses. And I think we're in a bind
that's--something that's hard for us to get out of.

6
7 Id., p. 25.
8

Although the court was willing to allow counsel to testify, counsel insisted that the more

9 appropriate course was for the court to grant a mistrial and allow counsel to withdraw. ECF No. 10610 3, p. 3-37. At one point, defense counsel Stephen Dahl stated:
11
12
13
14
15
16
17

. . . To be candid with the Court, no matter what your ruling is, we won’t
testify at this trial. And I think the case law I’ve provided will explain why as
attorneys who are involved in representing somebody cannot be put in a position of a
witness for a number of reasons including problems that the jury might perceive,
problems of arguing your own credibility. That fact that if we testify and the jury, for
some reason, takes offense to that, for whatever reason, we’ve still got to argue the
guilt phase, plus put on a penalty phase.
So, no matter what the Court’s ruling is, we will not be testifying. We think
that we should be allowed to withdraw, that other counsel should be appointed for
another trial. And that counsel, new counsel can make the assessment of waiving
attorney/client privilege, what would be in the best interest of Mr. Smith under the
circumstances rather than us, who would be involved as witnesses, making that
determination.

18
19 Id., p. 6.
20

In ruling upon the respondents’ motion to dismiss Claim Twelve, this court concluded that

21 this claim was not procedurally defaulted because it was fairly presented to the Nevada Supreme
22 Court in Smith’s first state post-conviction proceeding. ECF No. 162, p. 10. Having again reviewed
23 the state court record in relation to the claim, the court now recognizes that that conclusion was
24 erroneous – i.e, the claim was presented for the first time in Smith’s second post-conviction
25
26
23

App. 153

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 24 of 32

1 proceeding and is, therefore, procedurally defaulted.6 See id., p. 4-10. In any case, the claim fails
2 because Smith cannot meet either prong of the Strickland test.
3

The record shows that counsel made a reasoned tactical decision to not testify. As such,

4 Strickland establishes a deferential presumption that the decision was reasonable. Strickland, 466
5 U.S. at 690–9. While Smith argues that “no valid strategic justification” supported counsel’s choice
6 (ECF No. 168, p. 37-41), counsel’s concern about the perception it would create for the jury is
7 sufficient to support a finding that counsel’s performance was within the range of reasonable
8 competence, especially given the possibility that counsel had undisclosed reasons to believe that their
9 testimony could be harmful to Smith’s defense. See Yarborough v. Gentry, 540 U.S. 1, 5-6 (2003)
10 (noting the presumption of competence “has particular force where a petitioner bases his
11 ineffective-assistance claim solely on the trial record”).
12

Moreover, Smith falls well short of establishing that he suffered Strickland-level prejudice as

13 a result of counsel’s decision to not testify. Evidence presented by the State at trial was far more
14 damaging to Smith’s credibility than the prosecutor’s questions suggesting Smith prepared his
15 testimony while waiting for trial in jail. For example, the State introduced a letter dated October 9,
16 1990, that Smith sent to Judith Smith’s son, Jeffrey Cook, in which he related an elaborate story about
17 the murders and the circumstances leading up to them. ECF No. 104-4, p. 31-35, 45-50. That version
18 of events differed significantly from the version Smith gave in his testimony at trial (ECF No. 105-7,
19 p. 9-43) and from the version Smith related to Cook in a telephone conversation on October 11, 1990
20 (ECF No. 104-4, p. 11-21). Testimony from defense counsel that Smith had consistently told them
21 the same story would not have added appreciable weight to Smith’s credibility in the eyes of the jury
22 and, as such, would not have created a reasonable probability of a more favorable outcome to Smith’s
23
6

24
25

The claim presented to the state court was a Sixth Amendment violation based on the
allegation that trial counsel did not withdraw despite an actual conflict of interest arising from their
position as witnesses. ECF No. 111-10, p. 31-33; ECF No. 111-12, p. 36-37. This is the factual basis
for Claim Thirteen, discussed below, and a fundamentally different factual theory than that advanced
in support of Claim Twelve.

26
24

App. 154

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 25 of 32

1 trial.
2

Claim Twelve is denied.

3

Claim Thirteen

4

In Claim Thirteen, Smith claims that he was deprived of effective assistance of counsel

5 because counsel’s decision to not testify was infected by an actual conflict of interest. He argues that
6 counsel were placed in a position of choosing between Smith’s interest in having counsel testify and
7 their own interests in “not violating what [they] believed to be the rules of ethics, not losing
8 credibility, and not feeling uncomfortable.” ECF No. 168, p. 43. He further argues that this conflict
9 adversely affected counsel’s representation and, therefore, he is not required to show prejudice in
10 order to obtain relief. Id. (citing Cuyler v. Sullivan, 446 U.S. 335, 349-50 (1980)).
11

Smith presented this claim to the Nevada Supreme Court in his first state post-conviction

12 proceeding. ECF No. 111-10, p. 31-33. The court rejected the claim on the ground that Smith
13 “failed to make specific allegations that indicate an actual conflict arose.” ECF No. 111-12, p. 35.
14

The problem for Smith is that no U.S. Supreme Court case has recognized a meritorious Sixth

15 Amendment claim based on a claim of conflict of interest due to counsel refusing to testify on a
16 defendant’s behalf. When no Supreme Court precedent controls the legal issue raised by a habeas
17 petitioner in state court, the state court's decision cannot be contrary to, or an unreasonable application
18 of, clearly established federal law. Wright v. Van Patten, 552 U.S. 120, 125–26 (2008); see also
19 Carey v. Musladin, 549 U.S. 70, 76–77 (2006). The Ninth Circuit Court of Appeals’ decision in
20 Foote v. Del Papa, 492 F.3d 1026 (2007), confirms that AEDPA forecloses habeas relief in this
21 instance.
22
23
24

Claim Thirteen is denied.
Claim Fourteen
In Claim Fourteen, Smith claims that his rights to due process and fundamental fairness were

25 violated by virtue of comments made by the prosecutor during closing argument at his second penalty
26
25

App. 155

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 26 of 32

1 trial.7 The allegedly improper argument that serves as the basis for Claim Fourteen consists of the
2 following:
3
4

It has been said that evil is easy and has infinite forms. This case supports that
statement. In this case evil was as easy as picking up a carpenter hammer, using a pair
of hands guided by a mind set which was in reckless disregard of consequence or
social duty.

5

7

This case profiles a family tragedy. . . . This case also profiles certain evil
violent, and murderous acts. During the early morning hours of Friday, October the
5th, 1990, an evil assailant stalked forty-seven-year-old Judith Ruth Smith, twenty
year- old Wendy Cox, and twelve-year old Kristy Cox in their bedrooms as they slept.

8

....

6

9

When you use a hammer on a twelve-year old, is that prompted by someone
with an immoral sense, with no rectitude? Is that evil?

10
11 ECF No. 152, p. 27 (excerpts are located at ECF No. 109-7, p. 27-28, 34).
12

When considered within the context of the evidence presented at trial, these remarks are not

13 necessarily objectionable, let alone grounds for habeas relief. See Fields v. Woodford, 309 F.3d 1095,
14 1109, amended 315 F.3d 1062 (9th Cir. 2002) (holding that relief will be granted when prosecutorial
15 misconduct amounts to constitutional error, and such error is not harmless). During closing
16 argument, the prosecutor is permitted to argue reasonable inferences based on the evidence. United
17 States v. Molina, 934 F.2d 1440, 1445 (9th Cir. 1991). The prosecutor is “allowed to strike hard blows
18 based upon the testimony and its inferences.” United States v. Gorostiza, 468 F.2d 915, 916 (9th Cir.
19 1972); see also United States v. Bracy, 67 F.3d 1421, 1431 (9th Cir. 1995) (upholding statement that
20 the defendant was an “imminent source of evil in this courtroom—at this moment”). While Smith
21 claims that they were “inflammatory” and intended “to inspire personal contempt” for him, the
22 prosecutor’s remarks were an accurate description of Smith’s acts and inferences arising therefrom,
23 based on evidence presented at trial. Thus, Smith is not entitled to relief based on Claim Fourteen.
24
7

25

The portion of Claim Fourteen in which Smith’s alleges that he was deprived of effective
assistance of counsel as a result of counsel’s failure to object to the prosecutor’s misconduct during
closing arguments has been dismissed as procedurally defaulted. ECF No. 162, p. 10.

26
26

App. 156

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 27 of 32

1
2

Claim Fifteen
In Claim Fifteen, Smith claims his constitutional rights were violated because the prosecutor

3 used Smith’s invocation of his right to counsel against him during cross-examination. More
4 specifically, Smith argues that the prosecutor’s questions were intended to suggest that Smith’s
5 testimony could not be believed because he invoked his right to counsel. Here again, Smith is
6 referring to the series of questions about Smith conferring with counsel during his pre-trial
7 incarceration, which, according to Smith, implied that he concocted his testimony with the assistance
8 of counsel. ECF No. 105-8, p. 16-20.
9

Smith contends that he is entitled to relief under Griffin v. California, 380 U.S. 609 (1965),

10 and Doyle v. Ohio, 426 U.S. 610 (1976). In Griffin, the Court held that that the trial court's and the
11 prosecutor's comments on the defendant's failure to testify violated the self-incrimination clause of the
12 Fifth Amendment. 380 U.S. at 614. The Court held in Doyle that the prosecution may not impeach a
13 defendant with his post- Miranda warnings silence because those warnings carry an implicit
14 “assurance that silence will carry no penalty.” 426 U.S. at 618. Though Griffin and Doyle both
15 involved a defendant’s Fifth Amendment right against self-incrimination, Smith argues that the
16 principles established in those cases extend to the prosecutor’s comments regarding Smith’s
17 invocation of his Sixth Amendment right to counsel.
18

To support such an extension, he cites to several cases from other circuits – United States ex

19 rel. Macon v. Yeager, 476 F.2d 613 (3rd Cir. 1973); Marshall v. Hendricks, 307 F.3d 36 (3rd Cir.
20 2002); United States v. McDonald, 620 F.2d 559 (5th Cir. 1980); and Zemina v. Solem, 573 F.2d 1027
21 (8th Cir. 1978). In each of those cases, the comments at issue were made in an effort to suggest that
22 defendant's retention of counsel was an indication of guilt. See Macon, 476 F.2d at 614 (prosecutor
23 argued that defendant's actions immediately after the commission of the crime, including his hiring of
24 an attorney, were inconsistent with his claim of innocence); Marshall, 307 F.3d at 71-72 (in cross25 examining defendant’s sister, prosecutor suggested that it was unreasonable for defendant to hire a
26
27

App. 157

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 28 of 32

1 lawyer if he was innocent of the murder of his wife); McDonald, 620 F.2d at 562 (prosecutor argued
2 that guilt could be inferred from the presence of defendant’s attorney during the search of defendant’s
3 home); Zemina, 573 F.2d at 1028 (prosecutor suggested in closing argument that Zemina's phone call
4 to his attorney after his arrest indicated his guilt).
5

The court in McDonald recognized a distinction between comments “that ‘strike at the

6 jugular’ of a defendant's story and those dealing only tangentially with it.” 620 F.2d at 563. Only
7 comments on a defendant's exercise of his right to counsel that fall into the former category will result
8 in a Doyle-type constitutional violation. Id.
9

Here, after the prosecutor asked Smith several questions about being incarcerated, the

10 following exchange took place:
11

Q.

You’re represented by able attorneys. Have you conferred with them throughout these
proceedings?

A.

Yes, I have, sir.

Q.

Are you fully advised as we sit here in the courtroom this morning regarding the
potential punishment –

15

A.

Yes, I am.

16

Q.

– that you may receive if convicted for murder of the first degree?

17

A.

Yes, sir, but I don’t expect to be convicted.

18

Q.

My question was, sir, have you been fully advised –

19

A.

My answer is “yes,” sir.

20

Q.

– of the punishment you may receive?

21

A.

Yes.

22

Q.

What have you been told?

23

A.

I’ve been told that you filed for the death penalty on me, sir, if I’m convicted.

24

Q.

So you understand that first degree murder carries the potential of capital punishment?

25

A.

Yes, I do.

12
13
14

26
28

App. 158

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 29 of 32

1 ECF No. 105-8, p. 18.
2 Then, after the prosecutor asked Smith more questions about the possible sentences he faced if
3 convicted, the cross-examination continued as follows:
4

Q.

So, you certainly have a great interest in how this case comes out, don’t you?

5

A.

Yes, I do, a great interest.

6

Q.

Has that great interest caused you to reflect considerably during the months you spent
in the Clark County Detention Center about what you should say on the day when you
assumed the witness stand?

A.

All I decided to say is the truth, sir.

7
8

9 Id., p. 20.
10

Far from striking “at the jugular of defendant’s story,” the prosecutor’s comments about Smith

11 consulting with counsel were designed to demonstrate that Smith had been advised of the possible
12 sentences that could result if convicted of first degree murder. The intent of the comments was to
13 establish bias, not to suggest Smith was guilty because he exercised his right to counsel. Thus, the
14 prosecutor’s comments did not burden Smith’s constitutional right to counsel. Claim Fifteen is
15 denied.
16
17

Claim Thirty
In Claim Thirty, Smith asserts that he is entitled to relief because of cumulative error. Under

18 Ninth Circuit precedent, habeas relief may be available based on the aggregate effect of multiple
19 errors even though the errors considered in isolation do not rise to the level of a constitutional
20 violation. See Davis, 384 F.3d at 654. “[C]umulative error warrants habeas relief only where the
21 errors have ‘so infected the trial with unfairness as to make the resulting conviction a denial of due
22 process.’” Parle v. Runnels, 505 F.3d 922, 927 (9th Cir. 2007) (quoting Donnelly v. DeChristoforo,
23 416 U.S. 637, 643 (1974)).
24

As set forth herein, Smith’s claims of error are, for the most part, without merit. In addition,

25 the varied nature of his alleged errors does not lend itself to a conclusion of cumulative prejudice.
26
29

App. 159

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 30 of 32

1 The evidence establishing Smith’s guilt was overwhelming and incontrovertible, thus the cumulative
2 impact of any errors occurring in that portion of the trial falls well short of rendering it fundamentally
3 unfair.
4

With respect to the penalty phase, the prejudice arising from the allegedly defective jury

5 instructions is addressed above and found wanting as a ground for relief. And, for reasons discussed
6 above, the challenged portion of the prosecutor’s closing argument did not arise to the level of
7 prosecutorial misconduct.
8

Claim Thirty is denied.

9

IV. MOTION FOR EVIDENTIARY HEARING

10

Smith asks this court to grant him an evidentiary hearing not only as to the merits of claims in

11 his petition (specifically, Claims Seven and Twelve), but also to demonstrate that the failure to
12 develop the factual bases of his claims in state court was due to ineffective post-conviction counsel.
13 ECF No. 169.
14

After Pinholster, an evidentiary hearing is pointless once this court has determined that §

15 2254(d) precludes habeas relief. See Pinholster, 131 S. Ct. at 1411 n. 20 (“Because Pinholster has
16 failed to demonstrate that the adjudication of his claim based on the state-court record resulted in a
17 decision ‘contrary to’ or ‘involv[ing] an unreasonable application’ of federal law, a writ of habeas
18 corpus ‘shall not be granted’ and our analysis is at an end.”); see, also, Sully v. Ayers, 725 F.3d 1057,
19 1075-76 (9th Cir. 2013) (holding that lower court did not abuse its discretion in denying an evidentiary
20 hearing on ineffective assistance claims that had been adjudicated in state court).
21

As noted above, the Nevada Supreme Court addressed Claim Seven on the merits and rejected

22 it. This court has concluded that § 2254(d) bars relief, so, under Pinholster, an evidentiary hearing
23 would not serve any purpose with respect to that claim. Beyond that, the court has considered the
24 evidence Smith relies upon to establish prejudice under Strickland (the opinion of Dr. Dudley
25 discussed above) and finds that, even taken at face value, it falls short of meeting the Strickland
26
30

App. 160

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 31 of 32

1 standard.
2

For reasons discussed above, Claim Twelve was not adjudicated on the merits by the Nevada

3 Supreme Court, but, instead, was procedurally defaulted. As such, Pinholster does not bar
4 consideration of new evidence with respect to the claim. In addition, Smith argues that he is allowed
5 to bypass the restrictions on evidentiary hearings imposed by 28 U.S.C. § 2254(e)(2) because his
6 failure to develop the factual bases for the claim in state court was due ineffective assistance of post7 conviction counsel.
8

Setting aside whether a hearing is barred by § 2254(e)(2), Smith has not cited to any additional

9 relevant evidence that he intends to present in support of Claim Twelve. As discussed above, the
10 reasons for counsel’s actions are set forth in the existing record and, even if counsel had testified in
11 the manner Smith claims they would have, it would not have resulted in a more favorable outcome to
12 his trial. Because he has not demonstrated that an evidentiary hearing would assist him in showing
13 that he is entitled to relief, his motion for an evidentiary hearing shall be denied. See Schriro v.
14 Landrigan, 550 U.S. 465, 474 (2007) (“In deciding whether to grant an evidentiary hearing, a federal
15 court must consider whether such a hearing could enable an applicant to prove the petition's factual
16 allegations, which, if true, would entitle the applicant to federal habeas relief.”) (citation omitted).
17

V. CONCLUSION

18

For the reasons set forth above, Smith is not entitled to habeas relief.

19

Certificate of Appealability

20

This is a final order adverse to the petitioner. As such, Rule 11 of the Rules Governing

21 Section 2254 Cases requires this court to issue or deny a certificate of appealability (COA).
22 Accordingly, the court has sua sponte evaluated the claims within the petition for suitability for the
23 issuance of a COA. See 28 U.S.C. § 2253(c); Turner v. Calderon, 281 F.3d 851, 864-65 (9th Cir.
24 2002).
25

Pursuant to 28 U.S.C. § 2253(c)(2), a COA may issue only when the petitioner "has made a

26
31

App. 161

Case 2:07-cv-00318-JCM-CWH Document 175 Filed 03/13/14 Page 32 of 32

1 substantial showing of the denial of a constitutional right." With respect to claims rejected on the
2 merits, a petitioner "must demonstrate that reasonable jurists would find the district court's assessment
3 of the constitutional claims debatable or wrong." Slack v. McDaniel, 529 U.S. 473, 484 (2000) (citing
4 Barefoot v. Estelle, 463 U.S. 880, 893 & n.4 (1983)). For procedural rulings, a COA will issue only if
5 reasonable jurists could debate (1) whether the petition states a valid claim of the denial of a
6 constitutional right and (2) whether the court's procedural ruling was correct. Id.
7

Having reviewed its determinations and rulings in adjudicating Smith’s petition, the court

8 finds that none of those rulings meets the Slack standard. The court therefore declines to issue a
9 certificate of appealability for its resolution of any procedural issues or any of Smith’s habeas claims.
10

IT IS THEREFORE ORDERED that petitioner's first amended petition for writ of habeas

11 corpus (ECF No. 40) is DENIED. The clerk shall enter judgment accordingly.
12

IT IS FURTHER ORDERED that petitioner’s motion for evidentiary hearing (ECF No. 169)

13 is DENIED.
14

IT IS FURTHER ORDERED that a certificate of appealability is DENIED.

15

DATED: March 13, 2014.

16
17
18

_________________________________________
UNITED STATES DISTRICT JUDGE

19
20
21
22
23
24
25
26
32

App. 162

APPENDIX F
Opinion affirming denial of habeas relief, Smith v.
State, Supreme Court of the State of Nevada, Case
No. 228786 (Jan. 22, 1998)

App. 163

..

,

953 P.2d 264
(Cite as: 953 P.2d 264)

Page 1

;r

Joseph Weldon SMITH, Appellant,

v.
Toe STATE of Nevada, Respondent.
, No. 28786.

constituted "serious and depraved physical abuse";
aggravating circumstance based upon depravity of
mind must include torture or mutilation beyond act
of killing itself. N.R.S. 200.033, subd. 8 (1994).
See publication Words and Phrases for other judicial
constructions and definitions.

Supreme Court of Nevada.

[4] HOMICIDE ~311
Jan. 22, 1998.
Rehearing Denied March 23, 1998.
Defendant, convicted and sentenced to death for
first-degree murder with use of deadly weapon of
his wife and her two daughters, appealed sentences.
The Supreme Court, 110 Nev. 1094, 881 P.2d 649,:.
vacated sentences, and remanded for new penalty
hearing. On remand, defendant was sentenced to
death in the District Court, Clark County, Jeffrey
D. Sobel, J. Defendant appealed. The Supreme
Court, Shearing, J., held that: (1) instruction on
depravity of mind was deficient; (2) instruction on
mutilation was proper;
(3) evidence of wife's
murder was admissible; and (4) evidence supported
denial of defendant's motion to waive counsel.
Affirmed in part, vacated in part.
Springer, C.J., dissented.

[1] HOMICIDE ~351
203k351
Depravity of mind aspect of aggravating
circumstance under first-degree murder statute, as
narrowly construed to require torture, mutilation or
other serious and depraved physical abuse beyond
killing itself, was not unconstitutionally vague and
ambiguous as written. N.R.S. 200.033, subd. 8
(1994).
[2] HOMICIDE ~357(11)
203k357(ll)
Depravity' of mind, as aggravator under first-degree
murder statute, may only be relied on where
evidence of torture or mutilation exists. N.R.S.
200.033, subd. 8 (1994).
[3] HOMICIDE ~311
203k311
In first-degree murder sentencing, instruction on
aggravating circumstance of "depravity of mind"
was deficient in failing to give guidance as to what

203k311
Instruction, that term "mutilate" means to cut off or
permanently destroy limb or essential part of body
or to cut off or alter radically so as to make
imperfect, was proper for determining existence of
aggravating circumstance in first-degree murder
sentencing. N.R.S. 200.033, subd. 8 (1994).
See publication Words and Phrases for other judicial
constructions and definitions,
[5] HOMICIDE ~357(11)
203k357(11)
In first-degree
murder sentencing,
despite
defendant's contention that because medical
examiner testified external injuries of one victim
occurred at about same time as her death and that
blows to her head could have rendered her
unconscious, torture or mutilation could not be
proved beyond reasonable doubt, there was
sufficient evidence from which reasonable jury could
conclude beyond reasonable doubt that murder
involved mutilation.
N.R.S. 200.033, subd. 8
(1994).
[6] HOMICIDE ~343
203k343
In step-father's sentencing for first-degree murder of
his two step-daughters, any error in admitting
testimony and autopsy photographs regarding
murdered mother was harmless; evidence regarding
mother was cumulative of other evidence of violence
to daughters, and revealed that mother suffered
fewer blows in comparison to one daughter. N.R.S.
200.033, subd. 8 (1994).

[7] CRIMINAL LAW ~641.4(1)
110k641.4(1)
Defendant has "unqualified right" to selfrepresentation provided he has made voluntary and
intelligent waiver of right to counsel; however, selfrepresentation may be denied where defendant
abuses right of self- representation by disrupting
judicial process. U.S.C.A. Const.Amend. 6.

Copr. © West 1998 No Claim to Orig. U.S. Govt. Works

App. 164

953 P.2d 264
(Cite as: 953 P.2d 264)
77
"1J
0
·-i
(;)

c:,
V1

.......
V1

Page2

[7] CRIM1NAL LAW <P641.8

110k641.8
Defendant has "unqualified right" to selfrepresentation provided he has made voluntary and
intelligent waiver of right to counsel; however, selfrepresentation may .be denied where defendant
abuses right of self- representation by disrupting
judicial process. U.S.C.A. Const.Amend. 6.
[8] CRIM1NAL LAW <P641.8
·1'10k641.8
Trial judge, who noted that defendant had engaged
in several disruptive acts during trial, and who
additionally believed that defenda.-it had dilatory
purpose when he moved to waive counsel, did not
abuse his discretion in denying motion to waive.
counsel. U.S.C.A. Const.Amend. 6.
·
*265 Steven G. McGuire, State Public Defender,
Carson City, Donald York Evans, Reno, for
Appellant ..

Frankie Sue Del Papa, Attorney General, Carson
City, Stewart L. Bell, District Attorney, and James
Tufteland, Chief Deputy District Attorney, Clark
County, for Respondent.
OPINION
SHEARING, Justice.
The facts of this case are set forth in Smith v.
State, 110 Nev. 1094, 881 P.2d 649 (1994) ("Smith
I "). On October 6, 1990, police officers for the
City of Henderson entered the home of appellant
Joseph Weldon Smith ("Smith") and discovered, in
separate bedrooms, the bodies of Judith Cox
("Judith"), Smith's wife, and Smith's stepdaughters
Kristy Cox ("Kristy") and Wendy Jean Cox
("Wendy"). On December 11, 1992, Smith was
convicted of three counts of first-degree murder with
use of a deadly weapon and sentenced to death for
the murders of Kristy and Wendy.

In Smith I, we stated:
Since the jury was not instructed that depravity of
mind must include torture, mutilation or other
serious and depraved physical abuse beyond the act
of killing itself and since the jury may have found
depravity of mind and not torture or mutilation, we
hold that NRS 200.033(8) was unconstitutionally
applied in this case.
110 Nev. at 1104, 881 P.2d at 655-56. Since NRS

200.033(8) [FNI] was the single aggravating
circumstance at issue, we vacated the sentences of
death and remanded the case to the district court for
a new penalty hearing.
FNI. Prior to October 1995, NRS 200.033(8} read:
"The only circumstances by which murder of the
first degree may be aggravated are: . . . . (8) The
murder involved torture, depravity of mind or the
mutilation of the victim.• The revised provision
states in pertinent part: "The murder involved
torture or the mutilation of the victim.• NRS
200.033(8). This amendment went into effect on
October I, 1995 and did not apply to murders
committed before that date. 1995 Nev. Stat., ch.
467, § 2, at 1491. Accordingly, the pre-1995
version was the law at the time of Smith's trial.

On April 16, 1996, a second penalty hearing w?,1
held. After the close of evidence, Smith's counsel
made a motion to dismiss all aggravating
circumstances as to Kristy, arguing that there was
insufficient evidence of torture, mutilation, or
depravity of mind. The court granted the motion in
part, eliminating the grounds of torture and
mutilation of Kristy.
The jury found that the murder of Wendy involved
depravity of mind and mutilation and that the
murder of Kristy involved depravity of mind. The
jury then found that the aggravating circumstances
outweighed any mitigating circumstance or
circumstances in each case and imposed a sentence
of death for each murder. On May 7, 1996, the
district court entered an amended judgment of
conviction. Smith now appeals.
Smith argues that NRS 200.033(8) was
unconstitutionally vague and ambiguous as written
and as applied.
To avoid "the arbitrary and capricious infliction of
the death penalty," a state "must channel the
sentencer' s discretion by 'clear and objective
standards' that provide 'specific and detailed
guidance,' and that 'make rationally reviewable the
process for imposing a sentence of death.' •
Godfrey v. Georgia, 446 U.S. 420, 428, 100 S.Ct.
1759, 1764-1765, 64 L.Ed.2d 398 (1980) (footnotes
omitted).

In Godfrey, the statutory aggravating circumstance
at issue authorized imposition of the death penalty if

Copr. © West 1998 No Claim to Orig. U.S. Govt. Works

App. 165

953 P.2d 264
(Cite as: 953 P.2d 264, *265)
a murder was "outrageously or wantonly vile,
horrible or inhuman in that it involved torture,
depravity of mind, or an aggravated battery to the
victim." 446 U.S. at 422, 100 S.Ct. at 1762. A
plurality of the United States Supreme Court held
that the petitioner's death sentence must be reversed
*266 because the state courts had failed to apply a
narrowing construction of this aggravating
circumstance. Id. at 432, 100 S.Ct. at 1767.
• Writing for the plurality, Justice Stewart explained
the state supreme court's responsibility to keep the
statutory
aggravating
circumstance
within
constitutional bounds. Id. at 429: 100 S.Ct. at
1765. In Gregg v. Georgia, 428 U.S. 153, 201, 96
S.Ct. 2909, 2938, 49 L.Ed.2d 859 (1976), the joil).f
opinion by Justices Stewart, Powell, and Stevens·
had stated, "It is . . . arguable that any murder
involves depravity of mind or an aggravated battery.
But this language need not be construed in this way,
and there is no reason to assume that the Supreme
Court of Georgia will adopt such an open-ended
construction." Thus, the state courts' construction
of this aggravating circumstance determines its
constitutionality.
(1] In Deutscher v. Whitley, 884 F.2d 1152, 1162
(9th Cir.1989), vacated on other grounds, 500 U.S.
901, 111 S.Ct. 1678, 114 L.Ed.2d 73 (1991), the
Ninth Circuit held that a jury instruction on
depravity of mind based on NRS 200.033(8) did not
satisfy
the
Godfrey
requirements.
[FN2]
Accordingly, in Robins v. State, 106 Nev. 611,629,
798 P.2d 558, 570 (1990), we adopted a narrow
construction, "requiring torture, mutilation or other
serious and depraved physical abuse beyond the act
of killing itself, as a qualifying requirement to an
aggravating circumstance based in part upon
depravity of mind." Thus construed, the depravity
of mind aspect of the aggravating circumstance is
not unconstitutional as written. Id.
FN2. The instruction in Deutscher stated:
[nhe condition of mind described as depravity of
mind is characterized by an inherent deficiency of
moral sense and rectitude. lt consists of evil,
corrupt and pervened intent which is devoid of
regard for human dignity and which is indifferent to
human life. It is a state of mind outrageously,
wantonly vile, horrible or inhuman.
884 F .2d at 1162 n. I.

[2] Since Robins, this court has upheld sentences of

Page3

death based on depravity of mind only where there
has been evidence of mutilation or of torture. In
Jones v. State, 107 Nev. 632, 635, 817 P.2d 1179,
1181 (1991), we explained, •According to NRS
200.033(8), as construed by this court, depravity of
mind is an aggravating circumstance where the
murder involves torture or mutilation of the victim."
In Domingues v. State, 112 Nev. 683, 917 P.2d
1364 (1996), cert. denied, --- U.S. ----, 117 S.Ct.
396, 136 L.Ed.2d 311 (1996), we held that there
was insufficient evidence to support the aggravating
circumstance of torture, depravity of mind, or
mutilation because there was no evidence that : the
defendant had committed an act of torture or
mutilation. [FN3]
FN3. To the extent that the above-quoted passage
from Smith I may have created some confusion o,:?
the issue, depravity of mind, as an aggravator, may
only be relied upon where evidence of tenure or
mutilation exists.

In the present case, the trial judge determined that
there was insufficient evidence that mutilation and
torture were involved in the murder of Kristy.
Accordingly, the trial judge ruled that mutilation and
torture would not be considered as to Kristy, and the
jury was instructed as follows:
Instruction No. 7: [FN4]
FN4. The trial judge interrupted defense counsel's
closing argument to elaborate on Instruction No. 7
as follows:
-to the extent that Mr. Evans is saying that there
may be some confusion as to whether there is one
aggravating circumstance or more than one, he's
absolutely correct; there is only one aggravating
circumstance that is alleged by the State in this case,
and that is composed of the subpans mutilation,
tenure or depravity of mind.
I'm going to correct what is a fairly broad
instruction, which is Instruction Number 7, to
specifically say, "The State has alleged that an
aggravating circumstance is present in this case,• so
there can be no doubt that it is one aggravating
circumstance with three subpans. One of those
subpans is related to one of the victims or is alleged
by the State with reference to one of the victims, all
three of the subpans are alleged with reference to
the other victim; but it is only one total aggravating
circumstance.

The State has alleged that an
circumstance is present in this case.

aggravating

Copr. <0 West 1998 No Claim to Orig. U.S. Govt. Works

App. 166

,...
::r

953 P.2d 264
(Cite as: 953 P.2d 264, *266)
The defendant have [sic] alleged that certain
mitigating circumstances are present in this case.
It shall be your duty to determine:
*267 (a) Whether an aggravating circumstance or
circumstances are found to exist; and
(b) Whether a mitigating circumstance or
circumstances are found to exist; and
(c) Based upon these findings, whether a defendant
should be sentenced to life imprisonment or death.
The law never requires that you impose a sentence
of death. The jury may impose a sentence of death
only if it finds at least one aggravating
circumstance has been established beyond a
reasonable doubt and further finds that there are no
mitigating circumstances sufficient to outweigh theeaggravating circumstances found.
0
Otherwise, the punishment imposed shall be
imprisonment in the State Prison for life with o·r
without the possibility of parole.
Instruction No. 8:
You are instructed that the following factors are
circumstances by which Murder of the First
Degree may be aggravated:
The murder involved, torture, depravity of mind or
the mutilation of the victim.
The State is alleging depravity of mind in the
murder of Kristy Cox.
The State is alleging torture or depravity of mind
or mutilation in the murder of Wendy Cox.
Jury instruction No. 10 was identical to the
instruction on depravity of mind given in the first
penalty hearing:
The condition of mind described as depravity of
mind is characterized by an inherent deficiency of
moral sense and rectitude. It consists of evil,
corrupt and perverted intent which is devoid of
regard for human dignity and which is indifferent
to human life. It is a state of mind outrageously,
wantonly vile, horrible or inhuman.
In addi~n. on remand, the jury was given
instruction No. 11:
In order to find either torture or mutilation of a
victim you must find that there was torture or
mutilation beyond the act of killing itself.
In order to find depravity of mind you must find
serious and depraved physical abuse beyond the act
of killing itself.
Given the insufficient evidence that the murder of
Kristy involved torture or mutilation, the trial judge
may have implicitly decided that •serious and

Page 4

depraved physical abuse" involved less physical
abuse than torture or mutilation. In any event, the
jury was given definitions for torture and mutilation,
but given no guidance as to what constitutes •serious
and depraved physical abuse.• This jury instruction
is a departure from what this court has previously
determined is constitutionally acceptable.
[3] We conclude that the jury instruction on
depravity of mind failed to properly channel the
jury's discretion in connection with the charges,
stemming from Kristy's death. See Godfrey, 446
U.S. at 428, 100 S.Ct. at 1765. An aggravating
circumstance based upon depravity of mind must
include torture or mutilation beyond the act of
killing itself. We vacate the sentence of death as to
Kristy and impose a sentence of life imprisonrner)
without the possibility of parole in its place. NRS
177.055(3)(c).
Smith contends that the jury instruction regarding
mutilation was unconstitutionally vague and
ambiguous. Smith further contends that because the
medical examiner testified that Wendy's external
injuries occurred at about the same time as her death
and that the blows to her head could have rendered
her unconscious, torture or mutilation could not be
proved beyond a reasonable doubt.
The jury was instructed • that the term mutilate
means to cut off or permanently destroy a limb or
essential part of the body or to cut off or alter
radically so as to make imperfect.• This court
upheld this definition of mutilation in Deutscher v.
State, 95 Nev. 669, 677, 601 P.2d 407, 412-13
(1979), vacated on other grounds, 500 U.S. 901,
111 S.Ct. 1678, 114 L.Ed.2d 73 (1991).
[4][5] We conclude that the jury instructions
regarding mutilation were constitutionally sound.
We further conclude that there was sufficient
evidence from which a reasonable jury could
conclude beyond a reasonable *268 doubt that the
murder of Wendy involved mutilation.
Smith argues that the trial judge abused his
discretion by admitting testimony and autopsy
photographs regarding Judith's death.
Smith
contends that any probative value of this evidence
was outweighed by its prejudicial effect because the
hearing only concerned the murders of Kristy and
Wendy.

Copr. <C West 1998 No Claim to Orig. U.S. Govt. Works

App. 167

c....
V\
3'

953 P.2d 264
(Cite as: 953 P.2d 264, *268)
The State argues that the probative value of
evidence regarding Judith outweighed its prejudicial
effect because the crimes against Judith, Kristy and
Wendy were intertwined.
"The decision to admit particular evidence during
the penalty phase is within the sound discretion of
the trial court, and will not be overturned absent an
abuse of that discretion. The evidence must be
relevant and must be more probative than
•prejudicial." Pellegrini v. State, 104 Nev. 625,
631, 764 P.2d 484, 488 (1988) (citations omitted);
see NRS 48.035.
[6] The testimony and photographs regarding Judith
had little probative value because Smith was not.
being resentenced for Judith's murder. However,
the record reveals that Judith suffered few blows iii
comparison to Wendy.
The State presented
extensive testimony and autopsy photographs
regarding Kristy's 3.lld Wendy's physical injuries.
Evidence regarding Judith was cumulative of other
evidence of violence to Wendy and Kristy;
therefore, we conclude that any error in admitting it
was harmless.
Smith argues that • the trial judge committed
reversible error in denying his constitutional right to
represent himself at the second penalty hearing.
Smith argues that he was forced to proceed with
court-appointed counsel whom he had clearly
rejected and with whom he refused to cooperate.
[7] A defendant has an "unqualified right" to self
representation provided he has made a voluntary and

Pages

intelligent waiver of the right to counsel. Lyons v.
State, 106 Nev. 438, 443, 796 P.2d 210, 213
( 1990). However, self representation may be denied
where the defendant abuses the right of self
representation by disrupting the judicial process. Id.
at 443-44, 796 P.2d at 213.
[8] At the hearing on Smith's motion to waive
counsel, the trial judge noted that Smith had engaged
in several disruptive acts during trial. Additionally,
the trial judge believed Smith had dilatory purposes
when he moved to waive counsel. We conclude that
the trial judge did not abuse his discretion when he
denied Smith's motion to waive counsel.
We vacate the sentence of death for the murder of
Kristy, and impose a sentence of life imprisonment
without the possibility of parole in its place. W!
affirm Smith's sentence of death for the murder of
Wendy.
ROSE, YOUNG and MAUPIN, JJ., concur.
SPRINGER, Chief Justice, dissenting:
I dissent to the death penalty judgment with respect
to the murder of Wendy. The death penalty is based
entirely upon mutilation as the sole aggravating
factor. The definition of mutilation given by the
court is incomplete and lacks the element of specific
intent. See Browne v. State, 113 Nev. 305, 933
P.2d 187 (1997) (Springer, J., dissenting).
END OF DOCUMENT

Copr. © West 1998 No Claim to Orig. U.S. Govt. Works

App. 168

